<html>
<title> - UNITED STATES DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  UNITED STATES DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                           Serial No. 110-58

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-245                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 10, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2

                               WITNESSES

The Honorable Alberto Gonzales, Attorney General, U.S. Department 
  of Justice
  Oral Testimony.................................................     5
  Prepared Statement.............................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Article published in The New York Times, May 4, 2007, submitted 
  by the Honorable Linda T. Sanchez, a Representative in Congress 
  from the State of California, and Member, Committee on the 
  Judiciary......................................................    39
Article published in the Houston Chronicle, April 5, 2007, and 
  April 8, 2007, submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    59
Letter from Randy Mastro, Gibson, Dunn & Crutcher, submitted by 
  the Honorable Chris Cannon, a Representative in Congress from 
  the State of Utah, and Member, Committee on the Judiciary......    64
Articles published in various sources, submitted by the Honorable 
  Steve King, a Representative in Congress from the State of 
  Iowa, and Member, Committee on the Judiciary...................   101
Article published in The New York Times, April 16, 2007, 
  submitted by the Honorable Tammy Baldwin, a Representative in 
  Congress from the State of Wisconsin, and Member, Committee on 
  the Judiciary..................................................   160
Articles published in various sources, submitted by the Honorable 
  Daniel E. Lungren, a Representative in Congress from the State 
  of California, and Member, Committee on the Judiciary..........   174

                                APPENDIX

               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............   191
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress from the State of California........   195
Post-Hearing Questions from the Honorable John Conyers, Jr., 
  Chairman, Committee on the Judiciary and Committee Members 
  Robert C. Scott, Sheila Jackson Lee, Tammy Baldwin, Luis V. 
  Guiterrez, and Brad Sherman....................................   196
Post-Hearing Questions from the Honorable Lamar Smith, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Committee on the Judiciary.............................   222
Responses to Post-Hearing Questions from the Honorable Alberto 
  Gonzales, Attorney General, U.S. Department of Justice.........   244


                  UNITED STATES DEPARTMENT OF JUSTICE

                              ----------                              


                         THURSDAY, MAY 10, 2007

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Berman, Boucher, Nadler, 
Scott, Watt, Lofgren, Jackson Lee, Waters, Delahunt, Wexler, 
Sanchez, Cohen, Johnson, Sherman, Weiner, Schiff, Davis, 
Wasserman Schultz, Ellison, Baldwin, Smith, Sensenbrenner, 
Coble, Gallegly, Goodlatte, Chabot, Lungren, Cannon, Keller, 
Issa, Pence, Forbes, King, Feeney, Franks, Gohmert, and Jordan.
    Staff present: Perry Apelbaum, Staff Director and Chief 
Counsel; Joseph Gibson, Minority Chief Counsel; Elliot 
Mincberg, Chief Oversight Counsel; and Renata Strause, Staff 
Assistant.
    Mr. Conyers. Good morning. The Committee will come to 
order.
    Welcome, everyone.
    Mr. Attorney General, I want to thank you for appearing 
before us today. It is my hope that the Members will focus 
their questions today on the United States attorney 
investigation and related matters, and that in the near future 
you will come back so that we may exercise our oversight 
responsibility, considering the many important issues that 
involve the Department of Justice.
    I know I speak for every Member of this panel when I say 
that we all want the Department of Justice to succeed in its 
mission as the premier law enforcement agency in the nation, 
and perhaps in the world.
    The laws under your jurisdiction, from civil rights, voting 
rights, to crime, to antitrust, to bankruptcy and the 
environment, are among the most important charters of our 
society and are critical to our well-being as a nation and as a 
democracy.
    At the same time, I am sure we agree, you and I, that any 
hint or indication that the department may not be acting fairly 
and impartially in enforcing the nation's laws, or in choosing 
the nation's law enforcers, has ramifications far beyond the 
department itself, and casts doubt upon every action or 
inaction your office and your employees take.
    So, when we learn that several U.S. attorneys were added to 
the termination list only after they decided to pursue criminal 
investigations involving Republican officials, or after 
complaints that they were not pursuing investigations against 
Democrats, we must insist that we understand exactly how this 
came into existence and how the list itself of those discharged 
came into existence.
    When we learn that most of the U.S. attorneys forced to 
resign were among the highest rated and most able in the 
nation, that they were told that they were being displaced to 
create a bigger Republican farm team while others were retained 
because they were ``loyal Bushies,'' it creates the impression 
that the department has placed partisan interests above the 
public interest.
    When a respected former career attorney at the Civil Rights 
Division testifies that he has been directed to alter 
performance evaluations based on political considerations, when 
I receive an anonymous letter, apparently from Department of 
Justice employees, complaining that candidates for career 
positions have been subjected to political litmus tests, and 
when the Attorney General has secretly delegated his authority 
to hire and fire non-civil service employees, this calls into 
question the department's commitment to fair and impartial 
justice.
    When the White House gives us a take-it-or-leave-it offer 
for a one-time, off-the-record interview, without transcripts, 
which I have referred to as ``meet us at the pub for fish and 
chips so we can talk,'' which no self-respected investigator 
would accept, makes open-ended claims of executive privilege, 
and loses or destroys millions of e-mails relevant to our 
investigation, one asks whether the Administration is trying to 
cover up two simple truths: who created the list and why.
    And when we learned this morning, page one, Washington 
Post, that another U.S. attorney in Missouri was forced out, 
contrary to repeated assurances that the eight U.S. attorneys 
whose circumstances we have been examining for the past few 
months were the entire list, it makes us wonder when we will 
get the entire truthful report about this matter.
    Now, to those who might say that it is time to move on and 
end our investigation, allow me to remind you of a couple 
things. The matters that have come to light to date are quite 
serious.
    Sitting prosecutors have faced political pressure to bring 
or not bring cases. Numerous misstatements by senior officials 
regarding the firings have been made to Congress. The 
reputations of good and honest public servants have been 
besmirched. Former U.S. attorneys have been pressed not to 
cooperate with our investigation. And the Presidential Records 
Act and Hatch Act may have been violated.
    But most important of all, however, the department's most 
precious asset, its reputation for integrity and independence, 
has been called into question. Until we get to the bottom of 
how this list was created and why, those doubts will persist.
    I am pleased now to turn to the Ranking Member of the House 
Judiciary Committee, my friend, the gentlemen from Texas, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    And welcome, Mr. Attorney General.
    We expect much of this hearing to focus on the U.S. 
attorneys controversy. We have investigated this situation for 
2 months. We have nearly 10,000 pages of interview transcripts 
and documents. The public, the media and Committee staff have 
all scoured them.
    We have held three hearings, featuring 18 witnesses. We 
have had four subpoena markups, and have subpoenaed 12 
individuals and many associated documents.
    We have held 10 interviews, spanning more than 50 hours. We 
will soon hear from Monica Goodling, whose testimony we have 
taken the extraordinary step of immunizing. And, of course, we 
all have access to the testimony generated in the Senate.
    As we have gone forward, the list of accusations has 
mushroomed. But the evidence of genuine wrongdoing has not.
    Mr. Attorney General, this investigation may find that you 
and your staff did only what you were accused of at the start: 
the unremarkable and perfectly legal act of considering 
ordinary politics in the appointment and oversight of political 
appointees.
    It amounts to the criminalization of politics, particularly 
the partisan criminalizing of the politics of this 
Administration.
    Mr. Attorney General, you and your staff have stated time 
and again that what you tried to undertake was a good 
government review of political appointees to identify where new 
appointees might do better.
    You acknowledged that the White House was involved. Of 
course it was. The political appointees were theirs. So were 
the political priorities that the department was asked to focus 
on, such as gun crime and human trafficking.
    By emphasizing that politics affected your motivations, 
your political opponents have tried to paint your exercise as 
something out of bounds.
    I do not want to belittle this controversy. Some serious 
questions remain unanswered. But we shouldn't kid ourselves. In 
an L.A. Times poll last month, 63 percent of Americans believed 
that Congress is pursuing this matter to gain partisan 
advantage.
    Today is our first opportunity to see you since the tragedy 
of Virginia Tech. Two months ago, we marked the third 
anniversary of the terrorist attack in Spain. Today, a 
terrorist could cross our porous borders in California, 
Arizona, New Mexico or Texas carrying deadly weapons.
    Six months from now, on the anniversary of September 11th, 
I hope we don't find ourselves asking why we spent our time 
today asking you more questions about your hiring decisions.
    What we need to do is wrap up the U.S. attorneys 
controversy. With one exception, we have concluded interviews 
of all the major department players in the controversy. We have 
you here to answer our questions today. All that is necessary 
with respect to the Department of Justice after today is to 
hear from Monica Goodling, and we will do that soon.
    For nearly 2 months the White House has offered to let us 
interview its employees and review its documents. We need to 
take that offer now. If we had accepted it, our questions might 
have been answered long ago.
    Mr. Attorney General, we trust that you will answer our 
questions to the best of your ability, and we look forward to 
your answers.
    But we should not conduct an endless, piscine expedition. 
If there are no fish in this lake, we should reel in our lines 
of questions, dock our empty boat and turn to more pressing 
issues.
    Mr. Chairman, I will yield back the balance of my time.
    Mr. Conyers. Thank you very much, Lamar Smith.
    We will accept all other Members' opening statements to be 
included in the record at this point.
    Welcome again, Attorney General Gonzales.
    You have held this position since February 2005, and before 
that was White House counsel. You enlisted in the Air Force 
right out of high school, attending the Air Force Academy, 
finishing your undergraduate studies at Rice and earning your 
law degree at Harvard. You spent a decade in private practice 
at the Houston law firm of Vinson & Elkins, and then in 1994 to 
serve as Governor-elect George Bush's general counsel, then 
secretary of state and later Texas Supreme Court justice, 
before coming to Washington in 2001.
    Mr. Attorney General, we generally allow our witnesses 5 
minutes to summarize or augment their written statement. And 
yours is included in the record. But because you are here today 
under unusual circumstances, we would like to give you 
flexibility to speak longer than that, if you care to.
    And so we hope that you could address this morning's 
revelation at least one other former U.S. attorney belongs on 
the list that was forced out, and why we are hearing about the 
matter today from The Washington Post.
    Again, on behalf of everybody on this Committee, we welcome 
you and invite you to proceed in your own way.
    Mr. Smith. Point of order, Mr. Chairman. Point of order, 
Mr. Chairman.
    Mr. Conyers. What is happening? Why?
    Mr. Smith. Mr. Chairman, with respect to the rules 
governing the decorum of a hearing, I have brought to the 
attention of the Chairman the presence of a banner on the 
person of an individual placed in a position such that that 
person's banner would be revealed every time cameras are on the 
witness.
    This is not a star chamber. This is supposed to be a 
hearing. And I would make my point of order that that is an 
illegal protest in these hearings, and ask that the individual 
be removed before the Attorney General begins his testimony.
    Mr. Conyers. I don't think there is anything wrong with 
that.
    And I invite the person who is identified to please excuse 
herself from these proceedings. This is not a political rally. 
And with the right attire, you are perfectly welcome to re-
enter this chamber.
    And don't make any statements please. Thank you.
    Oh, come on now. We have done this too long. We have spent 
far too much time trying to resolve this.
    Thanks a lot.
    And I want everyone to know in the audience, please, no 
signs, no demonstrations, no exercise, for a few hours, of your 
first amendment rights when we are having this important 
hearing.
    Mr. Smith. I thank the Chair.
    Mr. Conyers. Thank you.
    I apologize, Mr. Attorney General, and we invite you to 
proceed.

TESTIMONY OF THE HONORABLE ALBERTO GONZALES, ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Gonzales. Thank you, Mr. Chairman. I will take less 
than the 5 minutes, but I am grateful for the offer.
    Chairman Conyers, Ranking Member Smith and Members of the 
Committee, I have provided the Committee with a rather lengthy 
written statement detailing some of the department's work under 
my leadership to protect our nation, our children and our civil 
rights. I am proud of our past accomplishments in these and 
other areas, and I look forward to future achievements.
    I am here, however, to answer your questions to the best of 
my ability and recollection, not to repeat what I have provided 
in writing.
    Before we begin, I want to make three brief points about 
the resignations of the eight United States attorneys. These 
points are basically the same ones that I made before the 
Senate Judiciary Committee last month. My feelings and 
recollections about this matter have not changed since that 
time.
    First, as I have said repeatedly, each of those United 
States attorneys are fine lawyers and dedicated public 
servants. I have publicly apologized to them and to their 
families for allowing this matter to become an unfortunate and 
undignified public spectacle, for which I accept full 
responsibility.
    Second, as I have said before, I should have been more 
precise when discussing this matter. I understand why some of 
my statements generated confusion, and I have subsequently 
tried to clarify my words.
    That said, I believe what matters most is that I have 
always sought the truth in every aspect of my professional and 
personal life. This matter has been no exception.
    I have never sought to mislead or deceive the Congress or 
the American people. To the contrary, I have been extremely 
forthcoming with information, and I am here today to continue 
to do my part to ensure that all facts about this matter are 
brought to light.
    Finally, recognizing my limited involvement in the 
process--a mistake that I freely acknowledge--I have soberly 
questioned my prior decisions. I have reviewed the documents 
available to the Congress.
    But please keep in mind that in deference to the integrity 
of the ongoing investigations, there is some information that I 
have not seen that you have seen.
    I have also asked the Deputy Attorney General if I should 
reconsider my decisions.
    What I have concluded is that although the process was not 
as rigorous or as structured as it should have been, and while 
reasonable people might decide things differently, my decision 
to ask for the resignations of these U.S. attorneys was not 
based on improper reasons, and, therefore, the decisions should 
stand.
    I think we agree on what would be improper. It would be 
improper to remove a U.S. attorney to interfere with or 
influence a particular prosecution for partisan political gain. 
I did not do that. I would never do that.
    Let me conclude by saying that I have learned important 
lessons from this experience which will guide me in my 
important responsibilities. In recent weeks, I have met or 
spoken with all of our U.S. attorneys to hear their concerns. 
These discussions have been open and, quite frankly, very 
frank. Good ideas were generated and are being implemented.
    I look forward to working with these men and women to 
pursue the great goals of our department.
    I also look forward to working--continuing to work with the 
department's career professionals, investigators, analysts, 
prosecutors, lawyers and administrative staff, who perform 
nearly all of the department's work and deserve the most credit 
for our accomplishments.
    I want to continue working with this Committee as well. We 
have made great strides in protecting our country from 
terrorism, defending our neighborhoods against the scourge of 
gangs and drugs, shielding our children from predators and 
preserving the public integrity of our public institutions. I 
do not intend to allow recent events to deter us from our 
mission.
    Thank you, Mr. Chairman.
    [Prepared statement of Attorney General Gonzales follows:]

        Prepared Statement of the Honorable Alberto R. Gonzales

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Conyers. Thank you, Mr. Attorney General.
    Let me begin the questions.
    I want to ask how the U.S. attorney termination list came 
to be, who suggested putting most of these U.S. attorneys on 
the list, and why.
    Now, that is the question that overhangs everything we are 
doing here. If we can answer that, I think outside of the 
reticence of the White House to cooperate, we would make 
incredible gains in trying to put this matter to rest, as the 
gentleman from Texas, Mr. Smith, has suggested we do as soon as 
possible.
    Tell me about it.
    Mr. Gonzales. Mr. Chairman, I accept full responsibility 
for the notion of doing an evaluation of the performance of 
United States attorneys.
    I think as a matter of good government, we have an 
obligation as heads of the department to ensure that public 
servants are in fact doing their job.
    And therefore, I directed Mr. Sampson--my then deputy chief 
of staff, and most recently my former chief of staff--to 
coordinate and organize a review of the performance of United 
States attorneys around the country.
    I expected that Mr. Sampson would consult with the senior 
leadership of the department, that he would consult with 
individuals who would know about the performance of the United 
States attorneys much more than I.
    Mr. Conyers. But, Mr. Attorney General, you are the one who 
is here at the hearing.
    Mr. Gonzales. Yes.
    Mr. Conyers. You are the one that we talk to as the 
Judiciary Committee regularly communicates with the head of the 
Department of Justice. I approve and congratulate you on all 
those hearings, and investigation.
    But just tell me how the U.S. attorney termination list 
came to be and who suggested putting most of these U.S. 
attorneys on the list and why. Now, that should take about 
three sentences, but take more. But tell me something.
    Mr. Gonzales. Mr. Chairman, it is my understanding that 
what Mr. Sampson engaged in was a process of consulting with 
the senior leadership in the department about the performance 
of specific individuals, and that toward the end of that 
process, in the fall of 2006, what was presented to me was a 
recommendation that I understood to be the consensus 
recommendation of the senior leadership of the department.
    Mr. Conyers. Okay. In other words, you don't know. And I am 
not putting words in your mouth, but you haven't answered the 
question.
    I know the procedure, but look, we have got 30-something 
Members of Congress, much of your staff, you have prepared for 
this, you have been asked something like this question before 
now----
    Mr. Gonzales. Mr. Chairman, if I may respond to that, as I 
have indicated, I have not gone back and spoken directly with 
Mr. Sampson and others who are involved in this process, in 
order to protect the integrity of this investigation and the 
investigation of the Office of Professional Responsibility and 
the Office of Inspector General.
    I am a fact witness, they are fact witnesses and in order 
to preserve the integrity of those investigations, I have not 
asked these specific questions. What I am here today----
    Mr. Conyers. Okay, so that is why you are not going to 
answer the question, because you want to protect the integrity 
of the investigation.
    Look, let me ask you a specific example. Mr. Iglesias----
    Mr. Gonzales. Iglesias.
    Mr. Conyers [continuing]. In New Mexico, who was not put on 
the termination list until October or November of 2006, we 
learned in last Friday's interview with your counsel, Matthew 
Friedrich, at the request of the White House and Monica 
Goodling, he met with two prominent New Mexico lawyers who 
complained about Mr. Iglesias's handling of a vote fraud case.
    He met them again in November. And they told him they 
didn't want him--Mr. Iglesias--to be the U.S. attorney. And 
then they said they were working toward that, and they had 
communicated about that directly with Senator Domenici and Karl 
Rove.
    Aware of that, are you?
    Mr. Gonzales. I am certainly aware of it now.
    And if I may, Mr. Chairman, if you are going to rely upon 
some testimony that others have provided--again, I haven't 
spoken to others about their testimony--could I see what in 
fact the testimony has been provided to? Because I haven't seen 
it. So----
    Mr. Conyers. Just take this recitation that I have just 
given you, sir.
    We are perfectly willing to let you see anything you want. 
We are cooperating. But cooperate with us.
    Mr. Gonzales. I am trying, Mr. Chairman.
    Mr. Conyers. Okay. So is this correct?
    Mr. Gonzales. I have no reason to believe it is not 
correct, Mr. Chairman.
    Mr. Conyers. Okay. You were aware of that, then.
    Mr. Gonzales. You mean, at the time that I made my 
decision?
    Mr. Conyers. Yes.
    Mr. Gonzales. At the time I accepted the recommendation--
Mr. Chairman, I don't recall whether or not I was aware of 
that.
    But I will tell you this: I was certainly aware of the fact 
that the senior senator had lost confidence in Mr. Iglesias 
beginning in the fall of 2005, and that we had had several 
phone conversations where he had expressed serious concerns or 
reservations about the performance of the person that he 
recommended for that position.
    Mr. Conyers. Yes. And they had communicated directly with 
Karl Rove and Senator Domenici. You were aware of that?
    Mr. Gonzales. Mr. Chairman----
    Mr. Conyers. No. You are not under oath, and you said you 
always tell the truth.
    Mr. Gonzales. My answers would be the same, Mr. Chairman. I 
want to be sure that I give the Committee the most accurate and 
most complete answer that----
    Mr. Conyers. Yes. So, what are you saying?
    Mr. Gonzales. Well, what I know is----
    Mr. Conyers. You need more information and you want to see 
the reviews?
    Mr. Gonzales. Of course I would like to see exactly what he 
said. But I was aware of the fact----
    Mr. Conyers. All right.
    Mr. Gonzales. At the time I made my decision, I was aware 
of the fact, of course, that Senator Domenici, of course, had 
called me several times. Mr. Rove, in a conversation that he 
had with me, raised concerns about voter fraud prosecutions in 
three jurisdictions in the country, including New Mexico. My 
recollection is that occurred sometime in the fall of 2006.
    I don't have any specific recollection that when I made my 
decision I was aware of the specific conversations that Mr. 
Friedrich, I believe, may have testified to.
    Mr. Conyers. Thank you.
    Mr. Lamar Smith, please?
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Attorney General, let me go to what I consider to be 
the heart of the matter and ask you a series of questions.
    The first is this: Did you seek the resignation of any U.S. 
attorney to retaliate for, interfere with, or gain a partisan 
advantage in any case or investigation, whether about public 
corruption or any other type of offense?
    Mr. Gonzales. I wouldn't do that, Congressman Smith. I 
would not retaliate for partisan political reasons. That is not 
something that I believe is acceptable, and would not tolerate.
    Mr. Smith. Did the White House ever ask you to seek the 
resignation of any U.S. attorney in order to retaliate for, 
interfere with, or gain a partisan advantage in any case or 
investigation, whether about public corruption or any other 
offense?
    Mr. Gonzales. Not that I recall, Congressman. I don't 
believe that the White House ever did.
    Mr. Smith. Have you ever intended to mislead or misinform 
Congress through any of your statements or testimony about the 
U.S. attorneys matter?
    Mr. Gonzales. Of course not.
    Now, I realize I have been inartful in some of my 
statements to the press; overly broad, perhaps, in my zeal to 
come out and defend the department. I have said things that I 
shouldn't have without first going back and reviewing thousands 
of pages of documents.
    But in everything that I have done here, the principles 
that I have tried to support are truthfulness and being 
forthcoming, and accountability. And that is why we have 
provided thousands of pages of very internal, deliberative 
documents, why we have made DOJ officials available for 
interviews and for testimonies: because I want to reassure the 
American public and this Committee that nothing improper 
happened here.
    Mr. Smith. Mr. Attorney General, let me go to my last 
question. And feel free to expound on your answer.
    Do you believe the U.S. attorneys controversy has caused 
any unmerited damage to the Department of Justice and its 
ability to effectively pursue its mission of law enforcement? 
And if so, how?
    Mr. Gonzales. Well, clearly, I mean, it has been an 
unfortunate episode. And obviously, it is something that I have 
to deal with as head of the department.
    I always worry about morale. I think every Cabinet official 
every day should wake up thinking about, ``Okay, is the morale 
of the department where it should be? Am I doing everything I 
can to be the most effective leader of the department?''
    And so, of course, that is something that I worry about. I 
have indicated, I have spoken to all United States attorneys 
about this issue. I have told them, ``Be focused on your job. I 
don't expect a single investigation, a single prosecution to be 
sped up or slowed down by what is happening here,'' and we will 
focus on making sure that Congress is provided the information 
that it needs to reassure itself that nothing improper happened 
here.
    But at the end of the day, what the American people are 
focused on, I think--they want to know that the Department of 
Justice is doing its part to make sure that our country is safe 
from terrorism, is doing our part to make sure that our 
neighborhoods are safe from violent crime and doing our part to 
make sure that our kids are safe from predators and pedophiles.
    Mr. Smith. Thank you, Mr. Attorney General.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much.
    The Chair recognizes the Chairwoman of the Commercial and 
Administrative Law Subcommittee, Linda Sanchez.
    Ms. Sanchez. I thank the Chairman.
    Good morning, Mr. Gonzales.
    Mr. Gonzales, you have consistently maintained that only 
eight U.S. attorneys were forced out of their positions. Yet 
today's Washington Post states that there was a ninth, Todd 
Graves.
    Are there any more U.S. attorneys that we should know about 
that were forced out?
    Mr. Gonzales. Congresswoman, it is always been my 
understanding that this focus has been on the eight United 
States attorneys that were asked to resign last December 7th 
and June 14th, including Bud Cummins.
    Ms. Sanchez. Mr. Attorney General, with all due respect, in 
page two of your testimony that you have previously given, you 
stated that there were only eight that were forced out.
    Mr. Gonzales. As part of this process--as part of this 
review process that I asked Mr. Sampson to conduct and which 
resulted in the culmination in December of 2006, these were the 
individuals that this process identified as where changes would 
be appropriate.
    Now, clearly, throughout my tenure as Attorney General and 
throughout the tenure of my predecessors and other Attorney 
Generals, U.S. attorneys have left the department for a variety 
of reasons. So that happens.
    Ms. Sanchez. Let's stop there. Are you familiar with the 
former U.S. attorney in Los Angeles, Debra Wong Yang?
    Mr. Gonzales. Yes.
    Ms. Sanchez. And are you aware the she resigned her 
position in October of 2006 and took a position with a private 
law firm?
    Mr. Gonzales. Yes, I am.
    Ms. Sanchez. Do you have information as to whether Ms. 
Yang's resignation was entirely voluntary?
    Mr. Gonzales. From what I know, Ms. Yang's resignation was 
entirely voluntary. She did a wonderful job and----
    Ms. Sanchez. Now, are you aware that when Ms. Yang went to 
this firm, she received what has been reported as a $1.5 
million bonus for joining the private law firm?
    Mr. Gonzales. I don't know what she received. But whatever 
it was, it was a bargain for the firm because she is an 
outstanding lawyer.
    Ms. Sanchez. Are you aware of any reason why she would have 
been given such an extraordinary bonus payment to hire an 
individual like her?
    Mr. Gonzales. I suspect that given her outstanding 
qualifications, the fact that she is a woman, an Asian-
American, would make her particularly attractive to a private 
firm.
    Ms. Sanchez. So you think a $1.5 million signing bonus is 
typical for a situation like that?
    Mr. Gonzales. Again, that is a decision for that firm to 
make.
    Ms. Sanchez. Okay. Are you aware--and this has been 
reported in the press--that when she was hired by the firm, Ms. 
Yang was conducting an active investigation into Republican 
Congressman Jerry Lewis and his financial dealings with a 
particular lobbying firm? Were you aware of that?
    Mr. Gonzales. I may have been aware of that. Sitting here 
today, I can't say that I was aware of that. But that is very 
likely.
    We have public corruption investigations and prosecutions 
that are occurring every day all over the country, 
Congresswoman. So it would not be unusual that such----
    Ms. Sanchez. Well, let me tell you what concerns me. What 
concerns me are the reports of the same firm that hired Ms. 
Yang away from her post as a U.S. attorney, with a large bonus 
payment, also, coincidentally, happens to be the firm that 
represents Mr. Lewis in this matter. Does that coincidence 
trouble you at all?
    Mr. Gonzales. Not at all, because, again, what we have to 
remember is that for--the American people need to understand 
this--is that these investigations are not run primarily by the 
United States attorneys. They are handled by assistant United 
States attorneys, career prosecutors. And so these----
    Ms. Sanchez. She had no role in the investigation of Mr. 
Lewis?
    Mr. Gonzales [continuing]. These investigations, these 
prosecutions continue, as they should. This great institution 
is built to withstand departures of U.S. attorneys and 
attorneys general.
    Ms. Sanchez. So you don't think it is inappropriate for a 
U.S. attorney to accept a lucrative job offer from a law firm 
representing the target of one of their active investigations 
in a position that she held just prior to going to that law 
firm? You don't think that that is inappropriate?
    Mr. Gonzales. Again----
    Ms. Sanchez. You don't think that there is perhaps at least 
an appearance of a conflict of interest----
    Mr. Gonzales. Congresswoman Sanchez, I am presuming, 
knowing Deb Yang the way that I do and the people in that firm, 
that she would be recused from anything related to that matter 
as a member of that firm.
    And, again, what is important for the American people to 
understand is, despite her departure, that case will continue, 
as it should.
    Ms. Sanchez. So you are not concerned even with the 
appearance of conflicts of interest. It doesn't trouble you at 
all----
    Mr. Gonzales. I am always concerned about the appearance of 
a conflict----
    Ms. Sanchez [continuing]. Especially at a point when the 
Justice Department is under scrutiny, the morale is probably 
the lowest that it has been in decades, and people are 
questioning the integrity of the DOJ to act in an evenhanded 
and fair manner.
    Mr. Gonzales. Of course, as head of the department, I am 
always concerned about the appearance and the perception. Of 
course I am.
    But, again, this is more of a perception for the law firm 
as opposed to the Department of Justice because, as far as I 
know, we had nothing to do with placing Ms. Yang in that law 
firm. And as far as I know, nothing about that investigation 
has been impacted or affected in any way by virtue of her going 
to work in that firm.
    Ms. Sanchez. What about this: Are you aware that 1 month 
before Ms. Yang resigned her post White House Counsel Harriet 
Miers had asked Kyle Sampson if Ms. Yang planned to keep her 
post or, as in Mr. Sampson's words to our investigators, 
``whether a vacancy could be created there in Los Angeles''? 
Were you aware of that?
    Mr. Gonzales. I think I may be aware of that, based on my 
review. I can't remember now whether or not that is reflected 
in the document.
    Let me just say this, a couple things about that.
    Ms. Yang, when I said she left voluntarily, I think she 
left involuntarily, in that she had to leave for financial 
reasons. I think if she could have, she would have stayed. But 
I think she had to leave for financial reasons.
    Mr. Conyers. Former Chairman Jim Sensenbrenner of 
Wisconsin?
    Ms. Sanchez. Mr. Chairman, if I could just beg your 
indulgence for 10 more seconds to ask unanimous consent that an 
article by The New York Times regarding the Yang matter be 
placed into the record.
    Mr. Conyers. Without objection, so ordered.
    [The article follows:]
Article published in The New York Times, May 4, 2007, submitted by the 
Honorable Linda T. Sanchez, a Representative in Congress from the State 
         of California, and Member, Committee on the Judiciary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Lungren. Reserving the right to object.
    Mr. Conyers. For what purpose would you object to putting 
that in the record?
    Mr. Lungren. Because we have identified a fellow Member of 
Congress as a specific target of investigation, it has been put 
on the record, and I think we ought to be very careful about 
that before we start besmirching Members' names around.
    Mr. Conyers. We are not besmirching. This is public 
information, Mr. Lungren, and I am going to allow it, and 
recognize the former Chairman of the Committee.
    Mr. Lungren. I do object, Mr. Chairman.
    Ms. Sanchez. I thank the Chairman.
    Mr. Sensenbrenner. Thank you, Mr. Chairman. I have a couple 
of questions about public corruption investigations as well.
    In January of 2006, the former legislative director to 
Representative William Jefferson of Louisiana, Brett Pfeffer, 
pleaded guilty to aiding and abetting the bribery of a public 
official and conspiracy. In May of 2006, Vernon Jackson pled 
guilty in Federal court to bribing Representative Jefferson 
with more than $400,000 of payments. It has been on the public 
record that during a execution of a search warrant in 
Representative Jefferson's house, there was $90,000 of cold 
cash that was found in Representative Jefferson's freezer.
    And all of that was a year ago. My constituents are asking 
me when something is going to happen, whether an indictment is 
going to be returned or whether the Justice Department is going 
to make an announcement that there is insufficient evidence to 
prosecute Representative Jefferson.
    When can the public expect some news one way or the other 
on this issue?
    Mr. Gonzales. Congressman, you know I cannot talk about 
that.
    Mr. Sensenbrenner. Well, everybody is talking about it 
except you.
    And, you know, this is kind of embarrassing, because this 
Committee--and it was on my watch when all of this happened--is 
asked questions about what kind of oversight are we doing over 
the Department of Justice.
    And the two guilty pleas were last year. The raid on Mr. 
Jefferson's house was, I believe, earlier than that. And then 
there was the raid on his office that posed a whole host of 
legal problems that are currently on appeal and will be argued 
next week before the United States Court of Appeals for the 
D.C. Circuit.
    I am just interested in finding out when this matter is 
going to be brought to conclusion, because we authorize and 
appropriate a heck of a lot of money to run your department and 
people are wondering what the dickens is going on.
    Mr. Gonzales. I have every confidence that the prosecutors 
in this case, as the prosecutors in all these cases, they 
follow the evidence. And at the appropriate time, they will 
take the appropriate action, Congressman.
    That is all that I can say with respect to this particular 
case.
    Mr. Sensenbrenner. Would you believe that the legal issues 
that were raised both by Mr. Jefferson and by the counsel to 
the clerk of the House of Representatives on the raid on 
Jefferson's office in this very building has ended up slowing a 
decision on whether or not to indict Mr. Jefferson?
    Mr. Gonzales. Congressman, I am not going to comment on 
that. I don't think it would be appropriate. At the appropriate 
time, I hope that I can have more to say about this matter.
    Mr. Sensenbrenner. Well, I would hope that the appropriate 
time would be pretty soon. Because the people's confidence in 
your department has been further eroded, separate and apart 
from the U.S. attorney controversy, because of the delay in 
dealing with this matter.
    There is a man who has already been convicted of bribing 
the representative. My learning about the crime of bribery in 
law school says that in order to obtain a conviction there has 
to be a briber and the bribee.
    The briber has been convicted. The alleged bribee has not 
even been indicted. And I think that there is a disconnect 
involved in this in the eyes of the public.
    And we all suffer as a result of that, as Members of 
Congress, that something is going on that hasn't been resolved.
    I have made my point. I hope that you will tell your 
prosecutors to wrap this thing up and to let the public know as 
soon as they possibly can. And I hope that that is really soon.
    And I yield the----
    Mr. Lungren. Would the gentleman yield?
    Mr. Sensenbrenner. And I yield the balance of my time to 
the gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    We have been having a bit of a discussion over here. And I 
would just like to ask--and probably yield back to the 
gentleman so that he can yield to Mr. Lungren.
    But I don't recall that Mr. Lewis has been identified as a 
target in an investigation. And I would like to ask the 
gentlelady if she is aware that he has been identified as a 
target.
    Mr. Sensenbrenner. I yield to the gentlewoman from 
California, Ms. Sanchez.
    Ms. Sanchez. I believe if you look at The New York Times 
article that was posted, that it states, ``Ms. Yang was 
investigating Jerry Lewis, who was Chairman of the powerful 
House Appropriations Committee.''
    Mr. Sensenbrenner. I further yield to the gentleman from 
Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Sensenbrenner. But I would 
appreciate it if you would yield to the gentleman from 
California----
    Mr. Sensenbrenner. I yield to the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. As anybody knows, there is a huge difference 
between an investigation and a target.
    When I was attorney general of the State of California, we 
had investigations of literally hundreds of public officials. 
When someone brings an accusation, you have to look at it. That 
is a very different thing than being a target.
    We take extreme caution to make sure you do not besmirch 
the reputations of people, because that is unfair. And that is 
the point I was trying to make.
    We in this Congress 20 years ago besmirched the 
reputation----
    Mr. Sensenbrenner. Reclaiming my time before it is expired, 
I would just point out that in the Jefferson case, there have 
been people who have been convicted of misconduct involving Mr. 
Jefferson. With The New York Times article, there has not been 
an identification that Representative Lewis is even a target.
    Mr. Conyers. Just a moment. I will let Attorney General 
Gonzales respond.
    Mr. Gonzales. Mr. Chairman, so that there is no 
misunderstanding, the department has not confirmed, is not 
confirming that Mr. Lewis is a target.
    Ms. Sanchez. Mr. Chairman, could I beg your indulgence for 
30 seconds?
    Mr. Sensenbrenner. Mr. Chairman, I ask unanimous consent I 
be given an additional 30 seconds to yield to her.
    Mr. Conyers. Without objection, so ordered.
    Mr. Sensenbrenner. I yield.
    Ms. Sanchez. I appreciate you yielding.
    Just to set the record straight, the question that I put to 
the Attorney General was Ms. Yang was conducting an active 
investigation. I didn't say ``target.'' I said ``conducting an 
investigation.'' My words seem to get twisted in this Committee 
and more import given to basic questions and sinister----
    Mr. Cannon. Point of personal privilege, Mr. Chairman.
    Ms. Sanchez [continuing]. Attributed to them.
    And, with that, I will yield back to the gentleman from 
Wisconsin.
    Mr. Cannon. Point of personal privilege, Mr. Chairman. I 
stated correctly the word used by the gentlelady from 
California.
    Mr. Conyers. The Chair recognizes the Subcommittee Chairman 
on the Constitution, Jerry Nadler.
    Mr. Cannon. Mr. Chairman, I make a point of order and ask 
that the gentlelady's words be taken down.
    Mr. Conyers. Come on, now. Let the----
    Mr. Cannon. I am happy with an apology, but the gentlelady 
used the word ``target,'' and that is exceedingly inappropriate 
under the circumstances.
    Mr. Conyers. Mr. Cannon, the record is being taken. This 
will all come out now. I have no intention of delaying the 
appearance of the Attorney General of the United States while 
we take down the words of someone.
    Mr. Cannon. The Chairman knows it is exceedingly hard to be 
gracious in this Committee, and apologizing would be 
appropriate, but otherwise I insist that the gentlelady's words 
be taken down as a point of order.
    Ms. Sanchez. If the gentleman will yield, I don't recall--
and I have the questions in front of me--using the word 
``target.'' Had I used it, I certainly apologize for using that 
word. My understanding is my questions dealt with----
    Mr. Conyers. Will the gentlelady agree to withdraw any 
reference to ``target'' from the record if it is there?
    Ms. Sanchez. I would. I would, Mr. Chairman. If it will 
expedite this hearing, I will.
    Mr. Conyers. Thank you.
    Mr. Cannon. Thank you, Mr. Chairman. I withdraw my point of 
order.
    Mr. Conyers. Thank you very much.
    Mr. Nadler?
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Attorney General, when did Monica Goodling start in her 
role as special counsel to you and the White House liaison?
    Mr. Gonzales. Congressman, I am not sure the exact date, 
but I would be happy----
    Mr. Nadler. Roughly?
    Mr. Gonzales. I am not sure. I would have to get back to 
you.
    Mr. Nadler. Can you give me the year?
    Mr. Gonzales. You know, I don't whether or not it was in 
the fall of 2005--sometime in 2005.
    Mr. Nadler. Roughly, you know, okay.
    Now, to your knowledge, was Ms. Goodling involved in the 
hiring decisions of career assistant U.S. attorneys at any 
point?
    Mr. Gonzales. I am certainly aware, now, of allegations 
that--well, she used to be the deputy, of course, in the 
Executive Office of the United States Attorneys. And so there 
she would have some role with respect to the hiring of career 
assistant United States----
    Mr. Nadler. As special counsel and White House liaison, 
when she had that position, was she involved?
    Mr. Gonzales. I think she did have some role in that 
position.
    Mr. Nadler. Isn't that process reserved for U.S. attorneys, 
and in some cases for the Executive Office of the United States 
Attorneys?
    Mr. Gonzales. Is what----
    Mr. Nadler. The selection process for assistant USAs.
    Mr. Gonzales. Typically, that is something that is 
conducted within the office of the specific United States 
attorneys' offices. There would be, however, if you are talking 
about a situation where you had an interim United States 
attorney, there are----
    Mr. Nadler. Well, we weren't talking about interim 
attorneys. We were talking about generally.
    Now, allegations have been might that Ms. Goodling 
considered the political affiliations of career AUSA 
applicants. Would you agree that, if that is true, that 
practice would violate not only Department of Justice policy 
but also Federal law?
    Mr. Gonzales. In fact, those are very, very serious 
allegations. And if that happened, it shouldn't have happened.
    Mr. Nadler. Now, Mr. Attorney General, when this Committee 
asked Ms. Goodling to testify in front of us, she claimed her 
fifth amendment right, which says you can't be forced to--what 
is the word--incriminate yourself with respect to a crime.
    Can you tell this Committee, from your stewardship of the 
department, what crimes there were that it might have been 
reasonable for her to think that her testimony might 
incriminate her or anybody else in?
    Mr. Gonzales. Well, I can't do that, Congressman.
    Obviously, it has always been my expectation and hope that 
Justice Department employees or former Justice Department 
employees would come forward and cooperate in connection with 
this investigation. I offered up everyone.
    Mr. Nadler. But you are not aware of any--when someone who 
is the Deputy Attorney General, or special counsel to the 
Attorney General, says that her testimony about the U.S. 
attorneys matter might implicate her in a crime, you are not 
aware of any crimes that she might have been referring to?
    Mr. Gonzales. I offered her up----
    Mr. Nadler. Or speaking of, I should say.
    Mr. Gonzales [continuing]. To come testify.
    Mr. Nadler. What?
    Mr. Gonzales. As an initial matter of course, I offered up 
people on my staff----
    Mr. Nadler. You are not aware of that.
    Now, you have testified that you ask yourself every day 
whether you can be effective as the head of the Department of 
Justice. Did you consider that, by many accounts, the morale at 
the Department of Justice and throughout the U.S. attorney 
community is at its lowest level since just after Watergate?
    Mr. Gonzales. Did I consider that--I don't know what is the 
source of that statement.
    Mr. Nadler. Well, let me give you a different statement, 
then. The recent ABC-Washington Post poll reports that 67 
percent of the American people believe that the firings of U.S. 
attorneys were for political reasons, not for performance-based 
reasons. And, indeed, former Deputy Attorney General Comey said 
that the people who were fired had the highest performance, 
that they weren't for performance-based reasons.
    If the American people don't believe you about this matter, 
how can they have confidence in other things you claim or that 
public corruption cases brought by your department are not 
similarly based on political considerations?
    Mr. Gonzales. I think the American people are most 
concerned about the things that I alluded to earlier, 
Congressman. And that is, is our country safe from terrorism? 
Are we making our neighborhoods safe? Are we protecting our 
kids?
    I will work as hard as I can, working with this Committee 
and working with DOJ employees, to reassure the American people 
that this department is focused on doing its job.
    Mr. Nadler. But you have a situation where most people 
believe that you didn't tell the truth about the U.S. 
attorneys. And if that is the case--they may be concerned about 
terrorism and ought to be, obviously, but it is a separate 
issue.
    If most people believe that the United States Attorney 
General has not told the truth about why these U.S. attorneys 
were fired, how can they have confidence in your job?
    Mr. Gonzales. I don't believe that is an accurate 
statement. And what I am trying to do in appearances like this 
is to set the record straight.
    Mr. Nadler. Well, 67 percent of the American people, 
according to the ABC-Washington Post poll, believe that the 
firings of the U.S. attorneys were for political reasons and 
not for performance-based reasons, which is exactly the 
opposite of what you have testified to.
    Mr. Gonzales. I don't know when that poll was taken.
    But, again, we have been very, very forthcoming, 
Congressman, in terms of our testimony----
    Mr. Nadler. Well, all right. That is a matter of opinion.
    But let me ask you this: If it is true, as you have 
testified, that you had very little personal involvement in the 
decision to fire the eight U.S. attorneys, you delegated that, 
you weren't really familiar with the reasons and the 
specifics--and that is what you said--and did not know the 
reasons some of them were on the list, how can we believe that 
you were involved in a hands-on manner in running the 
department in numerous other important issues?
    Mr. Gonzales. Look at the record of the department. Look at 
the record of the department.
    Mr. Nadler. No, that doesn't answer the question. If you 
have stated to this Committee and to other Committees that in 
the matter of firing eight U.S. attorneys which you signed off 
on, you signed off on it without really knowing why or what 
their performance was, how can we believe that you really know 
what is going on in the department?
    Mr. Gonzales. I think I was justified as head of the 
department to rely upon the people whose judgment that I 
valued, people who would know a lot more about the performance 
of United States attorneys. I think as head of the department I 
was justified in doing so.
    Now, in hindsight, I have already said, I would have used a 
process that was more vigorous. There is no question about 
that. But, again, Congressman, I would say, look at the record 
of the department in a wide variety of areas and----
    Mr. Nadler. Well, let's look at the record of the 
department in a different area: national security letters. Why 
is the government issuing NSLs to conduct fishing expeditions 
or, as the I.G. put it, to access NSL information about parties 
two or three steps removed from their subjects without 
determining if these contacts are real suspicious connections?
    Mr. Gonzales. Well, of course, the I.G. also said that 
national security letters are indispensable--indispensable.
    Mr. Nadler. That is not the question. Excuse me. National 
security letters properly used may be indispensable. But they 
were abused. That was the I.G----
    Mr. Gonzales. There is no question about that.
    Mr. Nadler. So why is the department issuing NSLs to 
conduct--I will just repeat the question--to conduct fishing 
expeditions, as the I.G. put it----
    Mr. Conyers. The gentleman's time has expired.
    Mr. Nadler. May I have 1 additional minute?
    Mr. Conyers. Finish the question.
    Mr. Nadler. Thanks.
    To access NSL information about parties two or three times 
removed from their subjects without determining if these 
contacts are real suspicious connections?
    Let me add to that, why is there no policy or practice of 
destroying information collected thusly, wrongly collected on 
innocent Americans?
    Mr. Gonzales. There is a long answer I need to give with 
respect to NSLs. I am not sure whether or not now is the time 
to do it.
    But the I.G. identified some very serious issues with 
respect to the FBI's use of national security letters. No 
question they are an indispensable tool, but they have got to 
be used in a responsible manner, and we failed to do that. We 
did. We failed to do that.
    And the American people need to understand that we are 
taking steps to ensure that that doesn't happen again. The 
standard is whether or not is it relevant to a national 
security investigation.
    Mr. Nadler. Are you taking steps to destroy information on 
people who are not involved in terrorism?
    Mr. Gonzales. Yes. If it is not relevant to a national 
security investigation, yes, we are taking steps.
    Mr. Nadler. Well, the testimony was that those records were 
not being destroyed.
    Mr. Conyers. The Chair recognizes the gentleman from North 
Carolina, Howard Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    And, General, good to have you on the Hill. I am going to 
pursue a different line of questioning. If time permits, I am 
going to come back to the U.S. attorney situation.
    General, I am particularly interesting in the activities of 
the Computer Crime and Intellectual Properties Section, known 
as CCIP, at the Department of Justice.
    Intellectual property theft is an enormous theft, as you 
and we all know. Are you confident, General, that the Justice 
Department has the necessary tools to investigate and prosecute 
high-level intellectual property cases that could severely 
interrupt or eliminate international criminal networks who are 
using intellectual property piracy to fund their organizations, 
A?
    And B, I am told that there may be an insufficient number 
of FBI special agents at the department who, to successfully 
work these complicated cases.
    And finally, C, General, how can we more successfully 
prevent or prosecute counterfeiting and intellectual piracy 
crimes in the United States and around the world?
    That is a three-part question I threw at you.
    Mr. Gonzales. Let me start with the last one, in terms of 
what we can do to work against counterfeiting.
    One is prosecution, and utilizing the tools that Congress 
has given us to go after counterfeiters.
    This is not an issue that we can deal with solely through 
the United States. We have to have the cooperation of our 
friends and allies around the world. And so, when I travel 
around the world, intellectual-property theft is always an 
issue that I raise. Because we can't successfully deal with it 
here in this country.
    The second way to deal with counterfeiting is education, to 
educate the public about the dangers of counterfeiting. For 
example, if you are talking about counterfeiting of drugs, that 
could be dangerous to the consumer. If you are talking about 
counterfeiting of an airplane part, that could be dangerous to 
people who fly on airplanes. And so education is a very 
important part of that.
    Whether or not we have sufficient agents working on these 
complicated cases, I suspect if I were to ask the director he 
would say we always need more resources. You always need more 
agents, because these are very, very complicated cases.
    The whole area of, you know, computer technology, the 
Internet, it is wonderful for consumers. It is wonderful for 
the American people. But the changes in technology are such 
that in the hands of criminals, in the hands of terrorists, it 
presents unique challenges to those of us in the law 
enforcement community.
    Criminals and terrorists will pay to advance technology. 
They see what we do. And so when we do something to defend 
against this kind of theft, defend against these kind of 
criminal activities, then they will go out and they will pay 
top dollar for the top innovators. And they get changes in 
technology, new encryption. And it makes it much more difficult 
for us to track them.
    So this is a continuing struggle. It is a war on many 
fronts, whether you are talking about Internet pharmacies that 
are springing up that are illegitimate, whether or not you are 
talking about Internet crimes involving our children. This is a 
real war that is being waged over the Internet, being waged 
through technology.
    And I do sometimes worry that we don't have the best minds 
on this, we don't have adequate resources. And I think that is 
something that I would love to talk to Congress about because I 
worry about this very much.
    Mr. Coble. Well, I, too, worry about it, General, and I am 
concerned. I hope that the American public is aware of the 
threat that is potentially posed by this problem. But in any 
event, I thank you for that.
    Now let's come back to the U.S. attorney situation. Since 
the U.S. attorney situation arose, General, have you 
implemented any new processes or procedures governing or 
dictating the dismissal of U.S. attorneys to ensure that a 
similar situation will not occur in the future in either this 
or future Administrations?
    Mr. Gonzales. I have certainly thought about what I would 
have done differently in terms of a more vigorous and a little 
bit more formal process.
    But I want to emphasize something for the Committee, and 
this is very important. I think to a person, in terms of the 
U.S. attorneys that I have spoken with, they don't want a 
formal review process. They don't like it. They don't want it.
    They do want to be told if there are issues with their 
performance, have somebody let them know ahead of time and give 
them an opportunity to correct it.
    The other reason I would resist a formal process is because 
we all serve at the pleasure of the President. And if, in fact, 
we had a formal process and that formal process says Al 
Gonzales is doing well, or that this U.S. attorney is doing 
well, politically it may make it more difficult for the 
President to exercise his constitutional authority.
    So we don't want a formal process per se, but I think 
something a little bit more structured, something a little bit 
more vigorous would have made sense.
    And clearly I think one thing that we are going to do is at 
least once a year every United States attorney is going to sit 
down with either myself or the Deputy Attorney General and we 
are going to have a very candid conversation about issues and 
problems in their districts. If I have heard of complaints from 
someone that is a Member of Congress, it gives me an 
opportunity or the DAG, the Deputy Attorney General, an 
opportunity to tell the U.S. attorney what we are hearing.
    So I think that is something that needs to be in place. 
That has never been in place before.
    The level of communication between main Justice and our 
United States attorneys, what I have discovered, is not very 
good. We can do better, and I think we are going to make it 
better.
    Mr. Coble. And I want to follow up, General, with the 
counterfeiting and piracy problem subsequently.
    And, Mr. Chairman, I see my red light is illuminated. So I 
will sit down and shut up.
    Mr. Conyers. Well, you can submit the question to him to be 
answered later.
    Mr. Coble. I thank you.
    Mr. Conyers. The Subcommittee Chairman on Crime, Bobby 
Scott of Virginia?
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Gonzales, for being with us today. I 
wanted to pose a question and get a response in writing later 
from you.
    Representative Wolf, Representative Maloney and I wrote you 
a letter a few months ago, recommending and requesting that you 
make better use of the tough measures in the Protect Act and 
the Adam Walsh Act to go after domestic traffickers in this 
country, rather than using measures only involving force, fraud 
and coercion. The bills we passed make it much easier to go 
after the notorious and brutal system of domestic prostitution. 
And we are going to ask you why you are not making better use 
of that information.
    Last week, we also had a vote on potential discrimination 
in the Head Start program. You have not been able to 
discriminate in employment based on religion during the 
entirety of the 40 years of the Head Start program. An attempt 
was made to allow some to discriminate.
    Can we count on your opposition to any effort to water down 
the discrimination prohibitions in the Head Start program?
    Mr. Gonzales. Obviously, Congressman, that would be 
something that would be of concern to me. Whether or not I 
would oppose legislation, I have to look at it first. And the 
Administration speaks with one voice, but it is something I 
would look at very seriously.
    Mr. Scott. Can you conceive of your support for a provision 
that would tell a prospective Head Start teacher that, ``You 
can't get a job here because of your religion''?
    Mr. Gonzales. Well, Congressman, I would like to look at 
that. But, again, that would be something that I would be 
concerned about.
    Mr. Scott. One of the problems we have had in the Crime 
Subcommittee is the situation where people do not want to 
cooperate with the police. There is a culture of no snitching 
and not coming forth to participate as witnesses. Part of the 
problem is we have to have confidence that the criminal justice 
system is impartial.
    Now, one of the questions that was asked, I think the 
gentleman from Texas asked, did the White House ask you to seek 
removal of a U.S. attorney for retaliation? Now, let me change 
that a little bit. Did the White House ask you to seek the 
removal of any U.S. attorney?
    Mr. Gonzales. Congressman, I have a recollection of Mr. 
Rove raising concerns about prosecutions of voter fraud cases 
in three districts. Of course, I have now been made aware of 
the fact that there was a conversation with the President that 
basically mentioned the same thing. This was in October of 
2006.
    There is a process within the White House Judicial 
Selection Committee process, where decisions are made with 
respect to the appointment of judges. That also involves the 
appointment of U.S. attorneys. It is conceivable that in those 
meetings, there was some discussion about someone leaving. But 
I don't have any specific recollection----
    Mr. Scott. The question of people leaving--we had the CRS 
do an investigation. And they only found 10 cases of U.S. 
attorneys leaving, other than the usual practice of a new set 
coming in, only 10 in the last 25 years. And they found that 
each and every one of those is involved in a scandal or removed 
for cause.
    Can you give us the name of anyone in the last 25 years 
that you know of that CRS couldn't find that was fired or asked 
to leave involuntarily, other than a scandal?
    Mr. Gonzales. I am not familiar with the CRS report. I 
don't know how they conducted their review.
    I will tell you that there are many instances where someone 
engages in certain kinds of conduct that are improper. There is 
a quiet conversation that occurs, and then that person decides, 
``I am going to leave voluntarily.'' And so, I don't know 
whether or not the CRS is capable of identifying those kinds 
of----
    Mr. Scott. Okay. They couldn't find one that didn't leave 
other than for cause.
    Now, in your testimony you indicated that it would be an 
improper reason for the removal of a U.S. attorney, and an 
improper reason would be the replacement of one or more U.S. 
attorneys in order to impede or speed along particular criminal 
investigations for illegitimate reasons.
    You call that improper. Wouldn't that be illegal?
    Mr. Gonzales. Yes, that would be interference----
    Mr. Scott. Okay.
    Mr. Gonzales [continuing]. Depending on the circumstances.
    Mr. Scott. Now, in light of the fact that some people have 
been designated as loyal Bushies, we know that some of the U.S. 
attorneys got telephone calls from political figures and were 
fired. Are you aware of any that got political phone calls, 
with attempts to apply political pressure, that were not fired?
    Mr. Gonzales. I would have to go back and look at that, 
Congressman.
    Mr. Scott. The editorial that was put in the record 
indicates that Mrs. Yang had been designated--been called by 
you as one of the most respected U.S. attorneys in the country. 
The editorial says that Harriet Miers focused on only two U.S. 
attorneys for removal, her and one other.
    Can you explain how Mrs. Yang's name got on that list of 
attorneys to be removed?
    Mr. Gonzales. I don't recall that her name was on the list 
of attorneys to be removed. But let me just say----
    Mr. Scott. Well, was she not targeted by Harriet Miers?
    Mr. Gonzales. I recall knowing about Ms. Yang's concern 
about remaining in the position because of the financial 
situation. She would have to--it was my understanding----
    Mr. Scott. Was she not on a target list of Harriet Miers?
    Mr. Gonzales. I don't recall her being on a target list for 
Harriet Miers. I think that Ms. Miers may have known about Ms. 
Yang's concern about continuing to remain on the job for 
financial reasons. And therefore, that being a very important 
office, it would be understandable----
    Mr. Scott. You dispute the editorial in The New York Times, 
May 4, 2007?
    Mr. Gonzales. I haven't read the editorial, Congressman. 
What I am trying to tell you is that Ms. Miers may have known--
--
    Mr. Scott. If you could respond in writing so that you 
can----
    Mr. Conyers. Time is expired.
    Mr. Scott. Mr. Chairman, could I ask just that he respond 
in writing to the allegations made in the editorial? Thank you.
    Mr. Conyers. The gentleman from California, Elton Gallegly?
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Welcome, General Gonzales.
    As Members of this Committee and as Members of Congress, we 
all have varied priorities, as I am sure you are well aware. 
But I would hope that no priority for any Member of this 
Committee or this Congress is greater than working to make this 
nation as safe as possible, as it relates to another terrorist 
attack.
    Mr. Gonzales, The Washington Post reported just this 
morning that at least two members of an alleged terrorist cell 
in New Jersey were illegal aliens and had been stopped by the 
police repeatedly for traffic violations.
    This is eerily similar to the case of Mohammed Atta, who 
was here illegally and was pulled over by the Florida State 
Police for a traffic violation. A mere month later, he flew an 
airplane into the World Trade Center.
    What steps is the Department of Justice taking to ensure 
that illegal aliens who are stopped for traffic violations or 
other crimes are identified and deported?
    Mr. Gonzales. Well, of course, those stops generally would 
occur by State and local officials.
    Mr. Gallegly. Right.
    Mr. Gonzales. And the question is whether or not that 
information is shared with the department and shared with the 
Department of Homeland Security. And I know there has been a 
concerted effort by the Department of Homeland Security to try 
and encourage State and locals to be of more assistance in 
dealing with illegal aliens here in this country.
    And, obviously, some jurisdictions are prohibited by law 
from doing so. Some jurisdictions do not want to do so because 
they don't have the resources, because they believe it will 
hurt their relationships in the community. But some 
jurisdictions are stepping up and providing additional 
assistance.
    And where in fact we can prosecute people, we do so. But I 
will be candid with you, Congressman: I mean, it is a question 
of resources in many cases because you are talking about 
thousands and hundreds of thousands of people. And unless you 
are talking about someone who is engaged in a very serious 
crime, sometimes the resources are such that we have to look at 
prosecuting other crimes first.
    Mr. Gallegly. Well, I appreciate the answer, and I know 
that is an ongoing problem working with other jurisdictions. 
But, as you well know, history has a very, very strong history 
of repeating itself. That is the reason I asked that question.
    On an issue that is more directly related to your office, 
this past Saturday--and I am not normally one that quotes The 
Washington Post, but it was a source of a page-one story that 
interested me greatly. It was regarding the issue of illegal 
immigrants who have ignored and evaded deportation orders.
    These people, who are known as alien absconders, are not 
just people who came to the country illegally, but in many 
cases are those that have committed serious crimes in this 
country.
    The article points out that, as of April of this year, 
there is a backlog of over 636,000 illegal alien absconders. 
This number has more than doubled since the year 2001.
    What is the Department of Justice doing to identify, 
apprehend, and deport alien absconders and those that have 
flaunted the deportation orders by the United States courts? 
And are you satisfied with that as a priority?
    Mr. Gonzales. I think that we are doing everything we can 
do.
    But, quite frankly, again, because there are issues 
relating to resources--there are also issues relating to space, 
bed space in our prisons. And bed space that can be contracted 
out from State and local jurisdictions.
    And so I am confident that we are doing everything that we 
can do. But, again, it is a question of seeing if we can find 
additional space to actually hold these people.
    And, again, I think this would be one reason why I think 
the President is supportive of comprehensive immigration reform 
that is workable. Because we have to have a system, whatever we 
do by Congress. And the President has laid out principles that 
he supports.
    But whatever it is, it has got to be one that is workable, 
where we don't have a situation that someone who has been 
determined to be unlawfully in this country nonetheless is 
released because we have no place to put them. And then they 
hide in our neighborhoods.
    Mr. Gallegly. In the last 18 months of your term, what 
specific steps are you planing to take to improve the process 
of prosecuting those who violate immigration laws, particularly 
drug smugglers and human trafficking?
    Mr. Gonzales. I think one of the things we are going to do 
is have a conversation with United States attorneys, get an 
assessment about what additional resources may be available to 
throw at these particular cases, have a conversation perhaps 
with Harley Lappin, the director of prisons, to see is there 
anything else that we can do for additional bed space. What can 
we do in terms of contracting out? Have more conversations with 
the Department of Homeland Security. So these are things that 
we could look at.
    But I think to really address this problem, it will 
probably require additional resources, and I think seriously 
requires a change in our immigration laws. We need to have a 
system that is comprehensive and one that is really workable.
    Mr. Conyers. Time is expired.
    Mr. Gallegly. I see that the time has expired.
    I would just like to respond to the statement that, with 
all due respect, Attorney General, I think that the laws aren't 
the primary problem. I think the will to enforce the laws as it 
relates to immigration plays a very big role.
    And, Mr. Chairman, with your permission, because of the 
time situation, I would ask unanimous consent that we may be 
able to ask additional questions in writing and have them 
responded to and made a part of the record of the hearing.
    Mr. Conyers. Absolutely. That has been understood, and we 
will continue that procedure.
    Mr. Gallegly. Thank you.
    Mr. Conyers. The Chair of the Immigration Subcommittee, Zoe 
Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    I do have some questions on the U.S. attorney situation. 
But before I ask that, I would just like the Attorney General 
not to answer today but to spend some time attending to the 
dreadful situation of the FBI name check.
    As of May 4th of this month, USCIS had sent and had pending 
300,000-plus names to the FBI; 155,000 of those name checks 
have been pending for more than 6 months. And we know, 
historically, that far less than 1 percent ever have any 
problem.
    But this is a real problem for two points of view.
    One, economically, if you have got somebody that needs to 
be cleared, this messes it up. And, as a matter of fact, I just 
got a call from a venture capitalist in Silicon Valley, this 
huge venture that could end up hiring hundreds of Americans, is 
just stalled because of a 3-year delay. They just can't get any 
answer at all out of the engineer and the inventor that they 
know about.
    The other side is, for that less than 1 percent, we are not 
finding them, and that could be a threat.
    So I don't want you to answer now, but I do hope that you 
will get back to this Committee, because it is an outrageous 
situation.
    Now I would like to inquire about the situation of U.S. 
Attorney Todd Graves. Here we have been pursuing--I am on the 
Subcommittee of jurisdiction--we thought there was eight U.S. 
attorney situations. And now, according to press reports, there 
is a ninth U.S. attorney situation.
    And I would like to know, the news media is reporting that 
Mr. Graves had been targeted for removal on Mr. Samson's list 
as early as January of 2006. And one reason suggested in the 
press is that in November of 2005 the U.S. attorney, Mr. 
Graves, refused to sign onto a lawsuit that was proposed by 
main Justice accusing the State of Missouri of improper conduct 
regarding its voter rolls.
    Would you have recommended Mr. Graves for removal based on 
that exercise of his prosecutorial judgment?
    Mr. Gonzales. I have no basis to believe that, in fact, 
that particular case has anything to do with Mr. Graves' 
departure. I have spoken with the head of the Civil Rights 
Division this morning about this; obviously just became aware 
of Mr. Graves' statements in today paper. I spoke with Wan Kim, 
head of the Civil Rights Division. He signed the complaint. He 
stands behind that particular case. He is not aware of any 
concerns that existed in that office.
    Now, we haven't spoken to everyone in that office, but we 
are not aware of any concerns that existed in that office with 
respect to this particular case. The assistant U.S. attorney 
signed on the complaint as well. Mr. Graves' name is on the 
complaint.
    The case involved whether or not the voter lists were 
accurate in Missouri, and the Democratic secretary of state 
issued a statement saying----
    Ms. Lofgren. Mr. Attorney General, are you aware that just 
last month this litigation was dismissed for lack of evidence? 
Doesn't that suggest that the judgment not to file might have 
been the right one?
    Mr. Gonzales. Well, again, we are evaluating whether to 
appeal. But it is my understanding that the judge decided that 
the department should not have sued the secretary of state but 
should have sued the local jurisdictions. So that is the 
primary basis for the dismissal, as I understand it.
    And, again, the Democratic secretary of state issued a 
statement saying basically, ``You got us. Our roles are 
incomplete and inaccurate.'' And I think it is legitimate for 
the American people to expect that voting lists be reasonably 
accurate. That is what Congress required in its laws.
    Ms. Lofgren. I understand--and this is really based on 
press reports so I don't have any firsthand knowledge--that Mr. 
Schlozman had vote fraud experience but little prosecutorial 
experience, and that when Mr. Graves was left, that Mr. 
Schlozman was almost immediately appointed by you as his 
replacement.
    I mean, just looking it at, doesn't it look like there was 
some plan in place to replace this Mr. Graves with Mr. 
Schlozman related to this prosecution? And isn't it true that 
the department's own criteria for bringing lawsuits would tend 
to indicate that lawsuits would not be brought just before an 
election?
    Mr. Gonzales. The substance and timing of the--well, let me 
just say again that I spoke with the head of the Civil Rights 
Division this morning and he stands behind this litigation. He 
believes it was an appropriate use of the department's 
resources. And we will determine whether or not to----
    Ms. Lofgren. Well, I don't want to be rude, Mr. Gonzales, 
but the bells are ringing and I just have 1 more second to read 
very briefly the quotes in the Boston Globe that says, `` 
`Schlozman was reshaping the Civil Rights Division,' said Joe 
Rich, who was chief of the Voting Rights Section until 2005. In 
an interview he said, `Schlozman didn't know anything about 
voting law. All he knew was he wanted to make sure that 
Republicans were going to win.' ''
    And that was from the career guy who got pushed out from 
the department. I would like your comments on that in writing 
later.
    I know my time has expired, Mr. Chairman.
    Mr. Conyers. Former attorney general of California, Daniel 
Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Attorney General, when I was attorney general of 
California, I only had 1,000 lawyers and 5,000 employees. How 
many do you have?
    Mr. Gonzales. Approximately 110,000.
    Mr. Lungren. And how many lawyers?
    Mr. Gonzales. Oh, about, I think, 10,000 to 15,000.
    Mr. Lungren. And how many U.S. attorneys?
    Mr. Gonzales. We have 93 U.S. attorneys.
    Mr. Lungren. Do you actually delegate?
    Mr. Gonzales. Yes.
    Mr. Lungren. Do you delegate authority at times?
    Mr. Gonzales. Of course.
    Mr. Lungren. I mean, that seems to be a surprise here, that 
you would delegate. I mean, I delegated occasionally when I was 
attorney general. And sometimes I found out that those to whom 
I delegated responsibilities didn't perform the way I thought 
they would, and tried to make some changes thereafter.
    But really, we sometimes confuse here, it seems to me, the 
question of competence versus the question of criminality. And 
that is the concern that, of all Committees of the House, this 
ought to be of the highest priority.
    Let me ask you this: In terms of U.S. attorneys, do you 
expect that they should reflect the emphases of the President 
of the United States?
    And what I mean by that is, we have presidential elections 
every 4 years. A President comes in and says, ``I want to make 
crime-fighting the number-one priority; I want to give 
assistance to the states with their drug-fighting; I want to 
assist the states in going after gangs.''
    Do you expect that your U.S. attorneys ought to at least 
pay some attention to the priorities of a President of the 
United States, that is, his Administration's policies?
    Mr. Gonzales. Yes. In fact, we have a conversation with him 
when they come on board and we make it clear that the President 
is accountable to the American people for the policies and 
priorities which he campaigned on. And those can only be 
carried out by the Attorney General----
    Mr. Lungren. But isn't that political?
    Mr. Gonzales. Well, I think, with respect to policies and 
priorities, one could say it is political, but that would be 
okay. That would be okay to do----
    Mr. Lungren. I think so, but some people find that 
shocking.
    It has been said--and I know we are not supposed to counter 
editorials of The New York Times and other articles, but I am 
aware of at least one case, in a U.S. attorney in California, 
in a prior Administration, that left office. You won't find a 
record that that person left office because of lack of 
performance, but I happen to believe that is the case. We are 
acting around this place like U.S. attorneys are the product of 
the Immaculate Conception, and once they have been created that 
cannot be undone.
    Now, let me ask you this about voter fraud: Do you believe 
that we ought to investigate voter fraud that might take place 
as the result of people who are dead still being on the rolls?
    Mr. Gonzales. Congressman, it is the law. We have an 
obligation to investigate and prosecute voter fraud.
    Where this notion that somehow voter fraud is a dirty word, 
I don't understand it. Because you are talking about people 
stealing votes, canceling out legitimate votes.
    And so we have an obligation--as a minority, to me it is 
extremely important to make sure that votes count. And I think 
we have an obligation at the department to pursue voter fraud.
    Mr. Lungren. I have been a little confused by some of the 
statements that have come out of the Justice Department and 
from you, quite frankly, Mr. Attorney General, about the 
propriety of reviewing the performance of U.S. attorneys who 
might be performing well as attorneys but not be bringing 
forward the emphases or the priorities of the Administration.
    Do you think that is an appropriate thing to bring up in 
terms of a review, as opposed to whether or not they are good 
attorneys and they prosecute cases well; that is, the array of 
their resources with respect to the priorities of the 
Administration?
    Mr. Gonzales. I do.
    Mr. Lungren. And would that, could that be the grounds for 
making a determination as to whether a U.S. attorney stays?
    Mr. Gonzales. It could be.
    Mr. Lungren. Under the statute, does a U.S. attorney have a 
prescribed term?
    Mr. Gonzales. The statute says 4 years. But, of course, the 
statute also says that they may be removed by the President.
    Mr. Lungren. So it is a maximum of 4 years unless 
reappointed. Is that correct?
    Mr. Gonzales. What is customary--I wouldn't say customary--
what often happens is that U.S. attorneys simply hold over 
unless there is a decision made by the President to make some 
kind of change.
    Mr. Lungren. So I am trying to----
    Mr. Gonzales. What I would say is that this is a privilege. 
I have the privilege of serving as the Attorney General. If the 
President comes to me today and says, ``I no longer have 
pleasure in you continuing to serve,'' that is the way it 
works.
    Mr. Lungren. Did the President of the United States or 
anybody from the White House tell you to investigate or remove 
any U.S. attorney because they were launching a particular 
investigation against a Democrat or Republican for partisan 
reasons, or to back off of any such prosecution?
    Mr. Gonzales. They never said it to me.
    Mr. Lungren. Did you ever say that to anybody?
    Mr. Gonzales. No.
    Mr. Lungren. Anybody in your department say that that you 
know of?
    Mr. Gonzales. Not that I am aware of.
    Mr. Lungren. Thank you, Mr. Attorney General.
    Mr. Conyers. Mr. Attorney General, we are going to recess 
for the votes, of course. And we will resume immediately after 
the votes have taken place on the floor of the House.
    Thank you very much.
    [Recess.]
    Mr. Conyers. The Committee will come to order.
    We thank you for your cooperation, Attorney General.
    The Chair recognizes the gentlelady from Houston, TX, 
Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    Good afternoon, Mr. General.
    And let me thank the Chairman and the Ranking Member. This 
is a vital hearing and question-and-answer process for 
protecting the integrity of the Constitution and the integrity 
of your office, which I assume you have come today to be as 
open as you could be in order to ensure that that happens.
    Before I start the questioning on the matter at hand, let 
me share with you consternation and frustration that we have 
dealing with a question of the viability, the constitutionality 
of the prison system in the State of Texas.
    It goes really to the overall question that this chart that 
I will hold up suggests, is that under your tenure, starting 
from 2005, every civil rights case has gone down. It means 
police abuse, racial violence, hate crimes, human trafficking 
under your clock and under your watch, it has been a steady 
decline of prosecutions by the Attorney General. That poses a 
crisis for America.
    Let me just quickly ask for your assistance. You may not be 
able to answer this, but this is a crisis.
    I hold up an article that indicates that in Houston, TX, we 
will double the number of deaths in the Harris County jail--11 
right now, 117 over 10 years--and a sheriff who is completely 
absent from the sensitivity of the constitutional rights of the 
inmates.
    Let me just quickly say to you that here is an example. 
Calvin Mack, a homeless and hardened drug addict, continued to 
bleed, continued to die. If you will, the person in the jail 
said, ``What do you want me to do, get a Band-Aid?'' a deputy 
quipped when he was asked to come to the cell block. Four hours 
passed before the officer called for medical help. By then Mack 
was all but dead.
    In the Texas Youth Commission, it says that a Texas Youth 
Commission officer was arrested for having sex with a female 
youth.
    And so my question to you is, it is clear that we have a 
crisis in the prosecution of constitutional rights of the 
underserved, if you will. We know if you are in jail, you have 
committed some sort of an offense, but you deserve the question 
of the Constitution.
    My question to you, one, I would like to have a meeting 
with all of your staff asking for an inspector generals' 
investigation of the Harris County Jail and the Texas Youth 
Commission. You have letters that I sent; you sent back saying, 
``We think you have concerns. Send us more information.''
    I am happy to be an investigator for the DOJ. It is not my 
job right now. I am happy to participate with giving you family 
members and others whose loved ones have died, but I believe 
this warrants an official Justice Department investigation to 
make good on these low, low numbers of prosecuting civil 
rights, constitutional rights of any number of individuals.
    Can I yield to you just for the answer? I have letters from 
your department. You can review them. Can we work together to 
ensure the safety and security of youth inmates in the TYC, and 
those in the Harris County Jail?
    Mr. Gonzales. Yes.
    Ms. Jackson Lee. I would look forward to a more extensive 
answer and a meeting, and I will be happy to present family 
members and others.
    And I, likewise, in your capacity, invite you to Houston, 
TX, so that we can have a larger assessment of this situation. 
People are dying and this is prevalent across America, and I 
would welcome the opportunity to discuss, at another round, the 
whole question of police abuse and other issues.
    Let me just move forward more as we look at the issues at 
hand, and with all due respect, let me say to you--and I would 
like you to think about how telling they are----
    Mr. Conyers. You have got 48 seconds left.
    Ms. Jackson Lee [continuing]. Hitting back the Congress, 
and this whole thing of the Deputy Attorney General reacted 
quite a bit to the idea of anyone voluntarily testifying. And 
he seemed to threaten Bud Cummins, and said, ``You will regret 
coming forward and testifying.''
    Mr. Attorney General, with all these political comments, 
how are you going to fix this troubling and devastating litany 
of duplicity in your department? What steps have you taken to 
address these problems?
    I would appreciate, Mr. Attorney General, your answer.
    The light is still on.
    Mr. Gonzales. Obviously, there have been some very serious 
allegations made, Congresswoman. And one of the things that we 
are going to do with respect to these serious allegations is 
that we have made referrals to the Office of Professional 
Responsibility and to the Office of Inspector General.
    These entities exist in order to respond to allegations, to 
do investigations to reassure the American public that in fact 
we take these kinds of allegations very, very seriously.
    But I want to put everything in perspective for you. I 
think that there have been allegations made with respect to the 
conduct of three political appointees in the entirety of the 
Department of Justice. There are hundreds of political 
appointees, there are tens of thousands of career employees at 
the Department of Justice.
    So I don't want the American people to believe that in fact 
politicalization is running rampant in the department, because 
that is just not true.
    Obviously, I take these allegations very seriously. I don't 
want to minimize them. But to the extent that allegations are 
made that there is improper conduct, they are referred where 
they should be referred. We are doing an investigation to 
ensure that in fact, if anything improper happened here, we are 
going to get to the bottom of it. And there will be 
accountability.
    Ms. Jackson Lee. Thank you.
    Mr. Chairman, I would like to put into the record the two 
articles that I referred to, which are the Houston Chronicle, 
dated April 5, 2007, and the Chronicle dated April 25, 2007.
    And I would just simply say----
    Mr. Conyers. Without objection, so ordered.
    [The articles follow:]
Article published in the Houston Chronicle, April 5, 2007, and April 8, 
 2007, submitted by the Honorable Sheila Jackson Lee, a Representative 
   in Congress from the State of Texas, and Member, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Jackson Lee [continuing]. Is the Attorney General 
offers a wonderful mea culpa, but I would just say the 
perception is there.
    I thank the----
    Mr. Conyers. The Chair recognizes the Ranking Subcommittee 
Member of Commercial and Administrative Law, Chris Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    I would like to submit for the record also a letter from 
Randy Mastro at Gibson, Dunn & Crutcher.
    Mr. Conyers. Without objection.
    [The letter follows:]
  Letter from Randy Mastro, Gibson, Dunn & Crutcher, submitted by the 
Honorable Chris Cannon, a Representative in Congress from the State of 
              Utah, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cannon. This is a letter that rebuts Mr. Cohen's 
editorial and points out that they did not offer Ms. Yang $1.5 
million. And in addition to that, she recused herself while she 
was at the department, and she is not participating in those 
issues where she has gone. And they praise her as a great 
attorney.
    General Gonzales, thanks for being here. I think you are 
very gracious to address these accusations as serious and not 
react to the suggestion that there may be duplicity, out of 
110,000 employees. But I think you have been very direct here 
this morning.
    You are familiar with Mr. Margolis at the Department of 
Justice, are you not?
    Mr. Gonzales. Yes.
    Mr. Cannon. And my understanding is he is the senior career 
employee at the department. Is that right?
    Mr. Gonzales. I think he may not be the senior, but he is 
certainly one of the most senior.
    Mr. Cannon. Probably one of the most outspoken. And he was 
actually interviewed, and I would like to read some of the 
comments that he made.
    He was asked, ``And then you testified that you said 
something to the effect of, `but this does open the door to a 
more responsible'--and you used that word, that is, `a more 
responsible'--to a focused process to identify weak performers 
and make some changes.' And you thought that was a good idea.'' 
And Mr. Margolis responded, ``I thought it was a great idea, 
long overdue.''
    Now, I believe it was Mr. Scott who was talking about the 
CRS report on firings at the Department of Justice, which is 
retrospective, of course. And here you have got a senior person 
at the Department of Justice pointing out that he thought what 
you were doing here was a great idea.
    A little more here: ``To move onto another thing, you 
mentioned during your testimony earlier in the day, I believe, 
that you had indicated that you thought it was good of the 
department to embark on an exercise like this; that is, 
reviewing U.S. attorneys.'' Mr. Margolis: ``Absolutely. And I 
should add, one of my sadnesses''--his word--``I have a lot of 
sadness about this, but it was a great idea. Our execution 
wasn't particularly good, but we didn't have much experience 
with it.''
    So this is a new idea, a new process here.
    ``But one of my great sadnesses is I fear that, down the 
road, people will shy away from doing this again because of the 
burning here.''
    In other words, he is condemning the politicization of this 
process.
    ``And so, when a U.S. attorney called me a couple of weeks 
ago to run an idea past me, he said, `I want to take some 
action, but I want to run it past you and take your 
temperature, because I don't want to get fired.' I said to him, 
`Buddy, you could urinate on the President's leg now, and it 
wouldn't work,' '' suggesting that the department has, in fact, 
been affected.
    And, again, Mr. Margolis is one of the very senior career 
guys who happens--I think you would agree he loves the 
department----
    Mr. Gonzales. No question about that.
    Mr. Cannon [continuing]. Cares about the institution----
    Mr. Gonzales. Yes.
    Mr. Cannon [continuing]. Cares about the integrity of the 
institution----
    Mr. Gonzales. Yes.
    Mr. Cannon [continuing]. And was called on to testify 
because they thought he would do what he suggested could be 
done without fear of being fired, I suppose.
    ``Were you involved in any way,'' he was asked, ``about the 
decision to put Ms. Lam on the list?'' He says, ``So it didn't 
surprise me in that sense because when Mercer was PDAG, he used 
to tell me about problems he was having with here, vis-a-vis 
immigration and immigration and guns, I believe.''
    Then he goes on and he says, ``Based upon my interaction 
with her and what other people, including Ms. Mercer, said, 
both then and now, and reading my--and I love Carol like a 
sister; an outstanding investigative lawyer, an outstanding 
trial lawyer, tough as nails, honest as the day is long, but 
had her own ideas about what the priorities of the department 
would be and was probably insubordinate on those things.''
    Nobody is claiming Mr. Margolis is political or 
politicizing this process. He is saying this is a process that 
was good, and he wants it to happen or continue.
    Later he says, ``She called me primarily to tell me that. I 
think she said, ``I think I just got fired by Mike Battle.''' 
But later he says, ``And then she speculated to me that is was 
over immigration and guns.'' She then told what the problem 
was.
    By the way, I think he said it was a very pleasant 
conversation.
    So this is not about competency. Nobody is saying Ms. Lam 
wasn't competent. But she wasn't doing, and she understood she 
wasn't doing, what the President wanted. Do you think that is 
correct, Mr. Gonzales?
    Mr. Gonzales. First of all, let me just say that Carol and 
these other United States attorneys, I mean, they are fine 
individuals, very, very, very fine lawyers----
    Mr. Cannon. Thank you. I don't want to cut you off, but I 
do just want to put one more in. This is Mr. Margolis again: 
``I was asked about David Iglesias. Given everything I know 
today, he would have been number one on my list to go.'' ``That 
is because he didn't call and report the phone calls?'' ``That 
is right.'' And he goes on to talk about that.
    So we did have some problems with some of these guys, in 
the sense that they weren't exactly paradigms of competence, 
were they?
    Mr. Gonzales. It was my idea that these individuals had 
been identified by the senior leadership in the department as 
having issues or concerns and that a chance would be legitimate 
and----
    Mr. Cannon. While I still have the yellow light, I agree 
with you, but you have a huge department to run. I think Mr. 
Lungren talked about the number, 110,000 people. You have said 
at one point in time that you delegated responsibility, and you 
have been criticized for that.
    And on the other hand, somebody pointed out you had five 
meetings with Mr. Sampson over a period of time--over, by the 
way, 24 months. That is one meeting every 5 months.
    Do you think that was the appropriate level of oversight, 
given what you knew then as opposed to what you know now, 
looking back?
    Mr. Gonzales. Well, of course, in hindsight, no. I think I 
would have done the process differently. I would have had a 
more structured process, a more vigorous process. Again, not a 
formal process, but something more structured, where I had more 
direct communication with Mr. Sampson, let him know exactly 
what I expected.
    I would let him know what things that I think should 
properly be considered in evaluating the performance of U.S. 
attorneys, who I want him to consult with, who I wanted the 
recommendation to come from. I would have ensured that there 
would have been at least one face-to-face meeting with each of 
the United States attorneys, not just these eight but all 93, 
and have a discussion about their performance.
    So there were some things that I think we could have done 
differently, should have done better. And going forward, there 
will be some changes to make sure that we operate the 
department in a way that everyone expects.
    Mr. Cannon. But you learned from it, and it is a process 
you hope will continue, I take it. Or at least I hope it will 
continue.
    Mr. Chairman, I realize my----
    Mr. Gonzales. I think we have an obligation, quite frankly, 
as head of a department for the American people to ensure that 
public servants are doing their job.
    Mr. Cannon. So do I.
    Thank you, Mr. Chairman. I recognize my time is up, and I 
yield back.
    Mr. Conyers. The distinguished gentleman from North 
Carolina, Mel Watt?
    Mr. Watt. Thank you, Mr. Chairman.
    And, Mr. Attorney General, let me first apologize for not 
being here for your testimony. Unfortunately, I am chairing a 
Subcommittee in another Committee and had to be there for a 
hearing that we had scheduled before we found out you were 
going to testify. So accept my apologies, please.
    In the prior hearings, Mr. Attorney General, I have been 
devoting some time to trying to figure out what happened with 
the firing of John McKay. And on April 19th you told the Senate 
that you had accepted the recommendation to fire Mr. McKay 
because he had shown bad judgment in pushing an information-
sharing system and in speaking to the press about department 
resources.
    Do you remember that testimony?
    Mr. Gonzales. Yes. I hope, though, that I said the concern 
was not that it was pushing for the information-sharing system, 
but the manner in which he pushed it.
    Mr. Watt. Okay. Well, that really doesn't have much 
relevance to the next set of things I want to ask you about. 
Whatever he was pushing or not pushing occurred in the summer 
of 2006.
    The letter on the information system you discussed in the 
Senate was dated August 30, 2006, it turns out. And Mr. McKay's 
comments to the press were reflected in an e-mail on September 
22, 2006.
    And, unfortunately, we now have evidence, documentation in 
fact, that Mr. McKay was already targeted for removal by Mr. 
Sampson in March of 2005, because the documents show that he 
was already on the list.
    So are you aware of any legitimate reason that John McKay 
should have been forced out as a U.S. attorney in March of 
2005, as opposed to the things you had talked about that 
occurred in 2006?
    Mr. Gonzales. I would have to go back and look at that, 
Congressman.
    Again, what I recall is that when I accepted the 
recommendations, I was not surprised to see Mr. McKay included, 
because I was aware of concerns in the way that he pushed this 
information-sharing project.
    And I applaud his efforts. He was doing his job.
    Mr. Watt. Okay, Mr. Attorney General, I understand what you 
are saying. You have got to go back and look.
    But there has been some suggestion, unfortunately--our 
investigators asked Kyle Sampson, and he said that he 
remembered department officials being upset that Mr. McKay had 
pushed for action regarding the department's investigation of 
the murder of Thomas Wales. And there was some concern that he 
was being overly aggressive in pursuing the people who had 
murdered Thomas Wales.
    And so a lot of people are viewing this as being admirable, 
not something that somebody should be fired for. Would you 
agree with that?
    Mr. Gonzales. Certainly, it wasn't in my mind a reason why 
I accepted the recommendation. And I was not aware of these 
specific concerns within the department until very, very 
recently.
    So if that was a reason why he was included as part of the 
recommended group, that is something you would have to ask 
others involved in this process because I have not had the 
opportunity to do that.
    Mr. Watt. And if that was among the reasons, would you 
agree with Mr. McKay, who has characterized this as--I am going 
to quote exactly what he says: ``The idea that I was pushing 
too hard to investigate the assassination of a Federal 
prosecutor is mind-numbing.''
    If it is true, it is just immoral. And if it is false, then 
the idea that the Department of Justice would use the death of 
Tom Wales to cover up what they did is just unconscionable.
    Mr. Gonzales. I am not----
    Mr. Watt. Would you agree that it would be immoral and 
unconscionable for you all to be firing somebody because they 
were investigating the death of one of their own staff people?
    Mr. Gonzales. That is a crime, and we have an obligation 
to, of course, investigate it and prosecute those responsible 
for it. I am not aware that the department, however, is using 
that as a reason or excuse----
    Mr. Watt. Well, you obviously haven't listened to the 
testimony of some of the people in the department then, because 
that was an excuse that was advanced initially.
    And that is the problem here, Mr. Attorney General. There 
are so many different excuses advanced at different times, 
whenever it is convenient, that you have this appearance that 
there is something else there.
    And in this case, Mr. McKay also failed to aggressively, or 
as aggressively, prosecute as some people thought he ought to 
prosecute, and pursue some voting fraud cases that were taking 
place after an election took place. And it might have had some 
impact on a Democrat versus a Republican being elected.
    So if that concern that the public is concerned about, Mr. 
Attorney General, if that is at the bottom of this, that would 
be an improper motivation for a termination and would be 
illegal. Wouldn't you agree?
    Mr. Gonzales. I agree that if, in fact, there was pressure 
put on Mr. McKay to investigate a case which didn't warrant an 
investigation--but obviously, there may be circumstances where 
an investigation may have been warranted. And so we would have 
to look at the circumstances of a particular case.
    I don't recall that when I accepted the recommendation, 
Congressman, that that was a reason for it, is his efforts with 
respect to voter fraud.
    But clearly, going back and looking at the documents and 
the correspondences, there was a great deal of concern about 
his efforts with respect to voter fraud. Because I received a 
number of letters from groups and outside parties----
    Mr. Watt. So you didn't fire him for that reason, but 
somebody might have put him on the list for that reason? That 
is really what you are saying, Mr. Attorney General.
    Mr. Gonzales. Again, Congressman, I am assuming that this 
Committee has spoken with everyone who provided input. And, of 
course, the person who was compiling the information, Mr. 
Sampson, would know better than I. Because I am a fact witness. 
I haven't talked to these other fact witnesses about what 
happened here.
    Mr. Watt. I will yield back, Mr. Chairman.
    Mr. Conyers. Mr. Bob Goodlatte, the distinguished gentleman 
from Virginia?
    Mr. Goodlatte. Mr. Chairman, thank you very much.
    General Gonzales, welcome. I know you may not particularly 
feel like this is a welcoming occasion, but I do want to remind 
everybody here that this is an oversight hearing that is 
periodically held by this Committee on the United States 
Department of Justice.
    General Gonzales, you have the responsibility for thousands 
of employees in your department. You have responsibility for 
the enforcement of thousands of Federal laws related to 
criminal activity that occur in this country.
    And I would like to take the opportunity--while I know many 
here have focused on the issue of the termination of seven or 
eight, or whatever the number is, of those employees who were 
terminated because it was your opinion and those who report to 
you that they were not properly enforcing those laws and taking 
necessary steps to do that, nonetheless there are many, many 
dedicated employees of the department who are attempting to do 
that.
    So I would like to attempt to ask you about some of those 
other areas that are very important to my constituents.
    We have, in this country, millions of jobs related to the 
creativity of our country. They are protected by our 
intellectual property laws. And we face the loss of many of 
those jobs, both here at home and overseas, due to people 
stealing other people's creative ideas.
    And I wonder if you could update us on your efforts to 
enforce our nation's intellectual property laws against theft 
of people's ideas due to violation of patent and copyright and 
trademark laws that are protected in the United States 
Constitution.
    Mr. Gonzales. Well, we have got special units within the 
FBI and within main Justice, involving prosecutors who focus on 
intellectual property issues.
    We have an intellectual property task force that was set up 
under General Ashcroft. I have continued that. They came out 
with a series of recommendations. All of those recommendations 
have now been promulgated and set up.
    We have embarked on an education campaign, reaching out to 
students, informing them of the importance of intellectual 
property, that it is something that, as Americans, we should 
work to strive to protect.
    We have reached out to the various trade groups, movies and 
music industry, businesses, to talk about the importance of 
this.
    I have spoken with State legislators about the importance 
of State laws to assist us, because there are limited resources 
that we have to enforce and prosecute piracy, but perhaps 
States can help us.
    But this is an issue that goes beyond our borders. To be 
effective, we have to also have the support of our friends and 
allies overseas. And so we have had dialogues.
    We have encouraged people to be participants in the 
Cybercrime Convention, which will allow for greater sharing of 
information that will help us with prosecutions.
    So I think that we have got a good story to tell. But no 
question about it that there is a lot of money to be made in 
connection with intellectual property theft. And whenever you 
can make a lot of money, people want to engage in that kind of 
activity.
    And so we really need to stay focused, and I look forward 
to working in Congress to engage in a dialogue about what 
additional laws, what additional tools would be helpful to help 
us in dealing with this issue.
    Mr. Goodlatte. Thank you, General Gonzales.
    Another area that is of concern to a great many Americans 
is the fact that we have a serious problem in this country with 
illegal gambling. Last year it is estimated more than $6 
billion went out of the country to untaxed, unregulated, 
illegal sites.
    There are many, many ills that have been identified with 
gambling, particularly illegal gambling because of its lack of 
any kind of regulation: family problems, problems with gambling 
by minors, gambling addictions, organized crime, bankruptcy--
the list is long.
    And Internet gambling poses a very problem because it 
essentially puts a casino in everybody's home, much less down 
the street or in a community where many communities have fought 
against and do not have that type of gambling operations in 
their community.
    So I want to thank you for your leadership in combating 
illegal gambling operations, and particularly your aggressive 
prosecution of overseas Internet-based gambling operations that 
violate U.S. laws. That has not gone unnoticed, and I would 
like to applaud your efforts.
    As you know, the Congress recently passed illegal Internet 
gambling legislation to prohibit the acceptance of payment for 
illegal Internet gambling bets, showing our commitment to 
combating these activities. It passed by an overwhelming, 
bipartisan vote, including Members on both sides of the aisle 
in this Committee.
    And I want to know if we can count on your to continue 
these aggressive criminal prosecutions against illegal, online 
gambling operations.
    Mr. Gonzales. Yes, Congressman. I want to thank the 
Congress for this additional tool.
    Obviously we are in the process now--the Treasury 
Department working on regulations. They are consulting with the 
Department of Justice, and hopefully we can make some progress 
on that real soon.
    Mr. Goodlatte. The prosecution of some of these----
    Mr. Conyers. The time of----
    Mr. Goodlatte. I apologize, Mr. Chairman.
    I thank the general.
    Mr. Conyers. Thank you.
    The distinguished gentlelady from Los Angeles, California, 
Maxine Waters?
    Ms. Waters. Thank you very much, Mr. Chairman.
    Mr. Attorney General, I would like to talk with you about 
gangs in this country and the greater Los Angeles area. But I 
won't do that today, because I think that your credibility is 
on the line.
    And you have been questioned about the firing of the eight 
U.S. attorneys, and it appears to have been politically 
motivated, even though there has been some denial of that. I 
would like to ask you a few questions.
    First of all, did you review the personnel files of these 
attorneys after the accusation of them being fired for a 
political reason? And did you see anything in their files that 
showed that they had been reprimanded, they had been advised, 
they had been charged with not handling their duties in a 
responsible way?
    Mr. Gonzales. Congresswoman, I look forward to talking with 
you about gangs.
    With respect to the U.S. attorney issue, what I did was 
relied upon the judgment of those who----
    Ms. Waters. Did you review the files after----
    Mr. Gonzales. I did not review the personnel files----
    Ms. Waters. Have you reviewed them at all since all of this 
has taken place?
    Mr. Gonzales. What I have done is I have gone back and 
spoken to the Deputy Attorney General----
    Ms. Waters. Have you reviewed the files?
    Mr. Gonzales. I have not reviewed the files. I have gone 
back----
    Ms. Waters. So you don't know whether or not they had been 
advised, they had been warned, they had been reprimanded about 
their work at all?
    Mr. Gonzales. I think the answer to that--I don't think 
that they have. In fact, I think----
    Ms. Waters. But you didn't review the files, so you didn't 
look in their files whether or not they had been advised, 
reprimanded, suspended or anything about their work? Is that 
right?
    Mr. Gonzales. I did not review their files.
    Ms. Waters. You knew you were coming here today. You know 
we have been trying to get unredacted documents from you about 
what happened in your department. Did you bring them with you 
today?
    Mr. Gonzales. No, ma'am. I brought----
    Ms. Waters. Are you resisting giving us the documents that 
we are asking of you that is related to the firing of these 
attorneys?
    Mr. Gonzales. No, ma'am. I am not involved in making 
production decisions. And I am recused from----
    Ms. Waters. Would you advise the department to give us 
those documents?
    Mr. Gonzales. I am recused from that, ma'am. I can't do 
that.
    Ms. Waters. Why are you recused from that?
    Mr. Gonzales. Because I am a fact witness in this 
investigation. And in order to avoid any appearance of 
impropriety----
    Ms. Waters. Can you tell us whether or not you have an 
opinion that they should be given to us?
    Mr. Gonzales. No, ma'am, I am not going to comment----
    Ms. Waters. All right. Thank you.
    Did you meet with the President about this issue?
    Mr. Gonzales. Which issue is this, ma'am?
    Ms. Waters. Did you and the President meet to discuss the 
accusations of the politically motivated firing of these eight 
U.S. attorneys?
    Mr. Gonzales. Ma'am, I disagree with your characterization 
as politically motivated.
    Ms. Waters. I am not characterizing. I am asking you, have 
you met with the President of the United States to discuss what 
has been accused of politically motivated firing?
    Mr. Gonzales. Again, I would not characterize it as 
politically motivated.
    Ms. Waters. Well, okay. Have you met with the President of 
the United States to discuss these firings?
    Mr. Gonzales. I have a lot of discussions with the 
President of the United States----
    Ms. Waters. Did you discuss with the President of the 
United States the fact that your department was being requested 
to supply documents? Or did you advise the President?
    Mr. Gonzales. I have not spoken to the President with 
respect to document production. Again, Congresswoman, I am 
recused from those decisions.
    Ms. Waters. Did the President say anything to you about the 
fact that documents had been requested of the White House and 
asked your opinion about whether or not those documents should 
be given to this Committee?
    Mr. Gonzales. No, ma'am, the President has not asked for my 
opinion as to whether or not the White House should turn over 
documents. And, again, I am recused with respect to production 
of DOJ documents and with respect to----
    Ms. Waters. Okay. So you are recused and you can't talk 
about whether or not you believe that this Committee should 
have unredacted copies of documents that we have been trying to 
get that are pertinent to these firings. You are recused from 
that. You have no opinion about whether or not the oversight 
Committee of Congress should have those documents.
    You did not look at the files of the people who have been 
in the news for weeks now where you have been accused, your 
department, of politically motivated firings, you don't know 
whether they were good employees, they were bad employees, 
whether or not they had been reprimanded, suspended, advised or 
anything.
    You know nothing, is that correct?
    Mr. Gonzales. That is not correct.
    Ms. Waters. What do you know, Mr. Attorney General?
    Mr. Gonzales. Well, generally about this whole matter, 
Congresswoman?
    Ms. Waters. What would you like to tell us? You are here 
today, and you know what we are focused on.
    Mr. Gonzales. Yes.
    Ms. Waters. This is no secret.
    I know that you have been in a number of hearings. I know 
that you don't remember a lot. You have not shared with us 
anything about the documents.
    What can you tell us today that will help us to understand 
why eight U.S. attorneys were fired, an unusual pattern that 
CRS has reviewed and told us that there is a pattern here and 
it doesn't look good?
    Your reputation is on the line, Mr. Attorney General. What 
do you have to say for yourself?
    Mr. Gonzales. Congresswoman, what I have to say is that we 
have provided a lot of information to the Congress about this 
issue----
    Ms. Waters. I asked you specifically about unredacted 
copies that are pertinent to this investigation.
    Mr. Gonzales. Again, Congressman, I am not involved in 
making decisions about the documents to be provided or not 
provided by the department----
    Mr. Conyers. Let's allow the Attorney General to finish his 
response to this question.
    Mr. Gonzales. Yes.
    With respect to redacted documents, it is my 
understanding--and again, I haven't been involved. But it is my 
understanding that the Congress has had access to the 
documents. They have been able to see what has been redacted, 
it is my understanding.
    But, again, those are decisions that are not being made by 
me in order to preserve the integrity of this investigation, 
because I am a fact witness.
    Ms. Waters. No, you are more than a fact witness, Mr. 
Attorney General. The buck stops at the top.
    Mr. Gonzales. And I accept responsibility----
    Ms. Waters. If you accept----
    Mr. Conyers. The gentlelady's time has expired.
    Ms. Waters. I will yield back the balance of my time. Thank 
you.
    Mr. Conyers. Thank you.
    Steve King of Iowa?
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the Attorney General for being before this 
Committee and submitting yourself to this process. And I think 
it needs to be a dignified process, and I think we need to 
respect you and the answers that you give. I believe that you 
are giving openly and honest answers here before the Committee.
    I would reflect back on some issues that were raised, 
particularly by the gentlelady from California, with regard 
to--and I am not going to characterize how she characterized 
it, because I don't want to repeat some of the language that 
went into this record and have it taken down, but the behaviors 
and the activities of the U.S. attorney's office in that area.
    Then the issue is raised by the gentleman from Wisconsin, 
Mr. Sensenbrenner, about the investigation of a Member of 
Congress and how that might affect the activities on the part 
of your office.
    And so I can't help but reflect upon a 500-page report that 
was delivered to the Department of Justice regarding another 
Member of Congress. And that investigation has been going on 
since December of 2005. And that issue is still pending any 
kind of resolution. And I believe that the Ethics Committee in 
this Congress is awaiting the results of the investigation.
    But the question I would ask to you is, if the Chairman of 
the Justice Appropriations Committee happened to have had been 
under that kind of scrutiny, could that affect the kind of 
prosecution that takes place out of your Justice Department 
with regard to that particular Member of Congress?
    Mr. Gonzales. I would like to say no, quite frankly, I 
think, because you have to understand that prosecutions, by and 
large, are handled, and the investigations and prosecutions are 
handled, by career officials. They go forward no matter what 
happens. We want them to do that.
    I have told every United States attorney to, ``Tell your 
people, I don't want anything affected, whatsoever, by anything 
going on Washington. I don't care who the target is--
Republican, Democrat, someone on the Hill, someone at the White 
House. You follow the evidence; you do your job. That is what 
the American people expect, and that is what I expect and 
demand.''
    Mr. King. And, Mr. Attorney General, you know, aside from 
the President of the United States, what could be more 
intimidating to the Department of Justice than to be involved 
in an investigation of the Chairman of an Appropriations 
Committee that had control directly of your budget? What could 
be more intimidating than that with regard to an investigation?
    Mr. Gonzales. We have to put that aside. Again, if the 
evidence is there, we have an obligation to pursue it. And if 
it is not there, then we stop the investigation.
    But, clearly, this comes with being a prosecutor. Sometimes 
it is going to put you in a very awkward, difficult situation. 
But the American people expect you to do your job, and that is 
what I expect of the prosecutors in the Department of Justice.
    Mr. King. Let me say then, Mr. Attorney General, that if 
that kind of circumstance, if the person that is in control of 
your budget has his activities being reviewed by your 
department--it is very well-published across this country and 
not well-known in this Hill--if that does not affect your 
investigation and your integrity has risen about that kind of 
intimidation, then how in the world can any of these other 
allegations be intimidating the investigation of the Justice 
Department?
    Mr. Gonzales. Well, again, without commenting on a 
particular investigation, we have a job to do that the American 
people expect we are going to do it.
    Mr. King. And I would submit to this Committee that what I 
have stated here is entirely true: that there is nothing more 
intimidating than the scenario that I have laid out here, and 
this scenario happens to be fact. All the rest of these things 
that unfold are minor in comparison to this looming issue that 
is here.
    And if this Justice Department can be considered to be 
conducting themselves above reproach with this investigation--
and I don't have any reason to believe they are not, and I want 
to put that on the record--then the rest of these allegations 
are essentially baseless.
    And I would also submit that in my experience into the 11th 
year of the legislation process that I have been involved in, 
there has been nothing that has seen more opposition from a 
partisan political standpoint than trying to provide integrity 
into the electoral process.
    And those investigations that were going on in the 
southwestern part of this United States which were part of a 
decision, I believe, that was made by your department to 
dismiss a U.S. attorney down in that area, I think were met 
with political opposition on the other side.
    And if we are going to investigate this, then I would be 
looking at some of the FBI officers that were doing the 
investigations in those kind of cases.
    And I would ask if you would care to comment on that, Mr. 
Attorney General.
    Mr. Gonzales. No, sir.
    Mr. King. I didn't think you would.
    I want to conclude then by saying thank you for being here 
and thank you for this testimony. And I hope that we can raise 
the level of this decorum and respect your testimony in an 
appropriate fashion. I appreciate your service to America.
    I yield back.
    Mr. Conyers. I thank the gentleman.
    And we now turn to Mr. William Delahunt, the gentleman from 
Massachusetts, who is now recognized.
    Mr. Delahunt. General Gonzales, we have heard about 
delegation and the size of the department. And I think we all 
understand that, and, obviously, the need to delegate powers 
and authorities. But there are some powers and authorities that 
you cannot delegate.
    And you have been an ardent advocate for the Patriot Act.
    Mr. Gonzales. Yes.
    Mr. Delahunt. You support it, you have come here, and you 
have testified, correct?
    Mr. Gonzales. That is correct, sir.
    Mr. Delahunt. And you have the power to review information 
regarding organizations and an individual to determine whether 
they are terrorists. And you have the power to detain those 
individuals. Is that correct?
    Mr. Gonzales. Depending on, of course, always relying upon 
the recommendations, the analysis and views of----
    Mr. Delahunt. I understand that. But you can delegate that 
decision-making process to the Deputy Attorney General, but you 
can't delegate it to a U.S. attorney or anyone else. In the 
end, that is your decision to make, correct?
    Mr. Gonzales. And, of course, I am head of the department, 
and in the end I am responsible for----
    Mr. Delahunt. I understand.
    Well, back in March of 2005 an individual by the name of 
Luis Posada Carriles entered this country illegally. He has had 
a long and rather dramatic history of violence and, in fact, 
has been convicted of acts of terrorism in other countries.
    The most famous charge, of course--and this is referenced 
in a series of FBI documents that are now in the public 
domain--is that he was implicated in the midair bombing of a 
Cuban airliner, resulting in the deaths of some 73 civilians.
    I am sure you are familiar with that.
    Mr. Gonzales. I am familiar with the news stories, yes, 
sir.
    Mr. Delahunt. Well, let me ask you this: Have you reviewed 
this particular case?
    Mr. Gonzales. I am aware of this case.
    Mr. Delahunt. And have you made, at any point in time, an 
assessment of whether this individual should be designated as a 
terrorist and detained?
    Mr. Gonzales. What I can say, Congressman, is that, of 
course, I am concerned about what I know. And we have taken 
steps in the courts to try----
    Mr. Delahunt. I understand you have taken steps in courts, 
but I would appreciate a direct answer.
    Mr. Gonzales. What is the question?
    Mr. Delahunt. Why have you not taken steps to designate 
Luis Posada Carriles as a terrorist, given the overwhelming 
information that exists in the public domain today?
    Mr. Gonzales. Congressman, what I would like to do is go 
back and look at this case so I can give you an answer. I want 
to be totally accurate with you with respect to----
    Mr. Delahunt. I understand. But this is your 
responsibility----
    Mr. Gonzales. And I want to be careful about what I can say 
publicly. And so, again----
    Mr. Delahunt. Well, I understand you have to careful. But 
at the same time, have you undertaken a review of this case, 
given the law authorizing you----
    Mr. Gonzales. I am aware of the circumstances of this case. 
But I am also aware that there are still matters and actions 
ongoing within the department that have not been completed. And 
I don't want to say anything that would in any way jeopardize 
that.
    Mr. Delahunt. Well, what we have now, given the decision 
that was rendered this past week, is we have Mr. Posada 
Carriles a free man in this country. You are familiar with 
that.
    Mr. Gonzales. I am aware of the judge's decision. We 
obviously disagree. We are making estimates about what to do.
    Mr. Delahunt. Well, let me reclaim my time, and let me read 
a finding of the court that I find particularly disturbing, and 
I would be interested in your response.
    This is the judge, now. ``In addition to engaging in fraud, 
deceit and trickery, this court finds that the government's 
tactics in this case are so grossly shocking and so outrageous, 
to violate the universal sense of justice. As a result, this 
court is left with no choice but to dismiss this indictment.''
    Now, in my previous life, I also was a prosecutor. I have 
never in my 22 years as a prosecutor read that kind of language 
coming from a court.
    Mr. Gonzales. May I just say that I respectfully disagree 
with the judge? And because this is a matter that is still 
pending, I am not going to otherwise comment on her comments.
    Mr. Delahunt. Right.
    Well, let me go back again to the earlier question that I 
posed, that the designation by yourself of Luis Posada Carriles 
as a terrorist does not require, under the Patriot Act, an act 
which you have supported and this Administration has advocated 
for, does not require any judicial review.
    Is that a fair statement?
    Mr. Gonzales. I think that is a fair statement, 
Congressman. But, again, with respect to your specific question 
as to why hasn't this happened, I need more information. I 
would be happy to hopefully get back----
    Mr. Delahunt. With all due respect, Mr. Attorney General, 
as my colleague from California said, the buck stops with you 
on this one.
    Mr. Gonzales. I understand.
    Mr. Delahunt. This is not susceptible to being delegated 
anywhere else. And I would hope you would take a hard look now.
    Let me ask you this----
    Mr. Conyers. The time of the gentleman has expired, 
regretfully.
    Darrell Issa, the gentleman from California, is recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    And, General Gonzales, it goes without saying, and I am 
sure you are well aware of it at this point, that I have been a 
critic of the former U.S. attorney in San Diego, Carol Lam, who 
was terminated.
    And I was a critic not because she wasn't a fine 
prosecutor, as a matter of fact, not because she didn't take on 
big cases--she did that--but because of the exclusion of any 
reasonable prosecution of coyotes, people who traffic illegally 
in human beings, people who very well would bring terrorists 
into our country.
    And, in addition to that, I am very aware that she 
willfully failed to prosecute gun crimes in any number similar 
to the rest of the country or the rest of California.
    Having said that--and I am going to ask you an off-the-cuff 
question--are you aware of who Antonio Lopez was in that 
district?
    Mr. Gonzales. Is that his full name, Congressman?
    Mr. Issa. He has a middle name. I apologize.
    Mr. Gonzales. Well, I mean, I don't----
    Mr. Issa. He trafficked 20 times and was arrested and not 
prosecuted by Carol Lam. On the 21st time, we sent to your 
predecessor a letter, signed by 19 Members of Congress----
    Mr. Gonzales. I am now aware--I recall him, yes.
    Mr. Issa. And we did so as a form of political pressure to 
say, ``We want this type of prosecution. We believe the 
President stands for this. And Attorney General Ashcroft failed 
to take action. Carol Lam failed to take action.''
    So, it is not without some special interest in this that I 
believe that the policies of this President were, in some 
cases, poorly executed by U.S. attorneys.
    And I am here today not to support your management 
capabilities or how much you delegated--I think you have 
already apologized for not having a better management system in 
place. I think you have already apologized for the fact that 
U.S. attorneys may have, in many cases, not been through the 
normal process of review--``You are not doing this; you have to 
do better.'' I think we have all read e-mails that indicate 
that that may not have been done very well.
    But I am going to ask you the basis question, which is, if 
you continue to serve for 20 more months at the pleasure of the 
President, which I believe you will, will you, in fact, not be 
gun-shy as a result of what happens here today?
    And if you have a U.S. attorney who is not implementing the 
stated public policies of this President, will you take any and 
all measures necessary to make sure they are aware and they are 
supportive of the stated policies of this present 
Administration?
    Mr. Gonzales. Contrary to being gun-shy, this process is 
somewhat liberating in terms of going forward.
    No, believe me, I think it is clear to the American people 
what I expect of U.S. attorneys. The President is accountable 
to the American people, and his priorities and policies can 
only be implemented through people like myself and the United 
States attorneys.
    What I need to do a better job of is making sure that I 
communicate with U.S. attorneys where I think that they are 
falling short. And if I have concerns about their performance 
or any thing else about what is going on in their district, we 
need to do a better job communicating those concerns to the 
United States attorneys.
    Mr. Issa. General Gonzales, I would ask that you follow up 
for the record with some of the steps you are going to take to 
provide better guidance to 93 U.S. attorneys. And I look 
forward to seeing those.
    Let me follow up with, I think, the fair balance for some 
of the things I have heard here today.
    You weren't here at the beginning of this Administration as 
the Attorney General, but you are aware of the termination of 
the previous U.S. attorneys at the beginning of this 
Administration. Do you recall the number that were terminated?
    Mr. Gonzales. Well, eventually all of the United States 
attorneys were terminated.
    And what was unusual about that is that normally they are 
staggered over a period of time. And as I recall, in connection 
with the previous Administration, they were actually more 
compressed. And so, the concern there is it is much more 
disruptive. It is a greater shock to the system when you do it 
all together at one time.
    But having people removed over a staggered period of time 
is something that has occurred before.
    Mr. Issa. So under this Administration, 93 U.S. attorneys 
were replaced. Some quit on day one; some were asked to leave 
shortly thereafter; some were kept on for transition purposes.
    And that was done in order to do the best job you could, in 
spite of the fact every one of them was a Democrat political 
appointee.
    Mr. Gonzales. That is correct. And quite frankly, you know, 
at the beginning of an Administration, we weren't prepared to 
immediately nominate 93 new individuals. And so, it would take 
a period of time. I think it is a matter of good management and 
judgment. It would take some time before we were prepared to do 
that.
    Mr. Issa. And I applaud this Administration for doing it.
    I might note that under President Clinton, 92 out of 93 
were terminated immediately.
    And just in the remaining time, how do you think that the 
earlier Administration's immediate termination of 92 out of 93 
affected morale and capability of doing the job versus the 
technique that this Administration employed?
    Mr. Gonzales. Well, I don't want to comment on that, other 
than to say that I think it is a better system to do it on a 
staggered term, quite frankly, again, because it is less of a 
shock to the system. We were not prepared to immediately, you 
know, to nominate 93 individuals. So that was the way we felt 
was the best way to----
    Mr. Issa. And I applaud this Administration for being less 
partisan at the beginning of its Administration, able to try to 
put justice ahead of partisan behavior.
    Thank you, Mr. General.
    And I yield back, Mr. Chairman.
    Mr. Conyers. Thank you, sir.
    The Chair recognizes the distinguished gentleman from 
Virginia, Mr. Rick Boucher.
    Mr. Boucher. Thank you very much, Mr. Chairman. I do not 
have questions this afternoon. But I would be pleased to yield 
the 5 minutes allotted to me to you, Mr. Chairman, if you have 
questions.
    Mr. Conyers. I thank the gentleman.
    Attorney General Gonzales, let me follow up on a question 
that has occurred here. Since the date of the firings on 
December 7, 2006, have you discussed this matter with President 
Bush?
    Mr. Gonzales. What I can say is we have had a few 
discussions, generally, where he has given me words of 
encouragement. But not as to substance.
    Mr. Conyers. So there has been some discussion, is that 
fair to say?
    Mr. Gonzales. Yes, there has been some, but, again, 
primarily, Mr. Chairman, where the President has given me words 
of encouragement.
    Mr. Conyers. Now, you have already indicated that you 
talked to Mr. Karl Rove about the voter fraud matter in New 
Mexico in October of 2006.
    Mr. Gonzales. Mr. Chairman, I am not sure that I said it 
was in October. I think it was in the fall of 2006.
    Mr. Conyers. All right. Do you have information on whether 
Karl Rove or any other White House staff member helped get Mr. 
Iglesias on the termination list, either through Ms. Goodling, 
who was liaison to the White House, or anyone else that might 
be White House-like-liaison?
    Mr. Gonzales. I have no personal knowledge, Mr. Chairman. I 
don't recall now, thinking back, whether or not there is 
anything in the documents. I am not sure that I have any 
personal knowledge outside the documents.
    Mr. Conyers. If you review that, we will be sending you 
further inquiries about all the matters here. I wish you would 
take a close look at that.
    Mr. Gonzales. Of course, Mr. Chairman.
    Mr. Conyers. All right.
    Now, we have already learned that Karl Rove has been 
contacted by prominent New Mexico Republicans to try to remove 
Mr. Iglesias as the U.S. attorney because of concerns about the 
voter fraud matter.
    Mr. Rove talked to you about the voter fraud matter in New 
Mexico in the fall. Right?
    Mr. Gonzales. That is my recollection. Not just New Mexico, 
but also, as I recall, Philadelphia as well.
    Mr. Conyers. A couple other places. All right.
    And Mr. Iglesias appears on the termination list in October 
or November----
    Mr. Gonzales. I believe it was Election Day, November.
    Mr. Conyers. It was November. Thank you.
    Well, now, if we start following these bread crumbs, it 
suggests that there could have been some connection between the 
discussions between yourself and Mr. Rove and Mr. Iglesias 
hitting the door, as an ex-employee.
    Mr. Gonzales. Mr. Chairman, you have more bread crumbs than 
I do, quite frankly, because you have had the opportunity to 
speak directly to other fact witnesses at the Department of 
Justice. I was not surprised to see Mr. Iglesias recommended to 
me, based upon previous conversations that I had had with 
Senator Domenici.
    Mr. Conyers. Well, you may have yet more bread crumbs than 
I, sir, because you were the one that talked to Karl Rove. That 
is a pretty big bread crumb.
    Mr. Gonzales. I have a lot of conversations with Mr. Rove, 
Mr. Chairman. I have no recollection that Mr. Rove ever 
recommended that Mr. Iglesias be terminated. Again, what he was 
conveying to me were concerns that had been raised with him 
with respect to voter fraud prosecutions in these three 
jurisdictions.
    Mr. Conyers. Well, keep searching your memory on this, 
because this has taken on quite a bit of significance and 
importance, as you can understand.
    Mr. Gonzales. I will continue searching my memory, Mr. 
Chairman.
    Mr. Conyers. Thank you.
    Mr. Randy Forbes, please, of Virginia?
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Attorney General, thank you for your patience in 
being here today. It is sometimes interesting to me, because I 
have seen hundreds and thousands of press releases going out, 
attacking you. We have had all kinds of hearings like this. We 
had a little demonstrations out there. And then Members of this 
Committee will get up and question you about why people might 
have some questions about your credibility and your ability to 
lead in the country, even after seeing all of that generated 
against you.
    Second thing is, it was interesting to me earlier on, when 
Ms. Sanchez was asking questions, she made this statement. She 
says her words get turned around by this Committee. And if we 
would turn around the words of a Member of this Committee, 
heaven only knows what we might do with some of our witnesses.
    And then it was interesting because within 5 minutes of her 
statement there was a big inconsistency as to what she said 
just 5 minutes before. And sometimes we are asking you to 
remember things that you might have said or conversations that 
you had months before.
    But I was real interested with the line of questioning that 
my good friend from California asked, and I would just like to 
ask you this again. The total number of employees that you have 
under your----
    Mr. Gonzales. Within the department about 110,000 people.
    Mr. Forbes. How much?
    Mr. Gonzales. One-hundred-and-ten-thousand.
    Mr. Forbes. And of those, how many attorneys?
    Mr. Gonzales. Ten-thousand to 15,000.
    Mr. Forbes. Ten-thousand to 15,000.
    And one of the things that we had recently, we had a 
hearing in New Orleans about some of the crime activity that 
was down there. We found out a staggering statistic: that the 
State attorney down there, that there was apparently only 7 
percent of the individuals that were arrested ended up going to 
jail.
    And if we found that statistic and we found that we had had 
a President who was elected to go after crime and anybody on 
this Committee contacted you and said, ``We just think that 7 
percent of the individuals arrested would not be 
satisfactory,'' would that be an appropriate thing for us to 
raise to you?
    Mr. Gonzales. Oh, no question about it.
    Mr. Forbes. And if you had such an attorney like that, 
would it be an appropriate thing for you to tell him if that 
didn't change, that he may be removed, even if he was a good 
attorney and a competent attorney?
    Mr. Gonzales. Of course.
    Mr. Forbes. And what we did also find out in that same 
hearing that we had down in New Orleans was that the people 
under charge, the U.S. attorney down there was actually having 
between 93.5 and 99 percent conviction rates. So they had done 
a good job.
    But if you hadn't have taken those steps, we would have you 
before us and we would be asking you those questions why. So we 
want to compliment you for that job.
    The other thing is, some of us are concerned about what we 
see with gangs across the country, and the rise in gangs. And 
if you sat down and made policy decisions that you wanted to 
have U.S. attorneys go after networks of gangs, as opposed to 
just waiting until individual gang crimes took place, would 
that be a fair thing for any Member of this Committee to raise 
to you and say, we think your U.S. attorneys need to be doing 
that?
    Mr. Gonzales. I would be very interested in hearing your 
views about gangs. It is a serious issue in our country. And I 
think we ought to be, and we are, focused on it.
    Mr. Forbes. And you are. And if your U.S. attorneys were 
not, would that be appropriate thing for you--even if they were 
competent attorneys and good attorneys. But if they weren't 
going after gangs in the direction that you felt appropriate, 
from an administrative point of view, would that be reason to 
make a change in that U.S. attorney's office?
    Mr. Gonzales. If the U.S. attorney--now, of course, we 
would endeavor to find out, okay, what are the reasons why? We 
ought to have a conversation with that U.S. attorney. And if 
the reasons aren't legitimate, of course it would be 
appropriate.
    Mr. Forbes. And if you didn't, we would bring you back for 
a hearing and we would be criticizing you for that.
    One of the other big things that many of us have been 
concerned about is pornography and child pornography, and 
especially pornography on that Internet. If you had U.S. 
attorneys that weren't going after that in the manner that you 
felt appropriate, that some of us felt appropriate, and that 
wasn't getting prosecuted, would it be appropriate for us to 
raise those issues with you?
    Mr. Gonzales. Well, I would be interested in hearing your 
views about that.
    Mr. Forbes. And if we did, and you felt those U.S. 
attorneys, even if they were competent, were not prosecuting 
those obscenity cases in the manner that you felt they needed 
to be prosecuted, would that be reason for you to be able to 
remove those U.S. attorneys?
    Mr. Gonzales. It would be. I would give the same answer. 
You know, in hindsight, looking back, I would like to try to 
find out the reasons why. And if there aren't good reasons, 
then I think----
    Mr. Forbes. Even if they were a competent attorney, if they 
weren't moving in that direction.
    The other big thing--and you have testified before us, 
correctly so, that our number-one espionage problem in this 
country was with China. And if we had U.S. attorneys that 
weren't prosecuting that in what we felt was an appropriate 
manner, would that be appropriate for us to raise that kind of 
issue with you?
    Mr. Gonzales. I would always be interested in hearing about 
the concerns and views of Congress.
    Mr. Forbes. And if they didn't modify that and they weren't 
going after those espionage cases, would that be a reason for 
you then to make a change with the U.S. attorney's office?
    Mr. Gonzales. Yes.
    Mr. Forbes. Now, the other concern that I have, quite 
honestly, is--you have been very patient in being here with us 
today. You have got a lot of your staff members there.
    How are these investigations impacting your ability and the 
office's ability to go after some of these other concerns that 
we have, whether it is child pornography, gangs, China 
espionage? It is taking a lot of your time. How are you 
balancing those?
    Mr. Gonzales. Well, I have to balance it. Because 
obviously, this has raised some issues, some concerns of 
Congress. I have an obligation to try to reassure Congress that 
nothing improper happened here.
    But on the other hand, I also have an obligation to the 
American people. They expect me to continue to make sure this 
country is safe from terrorism, that our neighborhoods are safe 
and our kids are safe. And so, we have got to somehow make that 
work.
    I am not going to say that this hasn't been somewhat of a 
distraction. But I think the department has remained focused on 
doing the job the American people expect.
    Mr. Forbes. Thank you, Mr. Attorney General.
    Mr. Conyers. The Chair recognizes the distinguished 
Chairman of the Intellectual and Property Rights Committee, 
Howard Berman.
    Mr. Berman. Well, thank you, Mr. Chairman.
    Mr. Attorney General, I just thought I would make one brief 
comment and then yield my time to my colleague from California.
    I only know one of the U.S. attorneys that was asked to 
resign, the gentleman from Washington, Mr. McKay. And I got to 
know him because he was an appointee of President Bush's father 
to the Legal Services Corporation.
    I believe that when I hear what appeared to me to be the 
flimsiest of reasons given to justify the decision to ask him 
to resign, and put that in the context of the statements of the 
Deputy Attorney General under your predecessor or under you, 
Mr. Comey, regarding his performance in that job, I believe the 
Justice Department comments about this gentleman's qualities 
and his performance do a discredit to you, unless they are 
rebutted by you.
    Because my firm belief, as confirmed by Deputy Attorney 
General Comey, is that this was an excellent public servant, 
one of the best you had, performing at a quality that every 
American should be proud of.
    And with those comments, I yield to the gentlelady, Ms. 
Sanchez.
    Ms. Sanchez. I thank the gentleman for yielding.
    Mr. Gonzales, I would like to pick up on a new line of 
questioning here. We have had several people come and be 
interviewed by the Committee and also come to present their 
testimony in hearings.
    And in his written responses to questions from the 
Subcommittee on Commercial and Administrative Law, Daniel 
Bogden mentioned that he had a conversation with Deputy 
Attorney General Paul McNulty regarding his termination, in 
which Mr. McNulty told him that the decision had come from 
``higher up.''
    To whom would Mr. McNulty, as Deputy Attorney General, have 
been referring?
    Mr. Gonzales. Well, the decision was clearly mine, 
Congresswoman. It was my decision. I am accountable, and I 
accept responsibility for these decisions.
    Ms. Sanchez. Okay. And in his written responses to 
questions from the Subcommittee on Commercial and 
Administrative Law, Mr. Bogden noted that Mr. McNulty told him 
that he had ``limited input'' in the final decision process to 
terminate the U.S. attorneys.
    Did you understand that the Deputy Attorney General had 
only ``limited input''? Is that your understanding?
    Mr. Gonzales. It was my understanding or belief that Mr. 
Sampson was consulting with the senior leadership, including 
and in particular, the Deputy Attorney General, because the 
Deputy Attorney General is the direct report for these U.S. 
attorneys, including Mr. Bogden.
    But at the end of the day, no matter the level of 
consultation, what I know is that Mr. McNulty, the Deputy 
Attorney General, signed off on these names. And, in fact, on 
the day of Mr. Sampson's testimony, I went to the Deputy 
Attorney General, I said, ``Do you still stand behind these 
recommendations?'' And he told me, ``Yes,'' and that, to me, is 
the most important thing.
    Ms. Sanchez. Okay, well, if the Deputy Attorney General had 
only limited input--and that doesn't seem to trouble you--who, 
to your knowledge, had more than merely limited input in the 
final decision process?
    Mr. Gonzales. Well, again----
    Ms. Sanchez. I mean, was that on your shoulders? Was that 
you?
    Mr. Gonzales. Again, Congresswoman, you probably have more 
information about that than I. What I----
    Ms. Sanchez. I am asking for what you know.
    Mr. Gonzales. Okay, what I understood--and I only know 
from--I haven't spoken with Mr. Sampson, I haven't spoken with 
others, except the conversation that I just relayed to you with 
respect to the Deputy Attorney General.
    So I haven't spoken with others within the department and 
asked them, ``Okay, did you consult on this? How do you feel 
about this, these other witnesses?'' Because we are all fact 
witnesses, I didn't want to interfere in this investigation.
    Ms. Sanchez. Okay, so you don't know who had more than 
merely limited input in the firing decisions?
    Mr. Gonzales. It would be difficult for me to characterize 
the involvement----
    Ms. Sanchez. All right, I will accept that answer.
    In his written responses to a question from the 
Subcommittee on Commercial and Administrative Law, Mr. Bogden 
mentioned that Acting Associate Attorney General William Mercer 
explained to him that the Administration had a short, 2-year 
window of opportunity to place an individual into his U.S. 
attorney position in order to enhance that individual's resume 
for either future political or Federal bench positions.
    Do you believe that the Office of the U.S. Attorney is 
merely a vehicle through which to provide party loyalists with 
an opportunity to pad their resume and then use that as a 
launching pad for elective office or a judgeship?
    Mr. Gonzales. As head of the department, I would say no, 
but there would be nothing improper in doing so. Again, these 
are----
    Ms. Sanchez. Do you think it is a good practice? I mean----
    Mr. Gonzales. As head of the department, I would say----
    Ms. Sanchez [continuing]. Improper but----
    Mr. Gonzales [continuing]. I would care about making sure 
that we have good people in these positions, people that could 
discharge their responsibilities.
    And, again, for the American people to understand, you 
know, the success of the office does not live or die based upon 
the U.S. attorney. It depends on the career individuals that 
are there. Obviously, the U.S. attorney provides direction, 
helps with morale. But I just want to make sure people 
understand that if there is a change at the top, the work of 
the department continues.
    Ms. Sanchez. But just for clarification, it wouldn't bother 
you if they used it as a vehicle with which to----
    Mr. Gonzales. No, I didn't say that it wouldn't bother me. 
What I am saying is----
    Ms. Sanchez. Would that trouble you, then?
    Mr. Gonzales. Well, again, it would depend on the person 
coming in. I would want to make sure we have someone that could 
do a good job as a U.S. attorney. And so, yes, that would----
    Mr. Conyers. Time has expired. Please finish your comment.
    Ms. Sanchez. I thank the gentleman.
    And I yield back.
    Mr. Conyers. The Chair recognizes the distinguished 
gentleman from Indiana, Mike Pence.
    Mr. Pence. Thank you, Chairman.
    And, General Gonzales, welcome to the Committee. I am very 
grateful for your service to the country.
    Mr. Gonzales. Thank you.
    Mr. Pence. And I especially want to take this opportunity 
to congratulate you and the Justice Department on the 
interdiction of six suspects earlier this week, apprehended in 
connection with a planned terrorist attack on Fort Dix.
    You have mentioned several times through your testimony 
about the primary focus of your position being protecting 
people of the United States. And I am grateful for that 
specific example.
    I also want to thank you for the admissions and the candor 
and the humility that you have reflected today. It seems to me 
there is an overarching principle here, that the President has 
the authority to be served by whomever he pleases in his 
Administration and, frankly, that he is able--it isn't often 
repeated, so I will try and repeat it--he is able to dismiss 
officials for any reason or for no reason at all. But he is not 
at liberty, in fairness to all my colleagues, he is not at 
liberty to dismiss persons for wrong reasons.
    And it seems to me, your testimony today reiterates the 
point that, while there were administrative errors that you 
have been candid about, that at present, I, as a public 
servant, have not seen evidence of wrongdoing.
    And I appreciate you making that distinction again in this 
public forum, repeatedly.
    And I think it gets a little bit lost in the public debate 
here, the distinction between errors and wrongdoing. There may 
be consensus that errors were made, and a consensus that you 
share, but I have not seen evidence of wrongdoing or wrong 
motives in connection with these terminations.
    But I appreciate the willingness of the department to 
cooperate so thoroughly in providing documents and facilitating 
witnesses before the Committee.
    You made a comment in your opening statement that I found 
provocative, on another topic. You said that it was part of the 
mission of the Justice Department to ``preserve the public 
integrity of our public institutions.''
    And I wanted to call to your attention a legislation that 
my colleague, Congressman Rick Boucher, and I, with the 
original co-sponsorship of a number of distinguished 
colleagues, including the Chairman of this Committee, that I 
think supports that same objective, of pursuing and promoting 
public integrity and public institutions. It is called the Free 
Flow of Information Act. We have talked about it very briefly 
in the past. A ``federal media shield'' is how it is referred 
to euphemistically.
    And while I believe it is among the principal objectives of 
the Justice Department to hold public people accountable and 
public institutions, I also believe that our founders intended 
that a free and independent press was actually the chief 
safeguard to public integrity. And, in fact, as a conservative, 
I believe that the only check on government power in real-time 
is a free and independent press.
    And there has been a progeny of cases over the last 15 
years and in successive Administrations, particularly in 
independent counsel investigations, it seems to me, where there 
has been a rising tide of instances where reporters have faced 
threat of subpoena in Federal cases and, of course, in some 
cases reporters have been jailed or threatened with jail time 
to reveal confidential sources.
    The sponsors of this legislation, which I hasten to add 
also include a senior Member of this Committee, Mr. Howard 
Coble, we really believe that compelling reporters to testify 
and compelling reporters to reveal the identity of their 
confidential sources intrudes on the news gathering process 
but, more importantly, hurts the public interest.
    I would say the Free Flow of Information Act, General, is 
not about protecting reporters, it is about protecting the 
public's right to know.
    I just wanted to gain your assurance, without asking you to 
comment in any significant way at this hearing, that--we have 
moved this legislation through various incarnations over the 
last 2 years, we have added more qualifications for national 
security, for trade secrets, for imminent threat of bodily 
harm. I would just like to have your assurance and that of your 
capable staff that as this legislation, I think, moves through 
this Committee in the months ahead, that your department, and 
particularly the Criminal Division, would work with us to find 
some way to put a stitch in this tear in the first amendment.
    And I would welcome your comments but, again, would not ask 
for you to comment substantively on legislation that you may or 
may not have yet reviewed.
    Mr. Gonzales. There is no Administration position on the 
legislation, as I recall.
    We have in the past opposed similar legislation, 
Congressman. I haven't been convinced of the need for it, quite 
frankly. The department has only issued, I think, 19 media 
subpoenas for confidential sources since 1991. We have a very 
strong process in place that has been in place for 30 years 
with respect to how these get approved.
    I ultimately have to approve such a subpoena, and so we 
have been concerned in the past about the definitions, the 
broad scope, and perhaps that is something that could be dealt 
with through changes in the legislation.
    You have my commitment. I would be happy to work with you, 
so I will just leave it at that.
    Mr. Pence. Thank you. Thank you.
    Thank you, Chairman.
    Mr. Conyers. You are welcome.
    Mr. Robert Wexler, the gentleman from Florida?
    Mr. Wexler. Thank you, Mr. Chairman.
    With your permission, Mr. Attorney General, I would like to 
follow the Chairman's questions regarding Mr. Iglesias.
    If I understand it correctly, you testified that Karl Rove 
talked to you about voter fraud in New Mexico in fall 2006.
    Mr. Gonzales. Yes, New Mexico and two other jurisdictions. 
That is correct.
    Mr. Wexler. Mr. Iglesias is selected for the termination 
list in early November 2006?
    Mr. Gonzales. I think on Election Day. Well, I don't 
remember when he was selected. I wasn't involved in that 
process.
    Mr. Wexler. Right, it appears on the list.
    Mr. Gonzales. Looking at the documents, it appears he first 
appears on the list on Election Day.
    Mr. Wexler. And it is your testimony you did not select Mr. 
Iglesias to be put on the list, correct?
    Mr. Gonzales. His name was brought forward to me, 
recommended along with others.
    Mr. Wexler. Right. You did not select him. Did Mr. Sampson 
select him?
    Mr. Gonzales. Mr. Sampson was charged with coordinating 
this effort.
    Mr. Wexler. He didn't select him?
    Mr. Gonzales. I have not spoken with Mr. Sampson about 
this.
    Mr. Wexler. Right. Did former Deputy Attorney General Mr. 
Comey, did he select them?
    Mr. Gonzales. Of course, he wasn't in the department at 
that time, so----
    Mr. Wexler. So he didn't select them.
    Mr. Gonzales [continuing]. I don't think he selected them.
    Mr. Wexler. That is right. Did Mr. McNulty select them?
    Mr. Gonzales. I haven't asked that question to Mr. McNulty.
    Mr. Wexler. Mr. McNulty told us he didn't select them.
    Did Mr. Margolis select them?
    Mr. Gonzales. Again, I haven't spoken with Mr. Margolis.
    Mr. Wexler. He didn't select them.
    We have talked a lot about the President's authority to 
have who he wants where. Did the President select Mr. Iglesias 
to be put on the termination list?
    Mr. Gonzales. No----
    Mr. Wexler. No, the President didn't select him.
    Did the Vice President select him to put him, Mr. Iglesias, 
on the termination list?
    Mr. Gonzales. No.
    Mr. Wexler. No. Okay. So the President didn't, the Vice 
President didn't, you, the Attorney General, didn't. All of the 
assistant and former Deputy Attorney Generals didn't put Mr. 
Iglesias on the termination list.
    So who did?
    Mr. Gonzales. Well, what is important, Congressman, is that 
there was a consensus recommendation made to me. How he got on 
the list was less----
    Mr. Wexler. So a group of people put him on the list?
    Mr. Gonzales. What is less important is that I accepted a 
recommendation and I made the decision. I accept responsibility 
for the decision.
    Mr. Wexler. No, no, you made a decision, according to 
yourself, as to accepting the termination list. But you have 
also said you didn't put him on the list. So somebody else, 
other than you, other than the President, other than the Vice 
President, other than every Deputy Attorney General that has 
come to this Committee, put him on the list.
    But with all due respect, Mr. Attorney General, you won't 
tell the American people who put Mr. Iglesias on the list to be 
fired. It is a national secret, isn't it?
    Mr. Gonzales. Congressman, if I knew the answer to that 
question, I would provide you the answer. I have not spoken 
with the individuals involved----
    Mr. Wexler. So you don't know who put him on the list, Mr. 
Iglesias. Why was Mr. Iglesias put on the list by this mystery 
person?
    Mr. Gonzales. Well, again, I wasn't surprised to see Mr. 
Iglesias's name recommended to me, based upon conversations 
that I had had with the senior senator from New Mexico. He had 
lost confidence in Mr. Iglesias.
    Let me just say, Mr. Iglesias's story is a great one, it is 
the American dream, and there are many good things about his 
performance, and I very much admire him as a person.
    Mr. Wexler. But you won't tell the American people who put 
him on a list to terminate his employment.
    Mr. Gonzales. I accept responsibility for----
    Mr. Wexler. You accept responsibility for making the 
decision ultimately to accept the termination list, but you 
will not come forth and tell the American people who put Mr. 
Iglesias on the list to be fired.
    Mr. Gonzales. Out of respect for the integrity of this 
investigation and the investigations occurring at the 
Department of Justice, I have not made that inquiry with 
respect to other fact witnesses.
    Mr. Wexler. But you were okay with firing them, but you 
won't tell us who made the recommendation to fire them.
    Mr. Gonzales. I think I was justified in relying upon the 
senior leadership in the department, as I understand----
    Mr. Wexler. Do you know what Mr. Moschella told this 
Committee about why Mr. Iglesias was put on the list? He said 
the rationale was because he was an absentee landlord. Are you 
familiar with that?
    Mr. Gonzales. I am familiar with Mr. Moschella's public 
testimony.
    Mr. Wexler. Right. He delegated authority, apparently, Mr. 
Iglesias.
    Mr. Gonzales. Well, let me just say this: I did not make 
the decision with respect to Mr. Iglesias----
    Mr. Wexler. I know. You haven't made any decision. You have 
been very clear about that.
    Mr. Gonzales. I accept full responsibility for this.
    Mr. Wexler. But you won't tell us who put Mr. Iglesias on 
that list?
    Mr. Gonzales. You would have a better opportunity to 
access----
    Mr. Wexler. I would.
    Mr. Gonzales. The Committee would, the Congress.
    Mr. Wexler. Are you the Attorney General? Do you run the 
Department of Justice?
    Mr. Gonzales. Yes, I do. And it has been frustrating to me 
to not be able to ask these kinds of questions. But I want to 
respect the integrity of this investigation and the 
investigations going on within the department. If we all came 
up here, and had the same----
    Mr. Wexler. When did the investigation in the department 
start?
    Mr. Gonzales. If we all came up here----
    Mr. Wexler. It started after they were fired.
    Mr. Gonzales [continuing]. Six of us, and had the same 
testimony about events that occurred over 2 years, you would 
look at that with great suspicion. You would wonder----
    Mr. Wexler. Sir----
    Mr. Gonzales [continuing]. Have you guys talked to each 
other about facts?
    Mr. Wexler. Sir, you know them, and it has nothing to do 
with an investigation that is occurring after these people were 
fired. Because you know the answer before they were fired, 
because you know who put them on the list but you won't tell 
us.
    Thank you, Mr. Chairman.
    Mr. Conyers. Mr. Tom Feeney of Florida is now recognized.
    Mr. Feeney. Well, it is always fun to follow my passionate 
Florida colleague.
    Mr. Attorney General, thank you for being here today. And 
my colleague asked some questions that deserve answers, 
especially given the confusion. You have admitted botched P.R., 
botched administrative procedures.
    But are the questions that my friend from south Florida 
just asked, are they the very questions that the Justice 
Department's Office of Professional Responsibility, along with 
the department's Office of Inspector General, is asking as we 
speak?
    Mr. Gonzales. That is certainly my understanding. I mean, 
we have asked them to look into the allegations of any 
wrongdoing. If in fact there were management missteps, you 
know, what were they and what, you know, recommendations about 
what we can do better going forward?
    Mr. Feeney. And you are not interfering with that 
investigation in any way?
    Mr. Gonzales. I have recused myself from those 
investigations. [Laughter.]
    Again, because I don't want there to be any kind of 
appearance of impropriety, of improper influence. And so I have 
recused myself from oversight of those investigations.
    Mr. Feeney. Now, the suggestion is you ought to be 
micromanaging and involved in all those details. But my guess 
is you would probably get some criticism if you were----
    Mr. Gonzales. I would be criticized if, in fact, I was 
doing such a thing, I suspect.
    Mr. Feeney. Well, one way or the other, it is welcome to 
public life.
    We have spent extraordinary time asking the same questions 
of you and many other witnesses. I think they are important 
questions, and I think that we will all be expecting answers.
    It is important to ask these questions, but it is not 
important to ask the same questions to the same people ad 
infinitum. But I will do one more and then we will move on to 
some important things that the department is doing.
    Are you aware of any evidence whatever that might tend to 
demonstrate that people were asked to resign specifically in 
order to interfere with ongoing investigations for partisan 
purposes?
    Mr. Gonzales. Well, we can say ``might tend to 
demonstrate''--those are words that make me uncomfortable. 
[Laughter.]
    What I can say is, I know that is not the reason why I 
accepted the recommendations. And I am not aware, based upon my 
review of the documents, based upon the testimony that I have 
seen, the public testimony, that people were motivated and 
coming forward with recommendations for improper, for partisan 
political reasons.
    Mr. Feeney. There are an awful lot of critical tests that 
your agency is asked to deal with.
    I think, first, among equals, personally, in the 
environment we live in, of counterintelligence and especially 
and counterterrorism, I would like to know roughly what portion 
of your personnel and resources, in today's environment, is 
dedicated to making sure we don't have an attack on Fort Dix or 
anywhere else in this country, by investigating through 
counterintelligence and counterterror operations.
    Roughly, what portion of the----
    Mr. Gonzales. I don't know if I can break it down in terms 
of assets or resources. I have made it clear that it is the 
number-one priority for the Department of Justice. And it is 
clearly the number-one priority for the director of the FBI.
    And I want to thank Congress for the resources that have 
been provided to, in particular, the FBI to ensure that this 
country is safer.
    Mr. Feeney. Well, and historically--by the way, there is a 
great book, if you haven't read it, that Justice Rehnquist 
wrote back in 1989, I believe, before major terror attacks, 
talking about the balance between civil liberties, which is 
very important to me, called ``All the Laws But One,'' quoting 
Lincoln in his famous--civil liberties as opposed to the 
security needs. And that balance tends to change based on the 
perceived and the real threat.
    And following up on that, I have to tell you, Attorney 
General, that I was one that has been a strong advocate of the 
Patriot Act and some of the other resources and powers that you 
alluded to in your last response.
    And so, I was very discouraged when we found that there 
were thousands of mistakes and errors made. I will note that 
the inspector general's report determined that there was no 
evidence of intentional wrongdoing by the FBI. But I think we 
could say that there was some very sloppy work done in 
complying with the NSL authority.
    I would like to know, just very briefly, what the new, 
recently developed guidelines for the FBI regarding its NSL 
authority are? Can you describe some of the major differences 
in about a minute----
    Mr. Gonzales. Well, our work there is not complete. The 
director is thinking seriously about having a compliance and 
audit unit to go back in and ensure that people are doing their 
jobs.
    We are looking at the whole question of the role of 
lawyers, quite frankly, in connection with this issue, whether 
or not there should continue to be a direct report to the 
special agents in charge. Or maybe it should be the direct 
report to the general counsel.
    We are looking at a new computer system to have better 
accountability in terms of the number of NSLs. We need to do a 
better job with respect to our reporting to Congress. I know 
that the director has required additional training, better 
education about the use of NSLs.
    But more fundamentally, the Inspections Division has gone 
back in to try to get a better feel about are there additional 
problems with respect in particular to exigent letters. The 
I.G. has gone back in to do additional looks. And the National 
Security Division and our privacy officer is watching carefully 
about what is going on.
    I have asked the inspector general of the department to 
come back now, I think in 2 months, and give me a report about 
how the FBI is doing. I take this very seriously----
    Mr. Feeney. We will get a report when that has concluded?
    Mr. Gonzales. We will provide you the information as we 
learn about it.
    Mr. Feeney. Thank you.
    And I yield back the balance of my time.
    Mr. Conyers. I thank the gentleman for his inquiry.
    The Chair recognizes Steve Cohen from Tennessee.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Attorney General, I want to follow up a little bit on 
Congressman Wexler's questions. You said you don't know who put 
Mr. Iglesias on the list; is that correct?
    Mr. Gonzales. That is correct.
    Mr. Cohen. But you said you knew the President and the Vice 
President didn't. How do you know they didn't?
    Mr. Gonzales. Well, I just know that they would not do 
that.
    Mr. Cohen. Do you think Mr. Nulty or Mr. Sampson would have 
done it? Obviously, you think they could have done it.
    Mr. Gonzales. Of course. Look, I didn't envision the 
President of the United States and the Vice President being 
involved in this process. What I----
    Mr. Cohen. But you don't know for a fact that they weren't 
involved in the process through Ms. Miers or through Mr. Rove. 
You don't know that.
    Mr. Gonzales. That is correct. That is correct. But I had 
no reason to believe that the White House--in fact, I know the 
White House has said publicly they were not involved in adding 
or deleting people from the list. That is what the White House 
has said publicly.
    Mr. Cohen. Right. And the White House asked you, as I 
understand it in your statement, you say here that Deputy Chief 
Kyle Sampson told you that the counsel to the President, Ms. 
Miers, inquired about replacing all 93 U.S. attorneys, and you 
both agreed that wouldn't be a good idea, it would be 
disruptive and unwise.
    So at one point the White House wanted to replace all 93. 
So when they wanted to replace all 93, why do you think they 
wouldn't want to replace eight?
    Mr. Gonzales. What I have testified also is that I don't 
know whether or not Ms. Miers thought this was a good idea, 
whether or not this was even Ms. Miers' idea. She raised this 
as an idea. We quickly said no----
    Mr. Cohen. Did you ever talk to Ms. Miers, to Mr. Rove or 
to anyone else, or communicate to Ms. Miers or Mr. Rove or 
anyone else as to why they wanted to remove all 93 U.S. 
prosecutors?
    Mr. Gonzales. I have no recollection of having that kind of 
conversation with Ms. Miers or Mr. Rove.
    Mr. Cohen. And do you have any recollection of a letter to 
or from them?
    Mr. Gonzales. I don't. But going back and looking at the 
documents, there was some e-mail traffic I think in late 
December of 2004, early January of 2005, about a conversation 
involving Mr. Rove stepping into the counsel's office about, 
what are we going to do about U.S. attorneys?
    And then there was a subsequent e-mail back from Mr. 
Sampson. It is all in the record and I don't recall a 
conversation with Mr. Sampson during that period of time. This 
would have been during Christmas week, just 10 days or 2 weeks 
before my confirmation hearing, and so I have no recollection 
of that.
    But I do remember, as I have gone back and looking at the 
documents, there was some e-mail traffic about U.S. attorneys 
just before I became Attorney General.
    Mr. Cohen. These eight individuals who were fired, one of 
them was Mr. Cummins. Did you inquire into why Mr. Cummins was 
fired?
    Mr. Gonzales. Congressman, when you asked did I inquire 
when, I mean, Mr. Cummins was asked----
    Mr. Cohen. Why? Why? Not when, why?
    Mr. Gonzales. Mr. Cummins was asked to leave in June, June 
14, not December 7. He was not part of that group. And a change 
was desired by the White House because they had identified a 
well-qualified individual that they wanted to have as a United 
States attorney.
    Mr. Cohen. Who was the well-qualified individual? His name 
hasn't surfaced yet.
    Mr. Gonzales. Tim Griffin was the person----
    Mr. Cohen. Oh, he was well-qualified?
    Mr. Gonzales. Well, he certainly had more--well, I don't 
want to disparage Mr. Cummins, but, yes, if you look at----
    Mr. Cohen. You are not disparaging Mr. Cummins.
    Mr. Gonzales. Again, if you look at his qualifications in 
terms of having prosecution experience, being in the JAG Corps, 
serving in Iraq, yes, I think he was a well-qualified 
individual.
    In fact, Mr. Cummins----
    Mr. Cohen. But why was Mr. Cummins asked to leave? Because 
they wanted to put somebody else in?
    Mr. Gonzales. Yes. It is my understanding, I think that is 
a fair characterization. I might also add that----
    Mr. Cohen. Then let me ask----
    Mr. Gonzales. Can I finish my answer, Congressman--that in 
December, there was a newspaper article, I think The Arkansas 
Times, which indicated that Mr. Cummins was quoted as saying, 
you know, ``I have got four kids, I have to pay for their 
college. They will be surprised if I don't''----
    Mr. Cohen. Thank you. We have been through that. And Mr. 
Cummins said he didn't intend to resign.
    You at one point said, as did your deputy, that all of 
these resignations are firings, were performance-related. Now, 
obviously Mr. Cummins was not performance-related. So what you 
said at that point was wrong.
    Mr. Gonzales. And I think I clarified that in my last 
Senate Judiciary Committee meeting.
    In fact, that was the reason for my anger in an e-mail that 
was on February 7, following the Deputy Attorney General's 
testimony, is because I had confused in my mind Mr. Cummins 
being asked to leave on June 14 with the others being asked to 
leave on December 7. And what I was thinking about in my 
testimony was those individuals asked to leave on December 7 
related to performance, and did not in my mind think about Mr. 
Cummins, who was asked to leave----
    Mr. Cohen. Did you inquire as to why each of these eight 
individuals were asked to leave?
    Mr. Gonzales. I do not recall, Congressman, the 
conversation that occurred when the recommendations were 
brought to me. I am sure we had discussions about----
    Mr. Cohen. Don't you think that when an individual who is a 
public official, who is out there in the public line, who is an 
attorney whose reputation is so important to having their 
license to practice law, that they are asked to resign from a 
position that there should be a compelling reason and that you, 
as their appointed official, should ask and inquire why and 
realize and come to a belief that there is a compelling reason 
for them to be determined, and not just accept some mysterious 
group's recommendation?
    Mr. Gonzales. I think a compelling-reason standard is much 
too high for those of us who are appointed by the President of 
the United States, and we serve at the pleasure of the United 
States. And we all understand that. We all know that, by 
statute, U.S. attorneys serve for 4 years. Thereafter they are 
holding over. These United States attorneys had served for 4 
years.
    But no question about it, as a management function, yes, I 
think we should have done better in terms of communicating with 
them. We don't owe them the jobs. But I do think that we owe 
them better.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Conyers. The gentleman from Florida, Ric Keller?
    Mr. Keller. Thank you very much, Mr. Chairman.
    And, Mr. Attorney General, I have to apologize. I had to 
step out for a few minutes. I was here earlier. But we are also 
having a hearing that I was conducting with the secretary of 
education, Margaret Spellings, at the same time.
    Mr. Attorney General, the Bush administration has about 20 
months left on the clock. Tell me what your top two priorities 
are going to be over the next 20 months that you would like to 
accomplish.
    Mr. Gonzales. I will give you three.
    Mr. Keller. Go ahead.
    Mr. Gonzales. I was on the South Lawn on September 11th 
when President Bush arrived. And he and I both knew then that 
after that our world had changed and that the priority of the 
law enforcement community would change. And so, moving forward, 
my top priority will continue to be making sure that America is 
safe. That is the first thing.
    Secondly, I don't think it is possible for people to 
realize the American dream if they live in fear of gangs, they 
live in fear of drugs, they live in fear of violent crime. And 
so that is the second thing, doing what we can to ensure that 
violent crime is reduced.
    Finally, I wear this wristband given to me by Mark 
Lunsford. His daughter Jessica was killed by a sex offender. 
And it is a reminder of my commitment and my obligation to make 
sure that our kids are safe.
    Those are the things that I am going to be focused on.
    Mr. Keller. Thank you, Mr. Attorney General.
    You have been through more public scrutiny, and probably 
some pain, in the last month, more than most people have in a 
lifetime. As a prominent Cabinet member, U.S. attorney, or U.S. 
Attorney General, you could leave today and make $1 million a 
year at a law firm pretty easily, but you are staying on and 
want to stay on.
    Is it because of your passion for those three things: 
violent crime, terrorism and getting after child predators?
    Mr. Gonzales. I got into public service because I wanted to 
do something where I could make a difference, a positive 
difference in people's lives. I fundamentally, deep down, 
believe that I can continue to do so.
    If I don't think that I can be effective as Attorney 
General, I will no longer continue to serve as Attorney 
General. I have got confidence and faith in the people that 
work in this department. And I think we can continue to serve, 
effectively, the American people.
    Mr. Keller. Mr. Attorney General, when I am asked at town 
hall meetings about what is going on with this U.S. attorney 
situation and you, I tell folks back home that it can all be 
summarized, the microcosm of this whole, what the media calls a 
scandal, in one case: And that is the case of Carol Lam.
    Carol Lam was a talented lady, U.S. attorney from San 
Diego, who had successfully prosecuted Duke Cunningham. She 
also is a lady who had some concerns with your department. I 
think she was 91 out of 93 in firearms. And I learned, from 
going to San Diego and talking to folks that she had failed to 
prosecute alien smugglers, even those who had been arrested 20 
times.
    Now, you let her go, or told her she was going to leave in 
December of 2006. And immediately we heard the allegation from 
some in the media and some Members of Congress that Carol Lam 
must have been fired because she prosecuted a public corruption 
case against Republican Duke Cunningham.
    Now, I went through and reviewed the documents, talked to 
people, including Carol Lam. And the timeline is crystal clear. 
The documents regarding her failure to prosecute alien 
smugglers, including those who had been arrested 20 times, 
began in Congress in February of 2004 with Darrell Issa, which 
is literally 16 months before the local San Diego Union-Tribune 
broke the very first story about the Duke Cunningham scandal, 
which shows me that it is literally impossible that that was an 
improper motive on your part or anyone else.
    So, let me ask you directly: Did you ask Carol Lam or any 
of the other U.S. attorneys to resign because they were 
prosecuting or investigating public corruption cases against 
Republicans?
    Mr. Gonzales. No. In fact, I am very, very proud of the 
work of the department in prosecuting public corruption cases. 
I don't care whether or not we are talking about Republican or 
Democrat. We are doing our job.
    Mr. Keller. Did anyone at the White House, including but 
not limited to the President, Karl Rove, Harriet Miers or Josh 
Bolten, ever come to you and say, ``We want you to fire Carol 
Lam,'' or any other U.S. attorney, ``because they are going 
after a Republican congressman''?
    Mr. Gonzales. They didn't say it to me, and I am not aware 
of any such direction.
    Mr. Keller. Okay. Thank you, Mr. Attorney General.
    I will yield my remaining time to Mr. Cannon. I think the 
gentleman would like to make a couple of points here.
    Mr. Cannon. Going back to Mr. Margolis--who, again, is a 
very senior career employee--and his view about the Griffin 
appointment, I should say directly or indirectly. I also, to be 
fair to Griffin, his resume at the time I interviewed him 
looked better for the job than Cummins' did when I interviewed 
him.
    Here was a guy who is not political, who is saying that 
Griffin was well-qualified. Remember, Griffin was in Iraq. He 
was in DOJ. He was a judge advocate general. And so we have 
lots of views on these issues that haven't been out here yet, 
which indicate that at least in the case of Cummins we have 
some pretty good information about why he was supplanted.
    I thank you, Mr. Chairman. I cede----
    Mr. Gonzales. Mr. Chairman, could I make one comment?
    It bothers me to have to disparage individuals and to be 
critical openly about people who worked for the department. And 
I just want to make a general observation that these are all 
very, very fine people. And they should be proud of their 
service. We should all be proud of the fact that they had the 
courage to engage in public service. And I don't want anyone to 
think that I don't otherwise appreciate the fine work that they 
did on behalf of the department.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentleman from 
Georgia, Hank Johnson.
    Mr. Johnson. Thank you, Mr. Chair.
    Mr. Gonzales, you have led a distinguished career as a 
lawyer, law school professor, partner major Houston law firm, 
general counsel to then-Governor George Bush, a justice on 
Supreme Court of Texas, White House counsel to President George 
Bush. And now you have ascended to the responsibility of 
Attorney General of the United States.
    And in that connection, you hired as your top two aides Mr. 
Paul McNulty, the Deputy Attorney General--over 20 years of 
distinguished experience on the Federal and State levels, much 
of which was spent as a U.S. attorney. And your number-two man 
was an Associate Attorney General, also close to 20 years of 
distinguished experience, much of which has been spent as a 
U.S. attorney and an assistant U.S. attorney.
    Both of them, extensive trial experience and very well-
equipped to handle the tasks of their office, as you are.
    But instead what you have done is delegated an 
extraordinary amount of power to two young, inexperienced 
aides, Ms. Monica Goodling and Mr. Kyle Sampson, neither one of 
whom had any trial experience, neither one of whom--I think Mr. 
Sampson may have tried one case in his life--and neither one of 
whom had any law enforcement background whatsoever.
    But yet you signed on March 1st of 2006 a secret order 
delegating the power to those two inexperienced aides to hire 
and fire major career employees of the Justice Department, 
including the Criminal Division, including U.S. attorneys and 
assistant U.S. attorneys. And you did not even inform your 
Deputy Attorney General and your Associate Attorney General 
that you had delegated that power.
    Can you tell us why you did that?
    Mr. Gonzales. Yes. There is a lot there, Congressman.
    The actual decision in terms of reserving to the Attorney 
General certain personnel decisions was actually made through 
regulation which became public in February. And as a result of 
that change in the regulations reserving the authority on 
certain personnel----
    Mr. Johnson. Those were put through at your insistence, 
correct?
    Mr. Gonzales. Yes.
    Mr. Johnson. You changed the rule so that you could give 
the power to hire and fire to Kyle Sampson and Monica Goodling.
    Mr. Gonzales. We haven't gotten to that point yet.
    Mr. Johnson. Well, I don't want you to take all my time. I 
just want you to answer those questions.
    Mr. Gonzales. But I want to give you a complete answer, 
Congressman.
    And so, there was nothing secret about the change in terms 
of reserving to the Office of the Attorney General that kind of 
authority. Now----
    Mr. Johnson. You did not let your Deputy Attorney General 
know about it, did you?
    Mr. Gonzales. Well, they were ultimately told--as I 
understand it, they weren't told through the executive process, 
because my understanding----
    Mr. Johnson. You said not to tell your Associate Attorney 
General?
    Mr. Gonzales. My understanding is that they were told of 
the change.
    Mr. Johnson. You didn't tell them yourself?
    Mr. Gonzales. I did not have the specific conversation with 
him.
    Mr. Johnson. Well, let me ask you this question: What 
exactly did Monica Goodling do insofar as her job as White 
House liaison? What employment decisions did she make about 
career and noncareer personnel in the Department of Justice?
    Mr. Gonzales. Well, of course, let me just say that she 
discharged--her responsibility was to discharge the normal 
responsibilities for a White House liaison.
    Mr. Johnson. Including making decisions about hiring and 
firing career and noncareer personnel for the Department of 
Justice? Correct?
    Mr. Gonzales. Well, with respect to political appointees--
--
    Mr. Johnson. Is that correct?
    Mr. Gonzales [continuing]. That would certainly be 
appropriate. Now, with respect to career----
    Mr. Johnson. I mean, is it correct that she----
    Mr. Gonzales. Was involved in?
    Mr. Johnson [continuing]. Was involved in making hiring and 
firing decisions pertaining to DOJ career and noncareer 
personnel? Is that correct?
    Mr. Gonzales. Let me just say that she was involved to 
political appointees and with respect to career appointees, 
there has been some fairly serious allegations made with 
respect to her role in that. And has already been made public 
because of the seriousness of those allegations, that matter 
has been referred for an investigation, so----
    Mr. Johnson. Right. Did Mr. Sampson----
    Mr. Gonzales [continuing]. I am not going to comment.
    Mr. Johnson. Did Mr. Sampson have the same power, as well, 
under your memorandum?
    Mr. Gonzales. Mr. Sampson would have the same--he was 
included as part of the delegation. You described----
    Mr. Johnson. And did he, in fact, play a part in making 
personnel decisions about Department of Justice career and 
noncareer personnel?
    Mr. Gonzales. Certainly with respect to noncareer. I can't 
sit here today and tell you----
    Mr. Johnson. Okay. And were either one of them part of the 
team that put together the list which included the eight 
attorneys who were let go on December 7, 2006?
    Mr. Gonzales. No question about it. I had charged Mr. 
Sampson with organizing and coordinating the effort to 
gathering information and present to me recommendations. Ms. 
Goodling assisted Mr. Sampson in the discharge or a wide 
variety of responsibilities, and if you look at----
    Mr. Johnson. And you don't know of anyone else who assisted 
them?
    Mr. Gonzales. Well, if you look at the e-mail traffic and, 
from what I understand, from public testimony, obviously there 
were people who provided input and information.
    Mr. Johnson. Who would that have been?
    Mr. Gonzales. Well, I think, again, based upon looking at 
the documents, obviously, issues relating to Ms. Lam were 
raised with me, and I believe that was done by Mr. Bill Mercer. 
My understanding is that in fact Mr. Comey was in fact 
consulted about his views about U.S. attorneys.
    And so, I mean, if you look at the public testimony and if 
you look at the documentation, there were people that were 
being consulted. They may not have known that they were 
providing information which would then form the basis of some 
kind of list.
    Mr. Johnson. Can you name of the people who were involved 
in the compilation of the list?
    Mr. Conyers. The time has run out. Did you want to finish 
the response, Mr. Attorney General?
    Mr. Gonzales. No.
    Mr. Johnson. Can you name--well, if I might get a response 
to you to that last question--can you name any others who were 
involved in the decisions to put those eight names on the list?
    Mr. Conyers. Could you----
    Mr. Johnson. Are you going to answer me or what?
    Mr. Conyers. No, he is not answering because your time has 
expired.
    Mr. Johnson. All right. Thank you, Mr. Chairman.
    Mr. Conyers. But I recommend that you put it in written 
communication to the Attorney General.
    From Arizona, Mr. Trent Franks, the gentleman is recognized 
at this time.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Judge Gonzales, for coming down here. I know 
that life has been kind of challenging for you lately. 
[Laughter.]
    And I want you to know that I personally appreciate your 
service to the country. You have a profoundly difficult job.
    And, you know, I was touched by the three priorities that 
you mentioned, with your job, in being able to combat terrorism 
and being able to combat gang violence and to protect our 
children from some of the tragedies that occur out there. And I 
want you to know I believe that those are very noble 
aspirations.
    It occurs to me that, every day that we have you down at 
this place, that we are detracting from those vital missions in 
this country.
    And so, if indeed our effort here is to find corruption in 
the Justice Department, where justice itself is being 
undermined and where some of the potential accusations here are 
that your department is undermining justice in specific cases 
by hiring and firing U.S. attorneys, then I think that our 
efforts here are justified.
    But if indeed they are politically motivated or not to that 
end, then we become guilty of the very thing that has been 
thrown in your direction.
    So I want to ask a very direct question. You know, we 
understand that there is a difference between political 
motivations and motivations to thwart a criminal investigation 
or to affect a particular case or to undermine justice.
    Now, in this country, we have partisan elections. And when 
we put a President in office, we expect that person to appoint 
people that reflect the philosophy that we voted for. That 
comes with the job. I mean, Mr. Clinton fired all the U.S. 
attorneys. So we expect that.
    And political motivations, even though they are tossed 
about like this, something bad here, those are part of our 
system and they are intrinsic to its survival.
    On the other hand, if someone in your position or in your 
department should deliberately try to intimidate or fire a U.S. 
attorney in order to affect a particular case or undermine 
justice or prevent justice from occurring in a particular case, 
that is a crime, and that is wrong.
    So I ask you very directly, sir: Have you ever fired anyone 
or caused anyone to be fired or influenced anyone to be fired 
on the basis of trying to affect a particular criminal case or 
investigation, or to thwart justice in any way?
    Mr. Gonzales. No.
    Mr. Franks. Do you know of anyone in the Administration or 
your department that has done either of those things?
    Mr. Gonzales. No.
    Mr. Franks. See, I think, Mr. Chairman, that is indeed the 
job of this Committee, is to ask those very direct questions.
    And, of course, time and justice has a way of prevailing. 
And the truth of those answers--of which I have to say to you I 
have seen no evidence that either of those things have 
occurred, before this Committee or otherwise--but time will 
probably bear that out one way or the other.
    But I just wanted to make sure that we understood what we 
are all about here. And your job is protecting this country. 
And while we are interviewing you like this, it cannot possibly 
help but detract from what you are trying to do to protect this 
country and to pursue those three priorities that you mentioned 
earlier.
    So I guess one of the things I would like to do, Judge 
Gonzales, is to ask you, what do you think is the public's 
greatest misperception of the Department of Justice at this 
time, given all the circumstances that have occurred here?
    Mr. Gonzales. Well, given some of the statements that have 
been made, the notion that the department has been politicized.
    As I indicated in response to an earlier question, there 
are only a few hundred political appointees. There are tens of 
thousands of career individuals. The department is great 
because of the career individuals. They deserve all the credit 
for the success of the department.
    And it would be pretty darn difficult, if not impossible, 
to make a decision for political reasons and expect to get away 
with it. If, in fact, a career investigator or prosecutors felt 
that we were making decisions for political reasons to 
interfere with a case, you would probably hear about it. We 
would probably read about it in the papers, because they take 
this stuff very seriously, as they should. We expect them to.
    And, again, I just want to emphasize to the American public 
that the work of the department continues, irrespective of who 
the Attorney General is, United States attorney is. It 
continues because of the great career people in the department.
    Mr. Franks. Well, Judge Gonzales, let me just thank you for 
your service to this country and the cause of human freedom.
    And with that, I would like to defer here the rest of my 
time to Steve King.
    Mr. Conyers. Twenty-nine seconds remain, Steve.
    Mr. King. I thank the gentleman from Arizona, the 
constitutionalist quodetile himself, and the Chairman.
    Mr. Chairman, I, like all Members of this Committee, are 
interested in maintaining our credibility. And I have an 
article here from the Wall Street Journal dated April 7, 2007, 
that and associated articles, and I ask unanimous consent to 
introduce them into the record.
    Mr. Conyers. Without objection, so ordered.
    [The articles follow:]
Articles published in various sources, submitted by the Honorable Steve 
King, a Representative in Congress from the State of Iowa, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. King. Thank you, Mr. Chairman.
    And I want to thank the Attorney General for his testimony 
here today.
    And I appreciate the tone and the tenor of the gentleman 
from Arizona. And we all are concerned about the safety of the 
American people, and it has been extraordinarily safe since 
September 11th, given what we anticipated.
    And I would yield back to the gentleman from Arizona.
    Mr. Franks. And I just thank the gentleman for coming.
    Mr. Conyers. Members of the Committee, we are trying to 
finish up as close to 2:30 as possible. And so the Chair is 
going to be very strict with the time from this point on.
    And we recognize the gentleman from California, Brad 
Sherman.
    Mr. Sherman. Thank you.
    The Administration has put forward various theories under 
which anyone, even American citizens, could be arrested without 
being charged with a crime. One of these is the theory that you 
could be classified as an enemy combatant.
    Are there any American citizens being held today for over a 
month who have been denied habeas corpus or access to an 
attorney?
    Mr. Gonzales. I don't believe so, Congressman.
    Mr. Sherman. Wouldn't it be your duty as Attorney General 
to make sure that their rights to habeas corpus were honored?
    Mr. Gonzales. Well, but, you know, there are a lot of 
people in this government, and sometimes people do things that 
they shouldn't be. And I am not suggesting that that is 
occurring here, but you are asking me, you know, a question 
that I hadn't really thought about.
    Mr. Sherman. Is there any agency answerable to the--well, 
is there any part of the Department of Justice----
    Mr. Gonzales. We are all answerable to the Constitution and 
to our laws, yes.
    Mr. Sherman. Now, are there any U.S. citizens being held 
now by foreign governments or foreign organizations that are 
without access to attorneys as a result of rendition where 
agents of the Administration have taken people into custody and 
then given them up to foreign officials?
    Mr. Gonzales. I don't, Congressman, I don't know if I have 
the answer to that question either. It is something that I 
would have to look at.
    Mr. Sherman. Wouldn't you, as the chief office responsible 
for protecting our civil rights, want to know?
    Mr. Gonzales. Yes, and I am not suggesting that that----
    Mr. Sherman. I would hope that----
    Mr. Gonzales [continuing]. Is occurring. I just, quite 
frankly, I haven't thought about this.
    Mr. Sherman. Will you respond for the record to those 
questions? Thank you.
    Mr. Gonzales. I would be happy--if I can respond to the 
questions, I will do that.
    Mr. Sherman. Let me move on to another question. You now 
have focused more on these--yes, go ahead.
    Mr. Gonzales. I don't want the press to run out and say, 
``Oh my gosh, U.S. citizens are being held by the government 
secretly, other governments.'' I don't think that is the case. 
I just want the American people to understand that.
    Mr. Sherman. I look forward to a definitive answer for the 
record, and let's move on.
    You have now spent more time looking at these eight U.S. 
attorneys then you might have expected to. Are there any of 
them that you think it was a mistake to fire and that it would 
have been in the interest of the Administration of justice to 
have left at their posts?
    Mr. Gonzales. You know, I have gone back and thought a lot 
about this. You are right. And, in fact, I spoke with the 
Deputy Attorney General after Mr. Sampson's public testimony 
and asked him, ``Okay, do you still stand by the 
recommendation?'' And the answer was yes.
    I think the one that is probably the closest call for me is 
Mr. Bogden in Nevada, and I talked about this in my Senate 
testimony. It is for that reason that I have reached out to Mr. 
Bogden and have offered my assistance in trying to help him, 
move him forward with employment.
    But again, the standard is, was anything improper here----
    Mr. Sherman. I am not asking improper; we all make 
mistakes.
    Mr. Gonzales. I stand by the decisions. I stand by the 
decisions.
    Mr. Sherman. So if you had it to do all over again, these 
eight would be toast.
    Mr. Gonzales. No, because, again, we would have used a 
different process, and I don't know whether or not, using this 
different process, the same recommendations would have come to 
me. I relied upon the recommendations.
    Mr. Sherman. Well, I am asking you whether you made a 
mistake, not whether you liked your process. Did the conclusion 
to fire these eight----
    Mr. Gonzales. I think----
    Mr. Sherman [continuing]. Was that the right, best thing to 
do for the administration of justice?
    Mr. Gonzales. I think I stand by the decision. In 
hindsight, I am not happy with the process. I know that, to me, 
the process is important too, and I think using a different 
process, we may have come out with different recommendations to 
me which would have made a difference, perhaps.
    Mr. Sherman. Well, let me move on. You have said that it 
would--you know, U.S. attorneys deal with political sensitive 
investigations. It would be wrong to fire one in order to 
thwart an ongoing investigation.
    Would it be wrong to fire a U.S. attorney because he failed 
to announce indictments before an election date?
    Mr. Gonzales. Well, of course, with respect to making 
public an indictment, that is something, particularly if you 
are talking about an announcement on or around election, you 
may get criticized if you do it before the election; you may 
get criticized if you do it after the election. What I tell 
people is try to be sensitive and do what is best for the case.
    Mr. Sherman. Let me move on. Let's say an investigation had 
been completed and it was politically painful to your party how 
it went, somebody got indicted or convicted. Would it be wrong 
for you to fire a U.S. attorney after the investigation, not 
for the purpose of thwarting the investigation, which had 
already been completed, but for the purpose of rebuking that 
attorney for having chosen to investigate those associated with 
your political party?
    Mr. Gonzales. I am not sure I am comfortable with answering 
that question. I will say this----
    Mr. Sherman. Do you think it might be okay to fire somebody 
because they successfully completed an investigation?
    Mr. Gonzales. Let me just give an example of the way we 
deal with these cases: Representative Bob Ney. We accepted a 
plea from Representative Ney 6 weeks before the election. We 
didn't have to do that before the election. I am sure there 
were some Republicans around the country who sort of scratched 
heads when we in fact took that plea right before the election. 
Why did we do that? We did it because we aren't motivated by 
politics. We do what is best for the case.
    Mr. Conyers. Thank you very much.
    Steve Chabot of Ohio, Ranking Member on the Subcommittee on 
the Constitution.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    And thank you, Attorney General Gonzales, for being here 
today.
    I want to apologize for not having been here for the 
entirety of this hearing, because I am the Ranking Member on 
the Small Business Committee and for the last couple of hours 
we had a hearing on that. So, in any event.
    General Gonzales, last August I want to thank you for 
coming to my district, the city of Cincinnati. And you joined 
with us there--myself, chief of police and others--to 
participate in a roundtable discussion with local city and 
Federal law enforcement officials such as the U.S. attorney, 
Mr. Lockhart, there and FBI Special Agent in Charge Tim Murphy.
    And the roundtable focused on the violent crime problems 
that continue to plague communities all over the country 
including my city, Cincinnati.
    During that meeting, several federal-local cooperative 
approaches were discussed to reduce gun violence and illegal 
drug use in the region, such as Project Safe Neighborhoods. In 
addition, you announced the addition of 23 new Federal 
prosecutors in the Organized Crime Drug Enforcement Task Force, 
including one for southwest Ohio. Cincinnati is located in 
southwest Ohio.
    My question to you, General Gonzales, is: What has the 
Department of Justice been doing, and what are you willing to 
do to address violent crime and gun violence? And has the 
addition of a Federal prosecutor in southwest Ohio resulted in 
increased Federal prosecutions? And has funding assisted the 
local FBI, DEA and ATF special agents in charge in their 
investigations of gun violence and illegal drug use and violent 
crime?
    I know that is a lot in one question.
    Mr. Gonzales. Congressman, I will answer the specifics in 
terms of Cincinnati. I would like to be able to get back to you 
and give you accurate numbers.
    But let me just say, I think we have enjoyed a good period 
in terms of decline in crime rates. We are starting to see, 
however, some disturbing upticks in certain communities around 
the country.
    And it is for that reason that we initiated this 18-city 
tour recently, where we sent out DOJ officials to communities 
around the country, where some communities have enjoyed success 
in reducing crime; others have not been so successful. Trying 
to understand the reasons why--what is working, what is not 
working. We are very close to be in a position to talk about 
what we have learned and perhaps make some recommendations.
    I am worried about it. Again, as I indicated in response to 
an earlier question, I don't think people can really realize 
America's promise if they are worried about their 
neighborhood--safety, guns, drugs, gangs. This is something 
that I view as one of the things I am going to be focused on in 
these remaining months in the Administration, because I think 
it is important as the Attorney General to do that.
    Before 9/11, Project Safe Neighborhood was the number-one 
domestic law enforcement program for the Department of Justice, 
which is to reduce gun crime. And so we are still going to 
remain focused on that.
    I am worried about gangs. It is going to require the help 
of our neighbors down south. I am going to a regional anti-gang 
summit in June with the attorney generals from Mexico and 
Central American countries, because we can't just solve that 
issue solely within the United States.
    But I look forward to working with you on this issue. You 
have been a terrific partner and a champion for your district. 
And I hope there are additional things that we can do to help 
you.
    Mr. Chabot. Thank you very much, Mr. Attorney General.
    And one final area I would like to explore briefly here. As 
you know, the city of Cincinnati suffered through riots back in 
April of 2001. And in April of this past year, the Department 
of Justice made the decision to terminate its memorandum of 
agreement with the city of Cincinnati, finding that the city 
and police department have met the more than 80 provisions set 
forth by the Department of Justice.
    The city continues to work with local officials to meet 
additional requirements that are set forth in a separate 
agreement, which is known as the Collaborative Agreement.
    The MOA between the city and the Department of Justice was 
incorporated by reference into the Collaborative Agreement and 
thus has played a significant role in the administration of the 
Collaborative Agreement.
    Will the Department of Justice acknowledge and support the 
city's and the police's good faith efforts if any dispute were 
to arise between now and termination of the Collaborative 
Agreement?
    Mr. Gonzales. We have always had a good working 
relationship with the police. If there are things that we can 
do to be helpful, of course we will look at that, Congressman.
    In terms of what our official jurisdiction or authority may 
be in this matter, we will have to wait and see. But, again, if 
there are things that the department can do to continue to help 
the citizens of Cincinnati be safe and that the citizens enjoy 
their rights, we will be happy to look at that.
    Mr. Chabot. Thank you very much, Mr. Attorney General.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. Conyers. Thank you.
    The Chair now recognizes in some way the newest Member of 
the Committee, Tammy Baldwin of Wisconsin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    Welcome, General Gonzales.
    I want to ask unanimous consent to submit for the record a 
New York Times article entitled, ``A Woman Wrongly Convicted 
and a U.S. Attorney Who Kept His Job.'' Before submitting it, 
there are just two paragraphs I would like to read.
    It says, ``The United States Court of Appeals for the 7th 
Circuit, which heard Ms. Thompson's case this month, did not 
discuss whether her prosecution was political, but it did make 
clear that it was wrong. And in an extraordinary move, it 
ordered her release immediately without waiting to write a 
decision.'' ``'Your evidence is beyond thin,' Judge Diane Wood 
told the prosecutor. `I am not sure what your actual theory in 
this case is.' ''
    ``Members of Congress should ask whether it was by 
coincidence or design that Steven Biskupic, the United States 
attorney in Milwaukee, turned a flimsy case into a campaign 
issue that nearly helped Republicans win a pivotal governor's 
race.''
    I would ask unanimous consent to submit that for the 
record.
    Mr. Conyers. Without objection, so ordered.
    [The article follows:]
 Article published in The New York Times, April 16, 2007, submitted by 
  the Honorable Tammy Baldwin, a Representative in Congress from the 
       State of Wisconsin, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gonzales. Could I respond?
    Mr. Conyers. Yes.
    Ms. Baldwin. At the time, I----
    Mr. Conyers. Would you mind if he responded to that 
article?
    Mr. Gonzales. First of all----
    Ms. Baldwin. I have lots of questions about it, so----
    Mr. Gonzales. Well, go ahead. As long as we are talking 
about that, that would be--I haven't read the article. I have 
no idea of knowing whether what is in there is true or not, 
but----
    Ms. Baldwin. Anyway, I said, at the time of this remarkable 
case in the 7th Circuit that I believed Congress should 
investigate not only the circumstances surrounding the forced 
resignations of eight U.S. attorneys but also whether partisan 
politics influenced or even dictated the investigations 
conducted by U.S. Attorney's Offices in order to stay in the 
Administration's good graces.
    And I am pleased to have an opportunity to ask you some 
questions today.
    General Gonzales, since your appearance before the Senate 
Judiciary Committee, I am sure you have taken additional steps 
to refresh your memory on subject matters that you did not 
recall during that hearing.
    So, let me ask you again, are you aware that Mr. Biskupic 
was on the first known version of the list compiled by your 
chief of staff, Mr. Sampson, dated March 2, 2005, recommending 
names of U.S. attorneys to be fired?
    Mr. Gonzales. Yes, my understanding is, Congresswoman, is 
that, actually, the list included all the United States 
attorneys. And the documentation reflected, sort of, Mr. 
Sampson's, I presume, then-current view of their performance.
    But with respect to Mr. Biskupic, let me just remind 
everyone, this was a career prosecutor who made the charging 
decision on the Georgia Thompson case in consultation with the 
then-Democratic State attorney general and the Democratic local 
prosecutor. They all agreed this was the right thing to do----
    Ms. Baldwin. Let me----
    Mr. Gonzales [continuing]. No question that the decision by 
the circuit was quite different, quite surprising. But the 
notion that Mr. Biskupic would in any way--this was a career 
prosecutor, again--charging decisions made in consultation with 
Democratic officials, I just think is ludicrous.
    Ms. Baldwin. A career prosecutor who was on the list, and 
then was----
    Mr. Gonzales. And he didn't know that. He has publicly said 
he didn't know he was on the list.
    Ms. Baldwin. General Gonzales, among my concerns are many 
press reports and also documents produced by your Justice 
Department that show that Wisconsin Republican operatives were 
actively complaining and feeding documents to the White House 
about the need for more voter fraud investigation of 
prosecution in Milwaukee in late 2004 and 2005, right before 
Mr. Biskupic was placed on this list.
    Documents produced by your department indicate that Karl 
Rove was looking at a Milwaukee Journal Sentinel article on 
alleged voting irregularities on February 2, 2005, just 1 month 
before Mr. Biskupic was placed on the list.
    Do you know whether Mr. Rove or anyone else who was 
concerned about voter fraud prosecution played a role in Mr. 
Biskupic's being placed on the list?
    Mr. Gonzales. Well, again, all the United States attorneys 
that I recall are on this initial list----
    Ms. Baldwin. Well, his name----
    Mr. Gonzales [continuing]. And the White House has 
indicated that they did not play a role in adding or deleting 
people from the list.
    And let me just say, the Georgia Thompson case is not a 
voter fraud case.
    Ms. Baldwin. I am running out of time, so I----
    Mr. Gonzales. It is a public integrity case.
    Ms. Baldwin. I want to read to you an excerpt from Mr. 
Sampson's interview with Judiciary Committee staff. This is 
regarding----
    Mr. Gonzales. Can I see it? Can I see? If, in fact, you are 
reading from his testimony, I would like to see it.
    Ms. Baldwin. I would be happy to have a copy made. I can 
read it and then--this is on page 57 of the documentation. This 
is questioning concerning Mr. Biskupic's name on the list.
    Mr. Sampson replies, ``I have a vague recollection--I am 
not sure when in time it occurred--of a conversation with the 
Deputy Attorney General about Biskupic. What I remember about 
that conversation is the Deputy Attorney General suggesting 
that Mr. Biskupic had been recommended by appointment by 
Chairman Sensenbrenner, and that identifying him as somebody 
who might be asked to resign would perhaps not be a wise thing 
to do politically if it brought the ire of Chairman 
Sensenbrenner. I do not remember when that was.''
    Then the person asking Mr. Sampson questions said, ``Very 
good. I take it you didn't have any conversations with Mr. 
Sensenbrenner or any other officials outside of the Department 
of Justice concerning Mr. Biskupic.'' Mr. Sampson: ``That is 
right. I don't remember having any conversations like that.''
    So my question for you----
    Mr. Conyers. Time has run out. You want to finish your----
    Ms. Baldwin. My question is, would you not view this to be 
a political consideration relating to these personnel 
decisions? Don't you find it disturbing that speculation about 
the reaction of a Member of Congress played a role in his bring 
on the list or taken off the list?
    Mr. Gonzales. Well, again, you will have to talk to Mr. 
Sampson about the list. Mr. Biskupic was not recommended to me 
for change, and therefore there was no consideration by me as 
to whether or not a change should occur.
    And, you know, the views of a senator or a Member of 
Congress about the performance of a United States attorney, I 
don't think it is the wrong thing to take those into account. 
You are often involved in making recommendations and providing 
your views with respect to appointments of United States 
attorneys.
    And so I don't think there is anything surprising about 
that.
    Mr. Conyers. The Chair recognizes from Texas, Judge Louie 
Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you, General, for being here to testify.
    Earlier, a colleague across the aisle, Ms. Lofgren, had 
mentioned that there are over 300,000 names that need to be 
checked and that are pending at the FBI. I am hoping we will 
have time for a hearing on that and the appropriate people in 
to testify, because I certainly agree with her, that is a major 
problem.
    But that is not the point of the hearing. We also had 
another colleague that was grilling you, General, about the 
national security letters and the alleged abuses, and I think 
that needs to be the source of another hearing. But I believe 
the director of the FBI, personally, I think, would be a more 
appropriate witness than you are on that.
    So what we are about here today, as I understood it, was 
more about the U.S. attorneys firings, and before I get into 
that, I just think there is something very important.
    Earlier in the hearing, our colleague from California, Ms. 
Sanchez, has used the word ``target'' about another colleague, 
and then when that was brought up by my friend from California, 
Mr. Lungren, she had indicated he was turning her words and 
that she didn't use those words, and that was just in a matter 
of minutes, and then later apologized if she had said something 
inappropriate.
    And I want to encourage my colleagues across the aisle, 
please, I know the tendency has been with the general here when 
he couldn't recall something that happened days, weeks, months 
before or maybe he misrecalled something, the indications have 
been to call him a liar basically, either inferring that or 
just stating it.
    And I want to encourage my colleagues not to treat Ms. 
Sanchez like that. I think she make a honest mistake, even 
though it was just a matter of minutes later that she couldn't 
recall what she said. Please don't be so judgmental to our 
colleague, Ms. Sanchez. I think it was an honest mistake, and 
please don't judge her the way you have judged the Attorney 
General.
    Mr. Cannon. Is the gentleman suggesting a double standard, 
if he would yield?
    Mr. Gohmert. No, I am not suggesting a double standard. I 
am asking that Ms. Sanchez not be judged like the general has 
been on recall.
    Now, with regard to The New York Times, that was brought up 
by another colleague across the aisle in an article offered--
and I would mention that on March 24 of 1993, The New York 
Times had an article and said, ``All 93 United States attorneys 
knew they would be asked to step down, since all are Republican 
holdovers. And 16 have resigned so far. But the process 
generally takes much longer, and had usually been carried out 
without the involvement of the Attorney General. Ms. Reno was 
under pressure to assert her control over appointments at the 
Justice Department. She was Clinton's third choice for Attorney 
General, arrived after most of the department's senior 
positions were already filled by the White House.'' And on 
further, it says, ``It was unclear whether Ms. Reno initiated 
the request for resignations, or whether it was pressed on her 
by the White House. The Attorney General said it was a joint 
decision.''
    Now, there are other indications, other articles about some 
of those investigations that may have been affected. But I 
would ask you, General, if there was no intent there by the 
Clinton administration to impede any investigation or affect an 
investigation, and all 93 U.S. attorneys were fired within 12 
days of Attorney General Reno taking office, simply for 
political reasons, is that a crime?
    Mr. Gonzales. No.
    Mr. Gohmert. No, it is not a crime?
    Mr. Gonzales. No.
    Mr. Gohmert. So they can do that, strictly for political 
reasons.
    Mr. Gonzales. The U.S. attorneys serve at the pleasure of 
the President of the United States.
    Mr. Gohmert. Well, if it turned out that this was a joint 
decision by the Attorney General and the White House in 1993, 
and others within the Justice Department, to have all 93 
resigned at the same time, is that a crime in and of itself?
    Mr. Gonzales. No.
    Mr. Gohmert. Now, we have also heard across the aisle 
reference to a U.S. attorney named McKay. And I would reference 
a article from The Weekly Standard, March 14, 2007, which 
indicated that U.S. Attorney John McKay from Washington state--
in 2004, the governor's race was decided in favor of Democrat 
Christine Gregoire by 129 votes on the third recount.
    As the Seattle Post-Intelligencer and other media outlets 
reported, some of the voters were deceased. Others were 
registered in storage rental facilities. And still others were 
convicted felons. More than 100 ballots were discovered in a 
Seattle warehouse.
    None of this constitutes proof that the election was 
stolen. But it should have been enough to prompt Mr. McKay, a 
Democrat, to investigate--something he declined to do, 
apparently on grounds he had better things to do.
    Now, if you or the President--particularly the President, 
since you have said they serve at the pleasure of the 
President--if somebody were fired because they would not 
investigate what appeared to be problematic and potentially a 
crime, is that a legitimate basis for a firing or resignation?
    Mr. Gonzales. Of course, it could be, depending on the 
circumstances. Obviously, if a crime has been committed, 
potentially committed, I mean, there is an obligation upon the 
Department of Justice to investigate and to prosecute. There 
obviously is prosecutory discretion----
    Mr. Conyers. We have a time problem, Mr. Gohmert.
    Mr. Gohmert. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Conyers. And I thank you, sir.
    The Chair recognizes a former assistant U.S. attorney 
himself, Adam Schiff of California.
    Mr. Schiff. Mr. Gonzales, I wanted to go over some of your 
testimony in the Senate. You testified in September of 2005, 
Senator Domenici called you to complain that Mr. Iglesias was 
in over his head and lacked the resources to prosecute 
corruption cases. Is that correct?
    Mr. Gonzales. I don't know if I said in connection with 
that particular call that he lacked the resources. I think what 
I testified to was the fact that he was concerned that Mr. 
Iglesias did not have the top talent working on public 
corruption cases generally.
    And I think in subsequent conversations that occurred in 
2006, I think there were concerns raised by Senator Domenici 
about whether or not there were sufficient resources available 
to handle other kinds of cases.
    Mr. Schiff. Well, you testified in the Senate that he told 
you in these conversations that he lacked the resources to 
handle corruption cases. Are you saying that is not correct 
today?
    Mr. Gonzales. What I am saying is that I recall him saying 
with respect to some of the conversations. I don't recall, 
sitting here today, that he said that with respect to the first 
case.
    What I recall in the first conversation was Senator 
Domenici questioned whether or not, does Mr. Iglesias have his 
best people working on these kinds of very difficult cases?
    Mr. Schiff. On corruption cases?
    Mr. Gonzales. That is my recollection, yes.
    Mr. Schiff. So in September 2005, he talked to you about 
corruption cases. In January of 2006, you spoke with him again. 
Again, he complained about Mr. Iglesias and his handling or 
lack of resources with respect to corruption cases, correct?
    Mr. Gonzales. My recollection, Congressman, is that the 
subsequent--I have a recollection that in one of the 
conversations, which I believe occurred in 2006, one of the two 
conversations that I had, he mentioned generally voter fraud 
cases. That is the extent of my recollection.
    Mr. Schiff. In none of your Senate testimony do you 
indicate that Senator Domenici talked to you about voter fraud, 
only about corruption cases.
    Mr. Gonzales. I don't remember being asked specifically 
about the conversations that I had in 2006, Congressman. 
Obviously, I mean----
    Mr. Schiff. Well, your testimony was that you had three 
conversations.
    Mr. Gonzales. Yes.
    Mr. Schiff. And there were two points that Senator Domenici 
made. First, that he was in over his head----
    Mr. Gonzales. I didn't mean----
    Mr. Schiff. Second, that he lacked resources to prosecute 
corruption cases----
    Mr. Gonzales. I didn't mean to imply that those were the 
only points or things said in those conversations.
    Mr. Schiff. So now you recall that he also talked about 
voter fraud cases?
    Mr. Gonzales. Yes. It is not a recollection that I have 
just sitting here today. But, yes, I have a recollection that 
the issue of voter fraud cases, generally--not specific cases, 
but generally--was raised in one of those two conversations in 
2006.
    Mr. Schiff. And you also said in the Senate that, as a 
result of your conversations with the senator, you lost 
confidence in Mr. Iglesias. Is that correct?
    Mr. Gonzales. Obviously, I was not surprised to see Mr. 
Iglesias's name recommended to me. The fact that the senior 
senator----
    Mr. Schiff. That is not my question. You testified in the 
Senate you lost confidence in him as a result of this. Is that 
correct?
    Mr. Gonzales. Not having the confidence of the senior 
senator and the senior leadership in the department was enough 
for me to lose confidence in Mr. Iglesias to recommend----
    Mr. Schiff. Okay. So you lost confidence in him after these 
three calls?
    In July of 2006, after these three conversations, you go 
out to New Mexico, you meet with Mr. Iglesias. You said not a 
word about losing confidence with him, did you?
    Mr. Gonzales. I don't recall mentioning that, no, sir.
    Mr. Schiff. In fact, you were there to announce you were 
providing resources not for corruption cases and not for voter 
fraud cases by for immigration cases, something you have never 
said Senator Domenici raised with you?
    Mr. Gonzales. I don't recall Senator Domenici raising with 
me concerns about immigration cases.
    Mr. Schiff. So nothing you did or said in July of 2006, 
during your meeting with Mr. Iglesias, is consistent with what 
you are saying now about your conversations with Senator 
Domenici?
    Mr. Gonzales. I don't recall raising these issues with Mr. 
Iglesias in my visit in 2006.
    Mr. Schiff. Now, you were the only one on the phone with 
Senator Domenici during these three calls. Is that correct?
    Mr. Gonzales. From my end. I don't know whether or not 
anyone was on the phone as well from his end.
    Mr. Schiff. So, on your end, you are the only one who would 
know what the substance of those conversations was?
    Mr. Gonzales. Again, I was the only one----
    Mr. Schiff. In March of this year, when Mr. Roehrkasse, 
your press spokesman, said that in none of these conversations, 
none of these three conversations, were corruption cases 
mentioned. That wasn't true, was it?
    Mr. Gonzales. Well, again, I don't know whether or not Mr. 
Roehrkasse was talking about specific corruption cases or as a 
general category. Senator Domenici did not mention specific 
corruption cases.
    Mr. Schiff. And you don't think that is misleading, for him 
to tell the country and for you to have a press conference the 
week after and not correct the record, for him to tell the 
country there was no mention of a corruption case in your 
conversations?
    Mr. Gonzales. There was no mention of a corruption case.
    Mr. Schiff. Oh, there was mention about corruption cases 
but not a corruption----
    Mr. Gonzales. I do not think it was misleading, 
Congressman.
    Mr. Schiff. Mr. Gonzales, I worked in the department for 6 
years. And I love that department. And it makes me ill to see 
what has happened to it.
    And for you to come here today and say there is nothing 
improper about firing a good prosecutor to make room for 
someone to pad their resume shows me how little respect you 
have for the professionals in your charge.
    Mr. Cannon. Would the gentleman yield?
    Mr. Schiff. And I hope you will reconsider your decision, 
and I hope you will resign, because the department is broken, 
and I don't think you are the one to fix it.
    Mr. Cannon. Would the gentlemen yield? Who is the 
prosecutor that the gentleman is referring to, Mr. Iglesias 
or----
    Mr. Conyers. The gentleman, time. Excuse me.
    Mr. Cannon. I ask unanimous consent for 30 seconds for the 
gentlemen to help clarify what he just said.
    Mr. Conyers. All right.
    Mr. Cannon. Were you referring to Mr. Cummins or Mr. 
Iglesias, when you made those really rather harsh statements to 
the Attorney General?
    Mr. Schiff. Mr. Chairman, what I am referring to are the 
three conversations the Attorney General had with Senator 
Domenici, in which he purportedly complained that Mr. Iglesias 
lacked the resources to prosecute corruption cases. He talked 
about--and then have----
    Mr. Cannon. Would the gentleman yield----
    Mr. Conyers. The gentleman is not going to get any more 
time, this gentleman. Finish your statement.
    Mr. Schiff. And the Attorney General's spokesman told the 
country, and the Attorney General failed to correct the record, 
that in none of these conversations was a corruption case or 
corruption cases mentioned. That, to me, is misleading to be 
charitable.
    Mr. Conyers. The gentleman's time has expired.
    And the last Member on the minority side to be recognized, 
as usual, is Jim Jordan from Ohio. [Laughter.]
    Mr. Jordan. That is usual because I am the newest Member of 
the Committee, right?
    Mr. Conyers. Exactly.
    Mr. Jordan. Okay.
    Mr. Conyers. That is the only reason.
    Mr. Jordan. Thank you. I appreciate that clarification.
    Thank you, Mr. Attorney General, for being with us this 
afternoon--this morning and this afternoon. I am not going to 
ask you about the U.S. attorney issue. I want to talk about two 
other things I think are timely.
    The first is, we have a constituent who has brought this to 
our attention, and there is also a ``Dear Colleague'' letter 
dated yesterday from Congressman Etheridge, Congressman King, 
Senator Leahy, Senator Specter regarding the Hometown Hero 
Survivor Benefit Act, a good piece of legislation I am sure you 
are familiar with.
    Mr. Gonzales. Yes.
    Mr. Jordan. And your department was a part of helping craft 
that, working with the Congress and helping put that law 
together 4 years ago.
    The letter points out--and this is, I guess, my concern as 
well--that there have only been two positive--and for those 
Members of the Committee who aren't familiar with the act, it 
is for EMTs, firefighters, police officers who suffer a heart 
attack or stroke in the line of duty when it is stressful duty, 
not something that is just routine, but actually out there 
serving their communities, serving the public, rescuing people.
    ``There have been 230 applications received by the 
department and only two positive determinations.'' I am reading 
from the letter, the ``Dear Colleague'' letter.
    Can you comment about why so few, when it actually passed 
several years ago, and, again, strong bipartisan support? I 
think the legislation was crafted narrowly, was well done, and 
would like your comment.
    Mr. Gonzales. But it created a whole new system of 
eligibility under the Public Safety Officers' Benefits Program, 
and rather complicated. And it took us a period of time to work 
on regulations.
    We received a lot of comments. We solicited a lot of 
comments about this. We went back and looked at the entirety of 
the program, quite frankly.
    And so those all became final on September 11, 2006. And so 
I think we are now in a position to move forward, and hopefully 
we can get some decisions made, certainly on a quicker basis.
    But that is the reason for the delay. It just took us 
longer than we anticipated to get these regulations in place.
    Mr. Jordan. Second issue is--and I am looking today at just 
a different issue altogether, but just wanted to bring it up, 
is in today's Washington Times. Want to know what your thoughts 
are and feelings and what the department is doing on the issue 
of sanctuary for illegal aliens.
    Some cities have certain policies in place. Some churches 
are adopting certain policies. There is a great article, as I 
pointed out, in today's Washington Times about that issue.
    Can you comment about that?
    Mr. Gonzales. I don't know specifically in terms of what we 
are doing specifically on this issue. Obviously, we have a job 
to do, in terms of the enforcement of Federal laws. But in 
terms of specifically what we may do with respect to 
communities that offer up sanctuary, I would like to have the 
opportunity to get back to you on that.
    Mr. Jordan. I will yield the balance of my time to--I was 
going to yield to Mr. Cannon, but I would yield to----
    Mr. Cannon. Thank you. Actually, I----
    Mr. Jordan [continuing]. Mr. Cannon.
    Mr. Cannon [continuing]. Asked the gentlemen to yield.
    And as long as Mr. Schiff is here, I just wanted to 
clarify: Mr. Schiff, if you don't mind, you talked about firing 
a U.S. attorney so that somebody else could pad his resume. 
Were you talking about Mr. Iglesias or did you mean Mr. Cummins 
as the U.S. attorney that was fired?
    Mr. Schiff. At the very end of my remarks, when I said that 
I thought that it was outrageous for the Attorney General to 
come here today----
    Mr. Cannon. But I actually want to be very specific.
    Mr. Schiff. And I am asking--I am asking--yes.
    Mr. Cannon. Were you talking about padding the resume of 
Mr. Griffin, which is unrelated to Mr. Iglesias? It is my time, 
and I would actually just like to clarify that for the record.
    Mr. Schiff. Well, if you will let me answer, I will be 
happy to clarify.
    What I am referring to is the Attorney General's response 
to Ms. Sanchez. When she asked, ``Don't you think it is 
improper to fire someone to allow somebody else to pad their 
resume, to fire a perfectly good prosecutor,'' and the Attorney 
General's response was, ``There is nothing improper about 
that.''
    Mr. Cannon. Reclaiming my time, you have two complaints 
about the Attorney General.
    Mr. Schiff. And I think there is something incredibly 
improper about that.
    Mr. Cannon. Reclaiming my time, you have two complaints 
against the Attorney General. One is what you accused him of, 
being improper; and the other is the padding the resume, and 
that goes back to Ms. Sanchez. And I was just trying to clarify 
that.
    I would like to point out for the record--in fact, it has 
been an interesting hearing, Mr. Chairman. We started out 
talking about bread crumbs, and, of course, with the $250,000 
that your side is spending on attorneys, we would hope that 
that would be more like caviar.
    But in any event, at some point we have to get to the gist 
of what the problem is here. And if the problem is whether or 
not Mr. Iglesias was competent or should be fired, let me just 
remind the panel that Mr. Margolis, who is not a political 
hack--he is a career guy, well-respected--said, ``Given 
everything I know today, he,'' referring to Mr. Iglesias, 
``would have been number one on my list to go.'' He later said 
that he was absolutely furious about the way Mr. Iglesias 
handled these kind of things.
    To challenge the Attorney General the way I think he has 
been challenged here just seems to me to be highly 
inappropriate. If you are concerned about the Department of 
Justice, let's get this thing solved, let's get the questions 
answered. We have had dozens of interviews----
    Mr. Conyers. The gentleman's time has expired.
    Mr. Cannon [continuing]. A dozen interviews and hearings. 
Let's get beyond this, unless there is something really----
    Mr. Conyers. The gentleman's time has expired.
    The Chair now recognizes as far as we can go, we are down 
to only three more witnesses--the gentleman from Alabama, Artur 
Davis; himself a former assistant U.S. attorney.
    Mr. Davis. Thank you, Mr. Chairman.
    General Gonzales, you have said several times that the U.S. 
senator, Senator Domenici, lost confidence in the U.S. 
attorney.
    Mr. Gonzales. That was my impression, yes.
    Mr. Davis. Is it your practice to sample the opinion of 
U.S. senators regarding their confidence in U.S. attorneys?
    Mr. Gonzales. No. What is really important----
    Mr. Davis. No, my question is: Is it your practice to 
sample----
    Mr. Gonzales. Can I give you the answer?
    Mr. Davis. Well, is it your practice to sample the opinion 
of U.S. senators regarding performance?
    Mr. Gonzales. What is important here is that there was a 
consensus recommendation by the senior leadership in the 
Department of Justice who knew the performance of U.S. 
attorneys----
    Mr. Davis. No, sir. I only have a limited amount of time, 
General Gonzales----
    Mr. Gonzales [continuing]. And made the recommendation to 
me.
    Mr. Davis. General, I have a limited amount of time. Is it 
your practice, yes or no, to sample the opinion of all 100 U.S. 
senators regarding the performance of United States attorneys?
    Mr. Gonzales. Of course not, but, in this particular case, 
what is important----
    Mr. Davis. Are there any Democratic senators--we only have 
a limited time, General.
    Mr. Gonzales. The senior leadership in the department gave 
me their base recommendations----
    Mr. Davis. I am not asking about Mr. Iglesias, General 
Gonzales. I am asking in general.
    Mr. Gonzales. I am responding----
    Mr. Davis. Are there any Democratic senators who have 
expressed concern about U.S. attorneys, and have there been 
terminations based on the concern of Democratic senators, yes 
or no?
    Mr. Gonzales. Not that I can recall.
    Mr. Davis. Is there significant justification, Mr. 
Gonzales, for a significant disparity in the number of 
Democrats prosecuted versus the number of Republicans 
prosecuted, with respect to local elected officials? Was there 
any reason for that disparity?
    Mr. Gonzales. I wouldn't know if such a disparity existed. 
It is not something that we look at.
    Mr. Davis. Would it concern you?
    Mr. Gonzales. It is not something we keep track of.
    Mr. Davis. Would it concern you if there were a disparity 
between the number of elected Democratic officials prosecuted 
and the number of elected Republican officials prosecuted?
    Mr. Gonzales. Well, again----
    Mr. Davis. Would it concern you if it existed, yes or no?
    Mr. Gonzales. It depends on the reasons for it.
    Mr. Davis. Well, I will ask to put it in the record, Mr. 
Chairman, a survey done by the University of Minnesota, which 
surveys prosecutions of local elected officials between 2001 
and 2006 and surveys with respect to the partisan affiliation. 
Eighty-five percent of the local officials prosecuted were 
Democrats. Twelve percent were Republicans----
    Mr. Cannon. Would the gentleman yield?
    Mr. Davis. No, I will not yield.
    Mr. Cannon. Well, are you----
    Mr. Davis. General Gonzales, do you dispute that 
characterization?
    Mr. Gonzales. I don't know the basis of this report. We 
don't keep that kind of numbers. And quite frankly, for us to 
do, that would be more alarming.
    Mr. Davis. Well, General Gonzales, let me ask you the 
question: Would it concern you if you did your own research and 
you discovered that there was a significant disparity?
    Mr. Gonzales. We are not going to do that kind of 
research----
    Mr. Davis. Would it concern you if it were reported----
    Mr. Gonzales [continuing]. Because I think it would be 
dangerous to do that kind of research.
    Mr. Davis. Would it concern you?
    Mr. Gonzales. Listen, it would concern me if we are not 
making cases based on the evidence.
    Mr. Davis. General Gonzales, I would represent to you 
that--and you can certainly check the data yourself--50 percent 
of the local elected officials in this country are Democrats, 
41 percent are Republicans. Again, I ask you the question: Do 
you have any reason to assert that seven times more Democrats 
are guilty of Federal crimes than Republicans?
    Mr. Gonzales. I have no way or knowing the legitimacy of 
this report you are citing to. I don't know the basis of these 
numbers.
    Mr. Davis. Let me, if I can, go back to the Wisconsin case 
to possibly test this theory. These were the facts in the 
Wisconsin case: A woman who was a career appointee, who had 
appointed by a Republican governor, was working for the State 
tourism department.
    She was indicted because a contract was awarded to a 
political contributor to the Democratic governor. There was no 
testimony at trial that she knew of the contribution. There was 
no testimony at trial that she was asked to award the contract 
to this particular company. And there was testimony at trial 
that the company was the lowest bidder.
    Are you aware that in that particular case involving 
Georgia Thompson the 7th Circuit vacated the conviction from 
the bench?
    Mr. Gonzales. Yes, I am aware of that.
    Mr. Davis. Do you know of any other case while you have 
been Attorney General where an appeals court vacated a 
conviction from the bench?
    Mr. Gonzales. Highly unusual.
    Mr. Davis. Does that concern you, sir?
    Mr. Gonzales. Well, again----
    Mr. Davis. Let me turn to--my time----
    Mr. Gonzales. The fact that we have a career prosecutor 
making decisions----
    Mr. Davis [continuing]. Let me turn to the Alabama case.
    Mr. Gonzales [continuing]. With Democratic officeholders--
--
    Mr. Davis. General, we can't both talk at the same time. I 
have the time, sir.
    The Alabama case, the former governor of Alabama, who was a 
Democrat, was indicted----
    Mr. Gonzales. Can I be allowed to answer questions?
    Mr. Conyers. Yes. The Attorney General has the privilege to 
respond to the question.
    Mr. Davis. Let me pose the Alabama context, and you can 
respond to both.
    Mr. Conyers. Well, wait a minute, Mr. Davis. Let's let him 
respond to the other question that you asked.
    Briefly, sir.
    Mr. Gonzales. The government prevailed at the lower court. 
We prevailed at the lower court.
    Mr. Davis. I take that answer.
    With respect to the governor of Alabama, the initial case 
against the former Democratic governor of Alabama dismissed by 
the 1st District judge before the case went to trial on grounds 
of insufficient facts.
    If I can finish the question, Mr. Chairman.
    The second time, General Gonzales----
    Mr. Conyers. You have----
    Mr. Davis. Permission to finish the question, sir?
    Mr. Conyers. Please, very briefly.
    Mr. Davis. Thirty-four count indictment, 32 counts 
dismissed, evidence of jury misconduct based on e-mails that 
were obtained. The U.S. attorney's office who prosecuted the 
case declined to investigate the jury misconduct and, indeed, 
sought to exclude the e-mails from even being heard in an 
evidentiary hearing.
    This is the question: Would you expect a U.S. attorney's 
office that had evidence of jury misconduct to investigate the 
misconduct or to try to exclude it from being heard in an 
evidentiary hearing? Which is the better practice, Mr. 
Gonzales?
    Mr. Gonzales. As a general matter, the former. But I am not 
going to comment on this particular case without looking at the 
facts.
    Mr. Conyers. The Chair wishes to recognize Dan Lungren for 
a request.
    Mr. Lungren. Mr. Chairman, I ask unanimous consent to 
include in the record three articles: two of them from the 
Albuquerque Journal, one from the Albuquerque Lawyer. The first 
one, April 15, 2007, entitled, ``Iglesias Had Buried Critics 
During Career''; the second one, ``Domenici Sought Iglesias 
Ouster,'' that is Sunday, April 15, 2007; and the third, from 
the Albuquerque Lawyer, March 15, 2007, ``Iglesias Earns His 
Firing.''
    Mr. Conyers. Without objection, so ordered.
    [The articles follow:]
   Articles published in various sources, submitted by the Honorable 
   Daniel E. Lungren, a Representative in Congress from the State of 
           California, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Lungren. Thank you.
    Mr. Conyers. May I commend the Attorney General on his 
endurance and patience during this very grueling day.
    We have votes. I have two distinguished Members of this 
Committee that I cannot short-circuit. So I ask you to bear 
with us again.
    But thank you, and the Committee stands in recess. We will 
resume immediately after the vote.
    [Recess.]
    Mr. Conyers. We begin by, again, thanking the Attorney 
General for his continuing steadfastness with us. We know this 
has been more grueling on you than anybody else. It has been a 
long day for us all, and we admire your cooperation, sir.
    The Chair recognizes Debbie Wasserman Schultz of Florida.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    General Gonzales, I can speak, I think, both for Mr. 
Ellison and myself. Thank you for your staying to the end for 
the end-of-the-benchers over here. We almost always are given 
an opportunity to ask questions, and we appreciate the full 
opportunity to do that.
    Given that I am from a State that decided the closest 
presidential election in American history, you might imagine 
that I would have some concern and interest over voter fraud 
and voter suppression.
    This is Merriam-Webster's dictionary, and I want read for 
you the definition in this dictionary of ``fraud'': 
``intentional perversion of truth in order to induce another to 
part with something of value or to surrender a legal right.''
    Now, Mr. Lungren from California earlier today talked about 
the priorities of the Administration and the direction that was 
perhaps given to U.S. attorneys to pursue voter fraud as a 
priority of the Administration.
    And I am going to assume for the record that that was a 
priority of the Administration and it was communicated to U.S. 
attorneys, as you have indicated in your testimony today.
    Mr. Gonzales. The way I would characterize, it was 
important. I mean, it was important to the Administration.
    Ms. Wasserman Schultz. Okay, priorities are important, so I 
am assuming that in my line of questioning. So that having been 
said, generally I would expect that the pursuit of voter fraud 
would be along the lines of organized efforts to corrupt the 
election process.
    And given the dictionary definition that I just read for 
you, I want you to tell me whether you think that pursuing a 
jewelry store owner who got into trouble after a clerk at the 
motor vehicles' office had given him a registration form to 
complete that he quickly filled out in line and was unaware 
that it was reserved just for United States citizens, a 68-
year-old man named Mr. Ali, whether you think--and that is from 
The New York Times article of April 16--whether you think that 
that meets the definition of ``fraud'' as Merriam-Webster 
defines it, and also in terms of widespread voter corruption.
    Before you answer, I want to give you two other examples. 
In Alaska, Rogelio Mejorada-Lopez managed a gasoline station. 
He received a voter registration form the mail. Before he had 
applied for citizenship, he thought it was permissible to vote. 
He now might be deported to Mexico after 16 years in the United 
States. Does that meet the dictionary definition, or a 
definition of widespread voter fraud?
    There is also an example of someone who was actually 
deported because they made an innocent mistake in filling out a 
voter registration application. Is that an example of the 
priorities or the importance that was given in terms of the 
instructions that you relayed to the United States attorneys in 
terms of pursuing voter fraud?
    Mr. Gonzales. At one point, you described it as an innocent 
mistake. If, in fact, we are talking about innocent mistakes, 
mistakes happen. If you are talking about intentionally 
stealing votes, intentionally canceling out----
    Ms. Wasserman Schultz. No, I am not. I am talking about the 
examples that I just gave you.
    Mr. Gonzales. Yes, I mean, those examples would not be ones 
that I would view as--and I don't think U.S. attorneys, quite 
frankly, would look at those cases as priorities.
    Ms. Wasserman Schultz. Those are all cases that were 
prosecuted by U.S. attorneys. All of them.
    Mr. Gonzales. There are more egregious examples. And, 
again----
    Ms. Wasserman Schultz. Not that the department pursued.
    Mr. Gonzales [continuing]. You are taking--well, I don't 
know all the facts here. And so, out of fairness to the 
decisions, if, in fact, there were decisions made by U.S. 
attorneys to prosecute these kinds of cases, I don't know 
whether or not there are additional facts that may have made a 
difference in moving forward with these kinds of prosecutions.
    Ms. Wasserman Schultz. General Gonzales, I have had a 
really hard time today figuring out what it is you do know. I 
have sat through this entire hearing, and most of your answers 
have been you don't know.
    Now, you know what? I am 40 years old, and I am reaching a 
point where I have spottiness in my memory too. But something 
as significant as the lapses in memory that you seem to have 
had related to the firing of U.S. attorneys and something as 
significant as not knowing whether or not there has been 
widespread pursuit by your U.S. attorneys to investigate and 
pursue corruption and voter fraud, as opposed to individual 
cases--these are individual cases cited in a New York Times 
article, the headline of which is ``In Five-Year Effort, Scant 
Evidence of Voter Fraud.''
    Here is serious----
    Mr. Gonzales. Are you basing your questions based on a 
newspaper article?
    Ms. Wasserman Schultz. I am basing my questions based on 
U.S. attorneys quoted in this newspaper article. In Miami, an 
assistant United States attorney said many cases there involved 
what were apparently mistakes by immigrants, not fraud. The 
headline says ``In Five-Year Effort, Scant Evidence of Voter 
Fraud.''
    So if this was a priority, how was it communicated to the 
U.S. attorneys and why were they not pursuing it in terms of 
widespread corruption, as opposed to pursuing individual cases 
that apparently were mistakes?
    Mr. Gonzales. Well, again----
    Ms. Wasserman Schultz. As opposed to----
    Mr. Conyers. Ten seconds remaining.
    Mr. Gonzales. Well, of course, I mean, again these are 
decisions made by the United States attorneys in terms of what 
is appropriate. And, you know, I guess it may be easy to sit 
here and criticize the prosecutorial decisions made by the 
United States attorneys----
    Ms. Wasserman Schultz. But that is why they were fired.
    Mr. Gonzales [continuing]. We have an obligation----
    Ms. Wasserman Schultz. That is why a number of them were 
fired--you did criticize them.
    Mr. Gonzales [continuing]. To enforce the law, including 
voter fraud.
    Mr. Conyers. The time of the gentlelady has expired.
    Ms. Wasserman Schultz. Mr. Chairman, can I ask unanimous 
consent for 30 more seconds? I mean, we sat here the whole day, 
Mr. Chairman, and a number of other Members had that 
opportunity.
    Mr. Conyers. I am totally persuaded. [Laughter.]
    Ms. Wasserman Schultz. Thank you very much. I appreciate 
it.
    General Gonzales, I just want to point out what you said on 
April 19th in response to a question by Senator Cardin, which 
was your opinion as you expressed it about voter fraud and it 
being a priority. You made a reference to your growing up in a 
poor neighborhood and that the 1 day you were equal to everyone 
else was on Election Day, and so you really appreciated how 
important the right to vote is.
    ``Voter fraud, to me,'' quoting you, ``means you are 
stealing somebody's vote. And so I take this very, very 
seriously. Having said that, in enforcing or prosecuting voter 
fraud, we need to be careful that we don't discourage people or 
intimidate people from participating on Election Day.''
    You clearly have not struck the right balance. And your 
statements in Committee and your answers to questions here and 
the evidence that is clear from the U.S. attorneys under your 
control, pursuing innocent mistakes as opposed to widespread 
corruption are evident.
    I yield back the balance of my time.
    Mr. Conyers. Do you care to respond?
    Mr. Gonzales. No.
    Mr. Conyers. Our final speaker is an eminent Member of this 
Committee, done great work, from Minnesota, Mr. Keith Ellison.
    Mr. Ellison. Thank you, Mr. Chair.
    And thank you for your endurance, Attorney General 
Gonzales.
    I think it is fair to say that the eight people who were 
dismissed were--you stand by those dismissals because, in your 
view, there were questions about performance. Is that a fair 
statement?
    Mr. Gonzales. Well, you know, I think that the problem 
about saying ``performance'' is that it means so many different 
things to different people.
    Mr. Ellison. Right. But in terms of your office's calculus, 
that is what you were thinking when the dismissal decision was 
made?
    Mr. Gonzales. That was the whole purpose of this process.
    Mr. Ellison. Right. And so you are concerned about 
performance of U.S. attorneys, right?
    Mr. Gonzales. I think we all should be.
    Mr. Ellison. Right, and that includes you?
    Mr. Gonzales. Yes.
    Mr. Ellison. And do you know Rachel Palouse?
    Mr. Gonzales. Yes, I do.
    Mr. Ellison. She worked for you directly, right?
    Mr. Gonzales. She worked, yes, in the department, yes, in 
main Justice.
    Mr. Ellison. Right. And recently, well, I think, four 
senior members of her staff resigned because of her performance 
issues. Is she still on staff? Is she still a U.S. attorney 
after those--is she still on staff?
    Mr. Gonzales. Yes, she is. And I am certainly aware of the 
problems in that office.
    Mr. Ellison. This is my question. So the people who took--
they took voluntary demotions, right?
    Mr. Gonzales. As I understand it, that is correct.
    Mr. Ellison. And also, with those voluntary demotions, they 
took pay cuts, right?
    Mr. Gonzales. That I am not aware of.
    Mr. Ellison. And so, it was because of their objections to 
her performance, right?
    Mr. Gonzales. As far as I understand, that is correct.
    Mr. Ellison. And this was a U.S. attorney who you know 
personally, right?
    Mr. Gonzales. Yes, I do.
    Mr. Ellison. In fact, you sent Mr. John Kelly down there to 
investigate the situation, right?
    Mr. Gonzales. Absolutely. We became aware of the problems 
in that office, and we sent a career prosecutor to make an 
evaluation and report back to us.
    Mr. Ellison. So that is a yes. That is a yes. And when did 
you do that? When did Mr. Kelly go down and talk to members of 
the staff?
    Mr. Gonzales. I would say within the past 2 months. I think 
either shortly before or after these individuals left their 
management position in the office we sent someone down there, 
Mr. Kelly, to give us an evaluation of what was going on, 
because we were obviously very concerned about----
    Mr. Ellison. And Mr. Kelly talked with numerous people in 
the office, right?
    Mr. Gonzales. That is what I understand.
    Mr. Ellison. And he took notes of what people said to him, 
right?
    Mr. Gonzales. I don't know if he took notes, but he 
reported back what he learned.
    Mr. Ellison. So just to be clear, he took notes. Isn't that 
true?
    Mr. Gonzales. Congressman, I don't know----
    Mr. Ellison. Is there a document that would summarize what 
he learned on his visit to Minnesota?
    Mr. Gonzales. I am not aware that such a document exists. 
Such a document----
    Mr. Ellison. If such a document exists, would you provide 
it?
    Mr. Gonzales. I am happy to take that request back, 
Congressman.
    Mr. Ellison. Okay.
    Now, I sent you a letter earlier this week, isn't that 
right? Are you aware that I sent you a letter?
    Mr. Gonzales. I am not aware of the letter, but I get lots 
of letters and I am sure at the appropriate----
    Mr. Ellison. Okay.
    Mr. Gonzales. I mean, I am sure I will make myself aware 
of----
    Mr. Ellison. If I sent a letter to your office and if I got 
a response back that it had been received, I can expect a full 
answer to the letter. Would you agree with that?
    Mr. Gonzales. We try to be as forthcoming as we can, in 
responding back to the Congress.
    Mr. Ellison. Now, Ms. Paulose, she was appointed after a 
gentleman named Mr. Thomas Heffelfinger. Is that right?
    Mr. Gonzales. He was the U.S. attorney before Ms. Paulose?
    Mr. Ellison. And he had a good reputation, isn't that 
right?
    Mr. Gonzales. As far as I know, that is correct.
    Mr. Ellison. And yet he appeared on a list to be fired that 
was in your office, that was pulled together by Mr. Sampson. 
Isn't that right?
    Mr. Gonzales. My understanding is that his name appeared 
with all the other 93 United States attorneys, but the views of 
Mr. Sampson were reflected----
    Mr. Ellison. So that is one you don't--you don't know that 
one.
    Mr. Gonzales. Well, my recollection is that he was 
identified as someone that perhaps there may be issues with.
    Mr. Ellison. Right. And yet, these issues didn't come from 
Minnesota, did they? These were not Minnesota concerns, to your 
knowledge.
    Mr. Gonzales. Well, again, I don't know the source, why Mr. 
Sampson had that particular view----
    Mr. Ellison. So you don't know that one----
    Mr. Gonzales. That is correct.
    Mr. Ellison. Okay. So here we have Mr. Heffelfinger, career 
prosecutor, and had prosecuted many cases, 58 years old, done 
the job for years. Ms. Paulose was, what, 34 when she was 
appointed. Is that right?
    Mr. Gonzales. Relatively young. I am not sure her exact 
age.
    Mr. Ellison. Did she go through a Senate confirmation 
process?
    Mr. Conyers. Thirty seconds remaining.
    Mr. Gonzales. Yes, she did. She was deemed----
    Mr. Ellison. There was a vote?
    Mr. Gonzales. She was deemed--I don't know if it was a 
vote, but she was confirmed by the United States Senate as 
qualified to be the United States attorney in that district.
    Mr. Ellison. And did the Senate have a vote?
    Mr. Gonzales. You mean----
    Mr. Ellison. A Committee vote, voting for her, or was it 
another kind of process?
    Mr. Gonzales. What I know is that she was confirmed by the 
United States Senate.
    Mr. Ellison. Is she going to remain in her position, given 
the performance problems that have come to your personal 
attention?
    Mr. Gonzales. Well, if things do not change, obviously that 
would be something we would----
    Mr. Conyers. Time of the gentleman has expired.
    Mr. Gonzales [continuing]. We would have to consider. But 
we have expressed to Mr. Paulose our concerns. And so we are 
going to work with her----
    Mr. Ellison. Unanimous consent for one last question?
    Mr. Conyers. Go ahead.
    Mr. Ellison. Did any of the eight individuals who we know 
were fired for allegedly performance issues have people 
quitting and going back to line position in response to the 
difficulties that came about as a result of their leadership?
    Mr. Gonzales. Not that I recall. Of course, the difference 
is, all eight of these individuals served their full 4-year 
term.
    Mr. Conyers. Thank you so much, sir. It has been a long 
day. We thought that our day here was longer than your visit in 
the Senate Judiciary a little while ago, but we appreciate your 
cooperation and your endurance.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions for you, which we will 
forward and ask you to return so that they may be made part of 
the record.
    Without objection, the record will be open for 5 
legislative days for the submission of these and any other 
material.
    Mr. Attorney General, the matters we have been discussing 
today are of utmost importance, and I am concerned that we are 
still not getting the cooperation we need to get to the bottom 
of them. I am, frankly, disappointed that you are unable to 
answer the first and most basic question of who put these U.S. 
attorneys on the firing list and why?
    Numerous times today, you have made the statements ``I 
don't know'' or you would have to go back and check, or you 
don't remember. It is clear to me that we, on this Committee, 
have a serious duty to press forward with our investigation and 
for meaningful information from the White House. The bread 
crumbs that we referred to earlier seem to be leading to 1600 
Pennsylvania Avenue.
    In the meantime, added to our other requests, we ask that 
you provide us with all documents, continue to provide us, and 
in unredacted form, relating in any way to the termination of 
the ninth terminated U.S. attorney, Mr. Todd Graves. Would you 
be able to do that?
    Mr. Gonzales. Mr. Chairman, I will obviously take your 
request back. I am not in a position to guarantee that that can 
be done, but I understand your request.
    Mr. Conyers. Thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 4:13 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    Mr. Chairman, thank you for holding this very important hearing. In 
addition to holding the seat of my hero, role model, and predecessor, 
the incomparable Barbara Jordan, one of the reasons that I have been so 
proud to be a member of the Committee on the Judiciary throughout my 
seven terms in Congress is that this Committee has oversight 
jurisdiction over the Department of Justice, which I have always 
regarded as the crown jewel of the Executive Branch.
    In recent years the reputation of that Department, which has done 
so much to advance the cause of justice and equality for all Americans 
through the years under the leadership of such great Attorney Generals 
as Robert Jackson, Robert F. Kennedy, Nicholas Katzenbach, Herbert 
Brownell, Harlan Fiske Stone, Francis Biddle, Tom C. Clark and his son 
Ramsey, and Elliot Richardson, has been tarnished. And that is putting 
it charitably. This Committee has no greater challenge and obligation 
to the nation than to help restore the Department of Justice to its 
former greatness. But before we can begin to set it right we have to 
get to the bottom as to how it went wrong.
    It is in that spirit that I welcome our witness, the Attorney 
General of the United States and a fellow Texan, the Honorable Alberto 
Gonzalez. Welcome Mr. Attorney General.
    Anyone who has observed this Committee over the years knows that I 
have a deep and abiding passion about the subjects within this 
Committee's jurisdiction: separation of powers, due process, equal 
justice, habeas corpus, juvenile justice, civil liberties, antitrust, 
and intellectual property. But Mr. Chairman, today I wish to focus on 
the record and performance of the Department of Justice in three areas: 
(1) the unceremonious firing of the 8 United States Attorneys, what 
some have referred to as the ``December 7 Massacre''; (2) the 
Department's dismal record in the area criminal civil rights law 
enforcement; and (3) its performance in the area of justice and 
protection of juvenile offenders and others held in custody in the 
municipal jails of Texas and the rest of the country. Allow me to 
describe my substantial concerns and the responses I hope to hear from 
the Attorney General.

                        CIVIL RIGHTS ENFORCEMENT

    Mr. Chairman, the Department of Justice is the nation's largest law 
enforcement agency and it is no exaggeration to state that its Civil 
Rights Division used to be the nation's largest civil rights legal 
organization. It wields the authority and the resources of the federal 
government on difficult and complex issues and has helped bring about 
some of the greatest global advances for civil rights. However, the 
Department's record under this Administration indicates that it is not 
living up to its tradition of fighting for equal justice under law and 
championing the rights of the powerless and vulnerable. The Civil 
Rights Division has simply neglected to bring challenging cases that 
could yield significant rulings and advance the cause of civil rights 
in our country.
    The Bush administration has abdicated its responsibility to enforce 
the nation's most critical laws. For example, since January 20, 2001, 
the Bush Administration has filed 32 only Title VII cases, an average 
of approximately 5 cases per year. In contrast, the prior 
Administration filed 34 cases in its first two years in office alone, 
and 92 in all, for an average of more 11 cases per year.
    Moreover, a close look at the types of cases reveals an even more 
disturbing fact, which is a failure to bring suits that allege 
discrimination against African-Americans. Of the 32 Title VII cases 
brought by the Bush Administration, 9 are pattern or practice cases, 5 
of which raise allegations of race discrimination but only one case--1 
case--involved discrimination against African Americans. In contrast, 
the Clinton Administration filed 13 pattern or practice cases, 8 of 
which involved racial discrimination.
    The record is not much better when it comes to the subject of 
voting rights enforcement. After six years, the Bush Administration has 
brought fewer Section 2 cases, and brought them at a significantly 
lower rate, than any other administration since 1982.
    The Voting Section filed a total of 33 involving vote dilution and/
or other types of Section 2 claims during the 77 months of the Reagan 
Administration that followed the 1982 amendment of Section 2. Eight (8) 
were filed during the 48 months of the Bush I Administration and 34 
were filed during the 96 months of the Clinton Administration. Only 10 
have been filed so far during the first six years of the Bush II 
Administration.
    But the record is really bad when it comes to enforcement of the 
federal criminal civil rights law. According to an analysis of Justice 
Department data by the Seattle Post-Intelligencer, civil rights 
enforcement no longer appears to be a top departmental priority. An 
analysis of the data reveals that between 2001 and 2005, the number of 
federal investigations targeting abusive police officers declined by 66 
percent and investigations of cross-burners and other purveyors of hate 
declined by 60 percent.
    It appears that this downward trend accelerated after the 9/11 
attacks. There has been a slight increase in enforcement related to 
human trafficking, which is counted under civil rights, but not enough 
to stop the overall slide.
    I am very troubled by this trend. Hate-crimes are too dangerous to 
ignore, and there is social value in effective federal review of police 
misconduct. I am anxious to hear the Attorney General's responses to 
these serious problems.
    Additionally, Mr. Chairman, most of the Department's major voting-
related actions of the past five years have been beneficial to the 
Republican Party, including two in Georgia, one in Mississippi and the 
infamous redistricting plan in Texas, which the Supreme Court struck 
down in part. For years we have heard stories of current and former 
lawyers in the Civil Rights Division alleging that political appointees 
continually overruled their decisions and exerted undue political 
influence over voting rights cases. Indeed, one-third of the Civil 
Rights Division lawyers have left the department and the remaining 
lawyers have been barred from making recommendations in major voting 
rights cases.
    As I indicated earlier, it appears the Justice Department has 
abandoned its mission in cases involving abusive police practices. The 
Department's Special Litigation Section is charged with handling cases 
under Police Pattern or Practice Litigation. These ``police abuse'' 
prosecution cases numbered about 20 nationwide as of 2006, according to 
a leading scholar on the subject, Professor Sam Walker at the 
University of Nebraska at Omaha. Very few, if any, consent decrees have 
been entered into under the Bush Administration. While the Bush 
Administration has entered into several memorandum-of-agreement 
settlements, there has been no effort to address the on-going problems 
of the most problematic agencies. Progress has ground to a halt and the 
special litigation section hasn't initiated any new cases in years. As 
recent cases in New York, Atlanta and Los Angeles make all too clear, 
police abuse is still alive and well in America.

                         U.S. ATTORNEY FIRINGS

    Mr. Chairman, excluding changes in Administration, it is rare for a 
United States Attorney to not complete his or her four-year term of 
appointment. According to the Congressional Research Service, only 54 
United States Attorneys between 1981 and 2006 did not complete their 
four-year terms. Of these, 30 obtained other public sector positions or 
sought elective office, 15 entered or returned to private practice, and 
one died. Of the remaining eight United States Attorneys, two were 
apparently dismissed by the President, and three apparently resigned 
after news reports indicated they had engaged in questionable personal 
actions.
    Mr. Chairman, in the past few months disturbing stories appeared in 
the news media reporting that several United States Attorneys had been 
asked to resign by the Justice Department. It has now been confirmed 
that at least seven United States Attorneys were asked to resign on 
December 7, 2006. An eighth United States Attorney was subsequently 
asked to resign. They include the following:

        <bullet>  H.E. Cummins, III, U.S. Attorney (E.D. Ark.);

        <bullet>  John McKay, U.S. Attorney (W.D. Wash.);

        <bullet>  David Iglesias, U.S. Attorney (D. N.M.);

        <bullet>  Paul K. Charlton, U.S. Attorney (D. Ariz.);

        <bullet>  Carol Lam, U.S. Attorney (S.D. Calif.);

        <bullet>  Daniel Bogden, U.S. Attorney (D. Nev.);

        <bullet>  Kevin Ryan, (N.D. Calif.); and

        <bullet>  Margaret Chiara, (W.D. Mich.).

    On March 6, 2007, the Subcommittee on Commercial and Administrative 
Law held a hearing entitled, ``H.R. 580, Restoring Checks and Balances 
in the Confirmation Process of United States Attorneys.'' Witnesses at 
the hearing included six of the eight former United States Attorneys 
and William Moschella, Principal Associate Deputy Attorney General, 
among other witnesses.
    Six of the six former United States Attorneys testified at the 
hearing and each testified that he or she was not told in advance why 
he or she was being asked to resign. Upon further inquiry, however, 
Messrs. Charlton and Bogden were advised by the then Acting Assistant 
Attorney General William Mercer that they were terminated essentially 
to make way for other Republicans to enhance their credential and pad 
their resumes. In addition, Messrs. Iglesias and McKay testified about 
inappropriate inquiries they received from Members of Congress 
concerning pending investigation, which they surmised may have led to 
their forced resignations.
    It is now clear that the manifest intention of the proponents of 
the provision in the USA PATRIOT Act Reauthorization regarding the 
appointment of interim U.S. Attorneys was to allow interim appointees 
to serve indefinitely and to circumvent Senate confirmation. We know 
now, for example, that in a September 13, 2006 e-mail to former White 
House Counsel, Harriet Miers, Attorney General Chief of Staff, Kyle 
Sampson wrote:

        ``I strongly recommend that, as a matter of Administration 
        policy, we utilize the new statutory provisions that authorize 
        the Attorney General to make U.S. Attorney appointments.''

    Mr. Sampson further said that by using the new provision, DOJ could 
``give far less deference to home-State Senators and thereby get (1) 
our preferred person appointed and (2) do it far faster and more 
efficiently, at less political cost to the White House.''
    Regarding the interim appointment of Tim Griffin at the request of 
Karl Rove and Harriet Miers, Mr. Sampson wrote to Monica Goodling, 
Senior Counsel to the White House and Liaison to the White House on 
December 19, 2006 the following:

        ``I think we should gum this to death: ask the Senators to give 
        Tim a chance, meet with him, give him some time in office to 
        see how he performs, etc. If they ultimately say, `no never' 
        (and the longer we can forestall that, the better), then we can 
        tell them we'll look for other candidates, and otherwise run 
        out the clock. All of this should be done in `good faith,' of 
        course.''

    We now know that after gaining this increased authority to appoint 
interim U.S. Attorneys indefinitely, the Administration has exploited 
the provision to fire U.S. Attorneys for political reasons. A mass 
purge of this sort is unprecedented in recent history. The Department 
of Justice and the White House coordinated this purge. According to an 
Administration ``hit list'' released on Tuesday, U.S. Attorneys were 
targets for the purge based on their rankings. The ranking relied in 
large part on whether the U.S. Attorney ``exhibit[ed] loyalty to the 
President and Attorney General.''
    Mr. Chairman, until exposed by this unfortunate episode, United 
States Attorneys were expected to, and in fact did exercise, wide 
discretion in the use of resources to further the priorities of their 
districts. Largely a result of its origins as a distinct prosecutorial 
branch of the federal government, the office of the United States 
Attorney traditionally operated with an unusual level of independence 
from the Justice Department in a broad range of daily activities. That 
practice served the nation well for more than 200 years. The practice 
that was in place for less than two years served the nation poorly. It 
needed to end. That is why I was proud to have voted for its repeal and 
the restoration of the status quo ante.
    Mr. Chairman, I believe the Attorney General has a heavy burden in 
defending what appears to be indefensible conduct. But I am willing to 
listen and keep an open mind.

            TEXAS JUVENILE AND OTHER CORRECTIONS FACILITIES

    Mr. Chairman, the third and final area I wish to discuss concern 
the care and protection of juvenile offenders in state correctional 
facilities and the care and safety of those being held in custody in 
county and municipal jails in Texas and around the country.
    In my home state of Texas, certain administrators and officials, 
past and maybe current, of the Texas Youth Commission (TYC) have 
obviously neglected their duties. According to published reports and 
investigations, several TYC administrators abused their authority by 
pulling young boys out of their dorm rooms and classrooms and sexually 
molesting them. The allegations of abuse have been a matter of public 
record since 2000. In 2005, an investigation conducted by the Texas 
Rangers revealed that employees of the juvenile facility in Pyote, 
Texas, had repeated sexual contact with juvenile inmates.
    Additionally, several members of the TYC board, who are responsible 
for the oversight of TYC facilities, admit that they were aware of the 
finding in the report prepared by Texas Rangers but took no corrective 
action. The current scandal surrounding TYC is scandalous and 
outrageous; quite frankly it sickens me. The situation within the TYC 
disregards every notion of justice and will contribute to the rise of 
recidivism rates if it is not arrested immediately.
    Let me turn to another horrifying area of inmate abuse. Between 
January 2001 and January 2006, at least 101 persons, an average of 
about 17 a year, have died while in the custody of the Harris County 
Jail, located in Houston, Texas. In 2006 alone there were 22 deaths. I 
find it especially disturbing that of the 101 deaths, at least 72 of 
the inmates were awaiting court hearings and had yet to be convicted of 
the crimes for which they were taken into custody.
    In our system every accused person is entitled to life, liberty, 
and the pursuit of happiness, and a presumption of innocence. These 72 
individuals, however, were deprived of their life without the due 
process guaranteed by the Constitution. They will not ever receive 
their day in court to be judged by their peers because of the 
irresponsibility, incompetence, indifference, and perhaps the criminal 
neglect, of the jail officials to whose care they were entrusted.
    I believe the situation in the Harris County Jail System requires 
national attention. When it is alleged that inmates are sleeping on the 
floor next to toilets and denied basic medical care, something must be 
done. The conditions at these jails border on cruel and unusual 
punishment. Should fault or wrongdoing be found, the persons 
responsible should be held accountable. Seeing that such authorities 
are held accountable is ultimately the responsibility of the United 
States Department of Justice. I am interested to hear the Attorney 
General's views on these matters.
    Again, thank you Mr. Chairman for holding this hearing. I yield the 
remainder of my time.

Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress from the State of California

    Thank you for yielding me the time, Mr. Chairman.
    Mr. Gonzales, thank you for coming up here today to testify before 
this committee. You will face a number of questions, some may be fair 
and go to the purpose of the hearing, which is oversight of the 
Department of Justice. Other questions may be less than fair and focus 
on politics, instead of the operation of the Justice Department.
    I appreciate your efforts to keep our country save from another 
terrorist attack. As the recent arrests in New Jersey demonstrate, 
national security must be our first priority. An important lesson from 
the recent arrests this week is that improved immigration enforcement 
is a key element of an effective counter-terrorism policy.
    I do want to commend you for increased enforcement of our 
immigration laws, but as you know, we have a long way to go. Too many 
illegal immigrants, drug smugglers and human traffickers are still able 
to illegally cross our borders and flout our immigration laws.
    I look forward to hearing your testimony and I will have questions 
at the appropriate time. I yield back the balance of my time.
    Mr. Gonzales, the Washington Post reported this morning that at 
least two members of the alleged terrorist cell in New Jersey were 
illegal aliens and had been stopped by police repeatedly for traffic 
violations. This is eerily similar to the case of Mohammed Atta, who 
was here illegally, was pulled over by the Florida state patrol for a 
traffic violation--a mere month before flying a plane into the World 
Trade Center. What steps is the Department of Justice taking to ensure 
that illegal aliens who are stopped for traffic violations or other 
crimes are identified and deported?
    Mr. Gonzales, in the last 18 months of your term, what steps are 
you planning to take to improve the process of prosecuting those who 
violate our immigration laws, particularly drug smugglers and human 
traffickers.
Post-Hearing Questions from the Honorable John Conyers, Jr., Chairman, 
   Committee on the Judiciary and Committee Members Robert C. Scott, 
 Sheila Jackson Lee, Tammy Baldwin, Luis V. Guiterrez, and Brad Sherman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Post-Hearing Questions from the Honorable Lamar Smith, a Representative 
 in Congress From the State of Texas, and Ranking Member, Committee on 
                             the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Responses to Post-Hearing Questions from the Honorable Alberto 
       Gonzales, Attorney General, U.S. Department of Justice \1\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------
\1\ The responses to post-hearing questions from the Honorable Alberto 
Gonzales include a series of attachments. Due to their large volume, 
the attachments are not printed as a part of this hearing record, but 
copies have been retained in the official Committee hearing record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
